<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]




 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2019

                              ----------                              


                         THURSDAY, MAY 10, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 10:05 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Jerry Moran (Chairman) presiding.
    Present: Senators Moran, Collins, Murkowski, Boozman, 
Capito, Lankford, Shaheen, Leahy, Reed, Schatz, Manchin, and 
Van Hollen.

                         DEPARTMENT OF COMMERCE

STATEMENT OF HON. WILBUR ROSS, SECRETARY

                OPENING STATEMENT OF SENATOR JERRY MORAN

    Senator Moran. Good morning, everyone, and welcome to our 
subcommittee's second budget hearing.
    I call to order the Senate Appropriations Subcommittee on 
Commerce, Justice, Science, and Related Agencies for the fiscal 
year 2019 budget.
    Today, we will hear from the Secretary of Commerce, Wilbur 
Ross, about the President's fiscal year 2019 funding priorities 
for the Department of Commerce. We welcome you, Mr. Secretary. 
You and I have known each other for a while, and I am glad to 
see you today, and I look forward to your testimony this 
morning.
    The Department of Commerce executes a broad range of 
activities critical to our Nation, which includes working with 
distressed communities to support economic development and job 
growth; managing the Federal use of spectrum and utilizing 
broadband programs to enhance safety and to promote economic 
growth; enforcing trade laws to ensure American businesses can 
compete on a level playing field around the globe; operating 
weather satellites and forecasting severe storms; conducting a 
cost-effective and accurate Decennial Census; and many other 
responsibilities under your purview, Mr. Secretary.
    I noted in our last hearing, the administration's budget 
request was produced before the recently enacted fiscal year 
2018 bill was finalized and had become law. The President's 
fiscal year 2019 request is $9.8 billion, which is $1.3 billion 
below the fiscal year 2018 enacted level. This represents a 13 
percent decrease in the Department's overall budget.
    Critical to our Nation's competitiveness and growth, the 
Economic Development Administration (EDA), within the 
Department of Commerce, bolsters the capacity for individuals 
and businesses, and the communities in which they live and 
work, to maximize local talent and institutions to innovate and 
create jobs.
    EDA also provides small, but valuable, investments for 
economically distressed areas to spur development and support 
job creation. EDA's Regional Innovation Program is particularly 
popular for those interested in business development in my home 
State of Kansas.
    Likewise, the National Institute of Standards and 
Technology's (NIST's) Manufacturing Extension Partnership, the 
MEP program, is strongly supported in the business community as 
a positive example of a public-private partnership that leads 
to innovation and job creation. I represent a rural, yet 
multifaceted, State and I continue to support these programs, 
which allow States and localities to steer priorities to 
address their specific economic development needs.
    Directly linked to the programs that support job creation 
is the ability to access high-speed broadband capabilities. 
Many Members of this subcommittee, many Members of the 
Appropriations Committee, represent large, rural areas of our 
country. This is a hugely important issue to us and to the rest 
of the country.
    The Department oversees the Federal use of spectrum and 
manages broadband grants through the National 
Telecommunications and Information Administration, NTIA. There 
is concern at home, and in States across the country, that 
communities are not yet fully able to access broadband because 
they live in either underserved or unserved areas. I am 
interested to hear how the Department is currently working to 
address this problem and how the fiscal year 2019 budget 
request will further support efforts to understand where 
broadband access is lacking in our Nation.
    Additionally, I would like to know how NTIA is using the 
$7.5 million this subcommittee provided in fiscal year 2018 to 
update the national broadband availability map and how you are 
coordinating with the Federal Communications Commission. I 
just, this week, met with Chairman Pai on the topic of maps, 
and broadband, and other technology deployments across rural 
America.
    Effective deployment of broadband resources is completely 
dependent upon having the right data that identifies those 
unserved and underserved areas.
    Mr. Secretary, your Department plays a significant role in 
the Nation's trade policies. Recently, you have been at the 
forefront of recommending tariffs on certain imports of steel 
and aluminum, as well as affirming a preliminary antidumping 
duty determination on uncoated groundwood paper.
    From the subcommittee's standpoint, I would like to hear 
what resources you need at the Department, what you expect to 
encounter in fiscal year 2019 to address the increased trade 
enforcement activities of your Department.
    Furthermore, I would like to convey to you my serious, 
significant concerns on the behalf of Kansas farmers and 
others--our manufacturers and our aircraft industry in 
particular, but those who manufacture automobiles and other 
things--in regard to the retaliatory tariffs imposed on 
American products. That is particularly true in agriculture 
where we are, I would say always and if not, almost always the 
target of those retaliatory tariffs.
    Kansas is an export State. Mr. Secretary, I told you in 
your confirmation hearing and our meeting prior to that, that I 
hoped I would be gum on your shoe in regard to exports. You 
have mentioned that to me several times, so I appreciate that 
the expression has stuck with you, but I want to be gum on your 
shoe in regard to this issue of exports. I want to know how the 
Department, how you see its role in protecting American 
agriculture from those retaliatory tariffs.
    Our Nation must be tougher in enforcing trade agreements. I 
agree with that, but when we enforce those trade rules, we need 
to be mindful of the negative impacts that retaliation can have 
on domestic products. Achieving this balance will require 
continued congressional oversight, including this subcommittee, 
closely monitoring the funding provided for trade activities.
    I would tell my subcommittee Members that I requested of 
our staff that we begin pursuing an additional hearing with the 
United States Trade Representative (USTR) in regard to trade 
and their appropriations request as well.
    I look forward to hearing more about the Department's plan 
to ensure our trade policies benefit our Nation's farmers, 
ranchers, and other exporters.
    I am pleased to see that the administration requests full 
funding for the National Oceanic and Atmospheric Administration 
(NOAA), the flagship weather satellites, which provides 
important data for weather forecasting and to protect our 
Nation's citizens. I am only cautiously optimistic, however, 
about the cost savings the Department believes will come from 
consolidating NOAA's polar-orbiting satellite into a single 
program. These satellites contribute more than 80 percent of 
the data needed for numerical weather prediction models to 
forecast hurricanes and severe storms.
    I remember in your confirmation hearing, Mr. Secretary, 
this is an issue of great interest to you. And as a Floridian, 
I certainly understand why that would be the case. The weather 
matters to all of us.
    Mr. Secretary, we must ensure that our weather satellites 
are adequately resourced in fiscal year 2019 to keep them on 
budget and on schedule.
    Finally, this subcommittee continues to closely monitor the 
Department's activities leading up to the 2020 Census. The 
census provides vital data for our Nation that directly impacts 
each State's representation in Congress, as well as 
distribution of billions in formula-based funding among States 
and localities.
    There is concern that the increased estimated costs 
identified by the Department's independent review, and the need 
to scale back the number of sites for the dress rehearsal end-
to-end test, could be indicators of future cost growth.
    Furthermore, the resources needed for the 2020 Census 
creates significant funding pressures on the Department's 
budget overall. The Department must ensure it meets the 
constitutional mandate for the 2020 Census, and this 
subcommittee wants to be assured that funding requested in your 
fiscal year 2019 request will accomplish this task.
    Mr. Secretary, I generally try to speak a lot less than I 
have spoken this morning, but you have such a wide array of 
issue within the Department of Commerce that are so important 
to all of us, to our home States, and to the Nation in general. 
I thank you for taking the time. I thank you for your public 
service and willingness to commit yourself to serving as the 
Secretary of the Department of Commerce.
    So I appreciate your presence here today and your efforts 
to make sure that we have the information necessary to be an 
ally on behalf of good things happening at the Department of 
Commerce.
    I now turn to my Ranking Member, the Senator from New 
Hampshire, Senator Shaheen. Thank you very much.

                  STATEMENT OF SENATOR JEANNE SHAHEEN

    Senator Shaheen. Thank you, Mr. Chairman.
    Good to see you again, Secretary Ross. We are delighted to 
have you here this morning. I know that you have just returned 
from a trade delegation trip to China, so I appreciate your 
stamina. And I also appreciate your efforts to get tough on our 
international competitors, who are continuing to tilt the 
playing field in their favor.
    I must, however, take this opportunity to say that I hope 
we are not going to do that in a unilateral way that causes an 
unnecessary trade war with our allies. The Chairman expressed 
some of the issues that he has in the Midwest and Kansas, and 
we have some similar issues in New Hampshire. I am concerned 
that the decision to impose new tariffs on billions of dollars' 
worth of goods will have major ramifications for American 
consumers and our Nation's 29 million small businesses.
    Your budget request for 2019 would reduce funding for the 
Department of Commerce by $1.3 billion; that is a 12 percent 
reduction below the funding provided in fiscal year 2018.
    Now, as a lifelong and very successful businessman, I know 
you understand the importance of investing in our communities 
to keep them competitive in the global marketplace. I worry 
that the President's fiscal year 2019 budget proposes to, once 
again, eliminate crucial economic development and manufacturing 
programs that are so important to communities across this 
country.
    The Congress rejected those proposals in fiscal year 2018 
and, instead, we provided increases for both the Economic 
Development Administration and the Manufacturing Extension 
Partnership, among other things.
    The budget request also would eliminate more than $400 
million in NOAA grant programs to States, academic 
institutions, and partners around the country. Programs like 
Sea Grant and Coastal Zone Management grants are so important 
to the coastal economic vitality of all of the States that 
border the oceans. New Hampshire is one of those. We only have 
18 miles of coastline, but we are very proud of that coastline 
and we want to make sure that it stays as pristine as possible.
    In New Hampshire, our fishermen are also struggling after 
years of severe limits on the commercial fishing of cod. These 
businesses rely on sound, science-based management from the 
Department, but NOAA needs to have the sufficient resources to 
carry out this mission. And so, part of my goal is to ensure 
that that happens.
    I fought for more than $10 million in the Omnibus to fully 
fund the cost of at-sea monitors on the boats of our fishermen. 
It is an issue for Maine, and all of New England, and I look 
forward to working with you to get this funding spent wisely.
    The Omnibus also provided $2.8 billion for the Census 
Bureau. Not only does the Census apportion congressional 
representation, but it also directs how more than $675 billion 
of Federal funds are spent every year.
    So we have to get this right and that is something that I 
have heard you say from the very first meeting that we had. 
That you understood the census, understand the census because 
you actually worked it in at one point in your career. I know 
that we all agree that sufficient funds should be there to 
increase partnership and communication efforts as the 2020 
Census ramps up in the next 2 years.
    I will say, I was very disappointed that the Department 
decided to include a citizenship question as part of the 2020 
Census. I am concerned, given the current political climate, 
that some communities will refuse to participate and that this 
is going to affect the accuracy of the count, and therefore all 
of the programs and funding that depend on the census.
    So Mr. Secretary, we have a lot to discuss this morning and 
I look forward to that conversation.
    Senator Moran. Thank you, Senator Shaheen.
    I now recognize the Secretary of Commerce, the Honorable 
Wilbur Ross, for his statement. Thank you for being here. And 
again, we look forward to hearing you.

                 SUMMARY STATEMENT OF HON. WILBUR ROSS

    Secretary Ross. Thank you, Chairman Moran, Ranking Member 
Shaheen, and Members of the Senate Appropriations subcommittee.
    Thank you for the opportunity to discuss President Trump's 
fiscal year 2019 budget request for the U.S. Department of 
Commerce.
    Thank you especially for enabling the Department to meet 
its major strategic objectives of helping the American economy 
grow and ensuring our national security. We are accomplishing 
this by supporting investment and job creation; by preparing 
for a successful 2020 Decennial Census; by bolstering trade 
enforcement and export controls; and providing the 
observational infrastructure and personnel to develop timely, 
and accurate, weather forecasts.
    Under my stewardship, our resource allocations in the 
fiscal year 2019 budget are centrally focused on helping 
American businesses and industries compete globally, while 
simultaneously improving the economic conditions and everyday 
lives of the American people and their communities.
    To that end, the Department of Commerce's fiscal year 2019 
budget request of $9.8 billion in funding is a $1.3 billion 
decrease from the fiscal year 2018 Omnibus of $11.1 billion.
    This does not include the $1 billion that was recently 
appropriated to the Department as part of the supplemental 
assistance package enacted in the aftermath of severe storms in 
Texas, Florida, and U.S. territories. The EDA, the Economic 
Development Administration, was provided $600 million of that, 
and the National Oceanic and Atmospheric Administration was 
allocated $400 million.
    The fiscal year 2019 budget carries forward key strategic 
investments from 2018 and introduces new initiatives that, I 
believe, are critical to sustaining the economic momentum we 
have established.
    Our laser focus remains on helping the American economy 
grow. The Department's fiscal year 2019 budget recognizes the 
challenges facing American workers and businesses as they 
attempt to navigate a rapidly changing, and increasingly 
competitive, world.
    I believe the budget request is uniquely tailored to 
leverage the innovation, talent, expertise, and technological 
prowess of the Department's programs, the projects, and the 
activities to ensure businesses and the American people are 
receiving a good return on their taxpayer investment.
    By prioritizing our industries, trade and economic 
advantages, and our workforce, we will continue to be an 
economic engine, both in the United States and around the 
world.
    I look forward to working with this Committee, and the rest 
of the Congress, to achieve our shared goals on behalf of the 
Nation's taxpayers.
    I would be happy to answer your questions.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Hon. Wilbur Ross
    Chairman Moran, Ranking Member Shaheen, and Members of the Senate 
Appropriations Subcommittee, thank you for this opportunity to discuss 
President Trump's fiscal year 2019 budget request for the U.S. 
Department of Commerce.
    Thank you for enabling the Department to meet its major strategic 
objectives of helping the American economy grow, and ensuring our 
national security. We are accomplishing this by supporting investment 
and job creation; preparing for a successful 2020 Decennial Census; 
bolstering trade enforcement and export controls; and providing the 
observational infrastructure and personnel to develop timely and 
accurate weather forecasts.
    Under my stewardship, our resource allocations in the fiscal year 
2019 budget are centrally focused on helping American businesses and 
industries compete globally while improving the economic conditions and 
everyday lives of the American people and their communities.
    To that end, the Department of Commerce's fiscal year 2019 budget 
request of $9.8 billion in funding is a ($1.3 billion decrease from the 
fiscal year 2018 omnibus ($11.1 billion). This does not include the 
$1.0 billion that was recently appropriated to the Department as part 
of the supplemental assistance package enacted in the aftermath of 
severe storms in Texas, Florida, and other U.S. territories (the 
Economic Development Administration was provided $600 million and the 
National Oceanic Atmospheric Administration was allocated $400 
million).
    The fiscal year 2019 budget carries forward key strategic 
investments from fiscal year 2018 and introduces new initiatives that I 
believe are critical to sustaining the economic momentum that we have 
established.
    Our laser focus remains on helping the American Economy grow. The 
Department's fiscal year 2019 budget recognizes the challenges facing 
American workers and businesses as they attempt to navigate a rapidly 
changing and increasingly competitive world.
    I believe the budget request is uniquely tailored to leverage the 
innovation, talent, expertise, and technological prowess of the 
Department's programs, projects, and activities to ensure businesses 
and the American people are receiving a good return on their taxpayer 
investments.
    By prioritizing our industries, trade and economic advantages, and 
our workforce, we will continue to be an economic engine, both in the 
United States and around the world.
    I look forward to working with this Committee and the rest of the 
Congress to achieve our shared goals on behalf of the Nation's 
taxpayers. For more information about the Department's fiscal year 2019 
budget, please visit the Department's website at: http://
www.osec.doc.gov/bmi/budget/FY19_CBJ.html.
       highlights of the fiscal year 2019 commerce budget request
Census:
    The 2020 Decennial Census is the Department's top priority. A 
complete and accurate Decennial Census is critical as it informs the 
policy making process, governs the apportionment of seats in the House 
of Representatives allocated to the States, and helps direct more than 
$675 billion annually in Federal funds to local communities to improve 
homeland security, education, and infrastructure.
    To support this critical endeavor, the Department's fiscal year 
2019 budget requests $3.8 billion for the Census Bureau, $3.1 billion 
of which will directly support 2020 Census operations. The proposed $1 
billion increase from the fiscal year 2018 Omnibus reflects the 
Department's commitment to count everyone once and in the right place. 
The Census Bureau appreciates Congress' support for the decennial 
census and the inclusion of an additional $1.1 billion beyond the 
program's estimate for 2018 (including contingency funds) in the 2018 
Omnibus appropriations act. These funds will help provide financial 
certainty to the program as we transition from fiscal year 2018 to 
fiscal year 2019, and represent a down payment on the $3.1 billion 
requested in 2019 to continue all preparatory activities and existing 
field operations.
    Key activities for the 2020 Census will take place in 2019. We will 
be making final refinements for all systems to ensure they meet all 
requirements, are secured, tested, and are seamlessly integrated. The 
field offices and other field infrastructure will be stood up 
nationwide.
    We will be increasing the number of Partnership Specialists to our 
planned level of 1,000. This staff will work throughout 2019 to build 
the network of approximately 300,000 census partners who will be the 
trusted voices to encourage communities across the Nation to respond to 
the 2020 Census. We will also begin the full-scale development and 
implementation of all aspects of the Communications Program.
    We will conduct the first major field operation: In-Field Address 
Canvassing. Approximately 76,000 field listers and supervisors will be 
trained and sent into the field to complete this difficult and 
important work.
    The 2020 Census questionnaire and materials will be finalized. We 
will also finalize and secure all operations and systems related to the 
use of administrative records and third-party data and ensure they are 
working together in preparation for use in the 2020 Census.
Trade:
    When President Trump tapped me to serve as the Commerce Secretary, 
I vowed to work hard to reduce the Nation's trade deficit. Increased 
enforcement of our trade laws has been a major effort in this regard.
    Approximately $440 million is requested in the Department's fiscal 
year 2019 budget for the International Trade Administration (ITA). ITA 
will use the requested funding to hire more subject matter experts and 
enhance its trade enforcement and analysis capacity as it relates to 
antidumping and countervailing duty and Section 232 investigations.
    The fiscal year 2019 budget includes more than $90 million, an 
increase of $3 million, for ITA's enforcement and compliance programs. 
This funding will enable ITA to conduct robust investigations into 
alleged trade violations and aggressively advocate for U.S. businesses 
facing tariff and non-tariff barriers abroad. A portion of this would 
be specifically allocated to Department of Commerce self-initiation 
efforts on behalf of American workers and businesses.
    Trade is also closely linked to our national security. Separately, 
in 2017, the Bureau of Industry and Security (BIS) successfully 
completed 13 administrative enforcement cases, with total civil 
penalties of $692,296,500--the highest annual level of civil penalties 
in the history of the Bureau.
    To continue building on these important enforcement and national 
security initiatives, $121 million is requested in the fiscal year 2019 
budget for BIS, a $7.0 million increase from the 2018 omnibus. This 
increased funding will enable BIS to hire additional staff to address 
the increased workload associated with expanded export controls to 
protect our technology and the Committee on Foreign Investment in the 
United States (CFIUS). The International Trade Administration is also 
provided with additional funding for CFIUS to support its ability to 
detailed sector reviews required under CFIUS and perform its role as 
the Department's CFIUS coordinator.
Weather Satellites:
    With its $1.6 billion request for the National Environmental 
Satellite and Data Information Service (NESDIS), NOAA will continue its 
work to deploy the next generation of weather satellites and 
observational infrastructure. The fiscal year 2019 budget includes $878 
million for the Polar Weather Satellites, which supports continued work 
on the Joint Polar Satellite System-2 (JPSS-2) and allows the program 
to maintain the previously scheduled Launch Readiness Dates of second 
quarter in 2024 for JPSS-3 and the fourth quarter of 2026 for JPSS-4.
    The budget meets this objective, while lowering overall costs, by 
combining the current JPSS Program of Record (POR) with the Polar 
Follow On (PFO) program into a single program, allowing NOAA to more 
efficiently manage the acquisition of these satellites. The JPSS 
satellites provide space-based observations that are critical data for 
weather forecast models in support of forecasting short, mid- and long-
term severe weather events.
    The fiscal year 2019 budget also fully funds ($408.4 million) 
continued work on the Geostationary Operational Environmental 
Satellite-R (GOES-R) Series, including the continued development of the 
third and fourth satellites of the series, GOES-T and GOES-U. On March 
1, 2018, NESDIS launched GOES-S (now known as GOES-17), the second of 
the GOES-R Series. GOES-17 will move to a western position to join its 
sister satellite, GOES-EAST (GOES-16). Together, these satellites will 
provide faster, more accurate, and more detailed data than legacy 
satellites to track storm systems, lightning, wildfires, coastal fog, 
and other hazards. These satellites will observe the majority of the 
Western Hemisphere from the west coast of Africa all the way to New 
Zealand.
Space Commerce:
    Commerce's fiscal year 2019 budget also emphasizes the Department's 
efforts to better advocate for and remove undue regulatory barriers on 
the commercial space industry. The fiscal year 2019 budget allocates 
$1.8 million to NOAA's Office of Space Commerce and $1.8 million to the 
Commercial Remote Sensing Regulatory Affairs Office, up from $1.2 
million and $1.8 million in fiscal year 2018. This modest increase will 
enable DOC to begin executing directives received from the 
administration and the National Space Council to take on further 
responsibilities relating to space commerce. DOC will continue to play 
a more active role in the National Space Council's recommendations to 
advance American leadership in commercial space activities by promoting 
a robust and responsive U.S. industry.
    The Department will also conduct an extensive regulatory analysis 
to inform an updated remote sensing licensing process that will 
facilitate continued growth of this critical industry. The 
administration has also designated Commerce as the new civil agency 
lead for space traffic management and space situational awareness. 
Commerce will take on a leadership role for these and other policy 
initiatives as the administration works to ensure that America is the 
flag of choice for business in space.
      streamlining government operations and improving efficiency
    The Department's fiscal year 2019 resource allocations are designed 
to fuel American prosperity, the national economy, and the Nation's 
taxpayers. Difficult tradeoffs have to be made for which Commerce 
programs are prioritized.
    The fiscal year 2019 budget seeks to transform MBDA into a policy-
focused operation that can better assist minority businesses across 
America. Consistent with this transformation, the budget proposes to 
eliminate funding for MBDA's business centers.
    Instead, MBDA's fiscal year 2019 budget will allot its present 50 
positions for this new endeavor, which seeks to ensure minority 
entrepreneurs have access to the resources they need to create jobs and 
help fuel the Nation's prosperity.
    Similar to the Department's budget request in fiscal year 2018, the 
fiscal year 2019 budget once again proposes significant savings to 
maximize every taxpayer dollar. These initiatives include eliminating 
the Economic Development Administration (EDA). These proposals are 
consistent with the approach throughout the budget to focus on core 
Federal missions and reduce lower priority expenditures, such as 
grants.
    The proposed elimination of EDA's grant-making functions and 
salaries and expenses would result in an approximately $300 million 
savings.
    We are also once again recommending the discontinuation of Federal 
funding for the Hollings Manufacturing Extension Partnership (MEP) 
program, which subsidizes up to half the cost of State centers that 
provide consulting services to small- and medium-sized manufacturers. 
This would result in a projected savings of $125 million. There has 
been enough private sector support for this program that we believe it 
can function well without the need for Federal money.
    NOAA is once again proposing to reduce or eliminate a number of its 
external grant programs, which total approximately $493 million.
    This includes approximately $76.5 million for NOAA's National Sea 
Grant College and Marine Aquaculture grant programs (the fiscal year 
2018 omnibus provided $65.0 million for the sea grant program and $11.5 
million for marine aquaculture); a $75 million reduction to the 
National Ocean Service's Coastal Zone Management and the Regional 
Coastal Resilience grant programs; and $65 million for the Pacific 
Coastal Salmon Recovery Fund (PCSRF), which provide resources to 
restore and conserve Pacific salmon and steelhead.
    Finally, NOAA is re-proposing to terminate the Office of Education 
for a savings of $$28 million from the fiscal year 2018 omnibus. This 
includes terminating the Competitive Education Grants and Educational 
Partnership Program with Minority Serving Institutions (EPP/MSI) 
grants. The budget further proposes to end the Bay-Watershed 
Educational and Training (B-Wet) Regional Programs (a $7.5 million 
decrease from the fiscal year 2018 omnibus).
    NOAA will continue to provide watershed educational experiences for 
students through other programs, including National Marine Sanctuaries.

                      NTIA BROADBAND AVAILABILITY

    Senator Moran. Secretary Ross, thank you very much.
    NTIA was provided $7.5 million in funds to supplement the 
FCC's work on updating the broadband mapping. That money was 
provided in the fiscal year 2018 Omnibus bill that just came 
into existence and passed into law about a month ago.
    Secretary Ross, how is your Department working with the FCC 
to provide the data necessary to have an accurate picture of 
where broadband access currently exists and where investments 
need to be made? What do you want to accomplish with this 
additional data? How can it be used to make a difference?
    Secretary Ross. Surely. Policymakers need accurate, 
updated, and accessible broadband availability data to make 
efficient use of the taxpayer money targeted to areas that need 
improved broadband infrastructure. The NTIA National Broadband 
Availability Map program would help to improve these funding 
decisions.
    The goal of this program will be to minimize these known 
data quality issues through the use of multiple data sources 
and validation, which is especially critical in rural areas 
where current census block level data may not accurately 
reflect broadband availability in the entire block.
    Senator Moran. Thank you for your answer.
    Let me turn to the topic that I mentioned in my opening 
statement. I would remind you that Kansas is a leader in the 
production of beef, pork, wheat, and soybeans. Retaliatory 
tariffs have a significant economic harm on my agriculture 
producers, and therefore, on the State of Kansas.
    We are the largest sorghum producing State in the Nation. 
About 50 percent of the sorghum is exported each year and 90 
percent of those exports were sent to China. Retaliatory 
tariffs announced by China have effectively shutdown the 
sorghum export market, meaning that Kansas farmers are feeling 
the impact now.
    You have an aggressive trade agenda, the administration 
does, and much of that is being led by your Department. My 
assumption is that this increased activity will require 
increased funding. The Department has requested an increase of 
$7.1 million over fiscal year 2018 enacted levels for a single 
bureau, the Bureau of Industry and Security, BIS. My question 
is appropriations budget-related.
    How does the Department's fiscal year 2019 request address 
the increased resources needed to carry out the 
administration's trade agenda? And what bureaus within the 
Department do you envision being the most active in carrying 
out those trade activities?

                           CHINA NEGOTIATIONS

    Secretary Ross. Well, a couple of questions are in that. As 
to the retaliation from China, as you are aware, Ambassador 
Lighthizer, Secretary Mnuchin, myself, and some others spent 
quite a bit of time last week in China negotiating with them.
    The other side was very fully engaged and engaged at a very 
high level. Their delegation was led by the Vice-Premier and it 
included the Minister of Commerce, the Minister of Finance, the 
representatives of the Ministry of Commerce of the People's 
Republic of China (MOFCOM), the Governor of the Central Bank, 
and the People's Bank of China.
    So it was a very high level group that was fully engaged 
for roughly 30 hours of negotiations. Their prior complaint had 
been they felt we had not been specific enough in our requests 
of them.
    Prominently included in the written request that we gave 
them prior to this trip was the question of agriculture. So I 
can assure you that it featured quite prominently in all of the 
discussions.
    We made some very specific requests, product by product, 
quantity by quantity and in a subsequent session, the Chinese 
responded in-kind. I do not mean to say ``kindly,'' but in-
kind. And while the gap is wide, it appears as though they will 
be returning to the States here in Washington within the next 
week or two to continue the discussions.
    So the good news is that there is a very specific set of 
bids and asks. The other good news is that while there is a 
gap, they are coming here to make further negotiations. So I am 
hopeful that we will make some further progress with them.
    In addition, as I think you are aware, the President has 
directed the Secretary of Agriculture to use all of the powers 
that his department has to try to protect and help those 
industries, particularly agriculture, that are usually the 
targets of retaliation.
    So we are both trying to deal with that problem in the 
sessions and the President has requested specific help from the 
Department of Agriculture to try to moderate the problem.
    We are all well aware that it is horribly unfair for one 
industry to bear the brunt of retaliation in our efforts to 
help other parts of the economy. So we will do our level best 
to minimize the problem and to maximize the support we can 
provide in helping.

            FUNDING TO SUPPORT ADMINISTRATION'S TRADE AGENDA

    Senator Moran. Mr. Secretary, does your budget request 
provide the necessary dollars to fulfill your responsibilities 
in this regard at the Department of Commerce?
    Secretary Ross. Yes, I think so. The $4.1 billion that we 
requested for the industrial base survey and assessment 
includes funding for 13 full-time equivalents and subcontractor 
support to assist with the increased workloads of the 232 
program including the exclusion process and other industrial 
base studies.
    This subcommittee, I thank you for your approval that we 
get an additional funding for fiscal year 2018 through 
reprogramming. We will be receiving $3.3 million, which allows 
BIS to hire 15 subcontractors to help with this initial surge 
of the 232 exemption request on product basis. So I believe we 
will be adequately funded with that.
    We have, to date, received some 8,700 requests for 
individual product exemptions. One individual company, 
amazingly, submitted 1,167 of those requests which, on the face 
of it, seem like rather a lot. But, in any event, that is what 
has come in.
    The backlog we have right now of ones not yet dealt with is 
around 2,200 all of which have come within the last 12 days. So 
we think we have the big influx relatively under control, but 
we do hope that the House goes through with the same sort of 
support that this subcommittee did. We hope the full Senate and 
the House will go along with the monies you are providing us.
    Senator Moran. Mr. Secretary, thank you.
    Let me turn now to the Ranking Member.
    Senator Shaheen. Thank you.
    I want to go back to the concerns that I expressed in my 
opening statement about the addition of the citizenship status 
question on the census.
    The last time this type of question was included in the 
short form census was 1950. There is a great deal of concern 
that adding this question is going to lead to a drop in 
participation, particularly among immigrant communities who 
many not understand that census data is not to be shared, and 
may be afraid that the data that is gathered will be shared 
with other departments within the Federal Government.
    Are you concerned, Mr. Secretary, that the addition of this 
kind of a question on citizenship status will reduce the 
accuracy of the census?

        CITIZENSHIP STATUS QUESTION ON THE 2020 DECENNIAL CENSUS

    Secretary Ross. Well, this question has actually been asked 
a lot more recently than 1950 in different forms.
    Senator Shaheen. I understand that.
    Secretary Ross. Sixty-one million people, over the years, 
have been asked the citizenship question on the American 
Community Survey. So it has been quite well-tested. The 
declination in response rates is not materially different from 
that in many other questions.
    So the Census group itself feels that it is a manageable 
decline. There will be some decline anytime you add another 
question, particularly one that certain parts of the population 
might find challenging. There will be a little diminution in 
it. But they do not feel that it will be material.
    Now, what are we doing to try to make sure that it will not 
be a major diminution?
    Senator Shaheen. Can I just ask you, Mr. Secretary, I am 
sorry to interrupt, but am I correct in understanding that it 
is still in the community survey, the longer census survey that 
is being done? So that was always intended to be included 
there, and the real change is the addition to the short form 
census?
    Secretary Ross. That is correct. It has been on the 
American Community Survey quite regularly and that, as you 
know, is not a full census. It is a sample of something like 3 
percent of the households on a rolling basis done annually.
    So it is the same exact question and the reason we are 
using the same exact question is this has now been fully 
tested; 61 million people have been exposed to it. Whereas in 
the 2010 census, there were only a tiny fraction of that where 
the number of households that were used to test an individual 
question.
    So the other things we are doing, we are making it the very 
last question on the census so that those folks who may not be 
comfortable answering it hopefully may, if not all of them, 
will have answered the preceding questions in any event.
    Senator Shaheen. So again, I am sorry to interrupt, but my 
understanding was that the end-to-end test that is already 
underway in Rhode Island does not include this question. And 
so, it would not give us the ability to understand the impact 
of the question including it on the short form.
    Is that correct?
    Secretary Ross. It is correct that it is not being used in 
Providence and the reason for that is those forms were printed 
long ago before we had made the decision to add the question. 
And in some cases, the preparations were made before we even 
got the request from the Department of Justice. So that is the 
reason it is not on.
    But what we are doing, we are spending approximately $500 
million on communications programs that will be in multiple 
languages. They will stress the confidentiality of the data. 
They will stress the extreme penalties of imprisonment and 
fines that would go to any person who violated the Title 13 
rules about the confidentiality of data.
    So we will be communicating extremely vigorously that 
people have nothing to worry about that these data cannot be 
used for any other purpose at all.
    In addition, we are using more languages. We will have 
census explanatory forms, how to fill it out, and what it means 
in 12 languages. And those languages cover virtually all except 
for six-tenths of 1 percent of the population that is not very 
well fluent in English.
    All the basic forms, of course, will be in both English and 
Spanish to begin with, but there will be 12 languages in 
instructional forms. And we have set up an elaborate system of 
call centers for follow up calls, and those also will be 
multilingual.
    Finally, we are partnering with all sorts of community 
organizations to have them encourage their relevant segments of 
the population to try out and fill out the forms. We are even 
putting kiosks in post offices.
    Senator Shaheen. And so, I asked Attorney General Sessions 
about this at the hearing that we had last week, and he 
suggested that if people object to that citizenship status 
question, they should just not answer.
    Do you agree with that? And if they do not answer, what 
happens, then, to that survey?
    Secretary Ross. Well, as a technical matter, people are 
required to answer the questions. Nobody has ever been 
prosecuted, to my knowledge, for not answering a question.
    We also, this cycle, will be making very extensive use, 
more extensive than even before, of administrative records. 
Historically, the census has used them and we will be using 
them even more extensively.
    Part of the reason for asking the question is we found that 
in the American Community Survey approximately 30 percent of 
the people who are not citizens incorrectly answered the 
question in addition to those who just did not answer it.
    So in order to get some accuracy, we feel it is necessary 
both to do a lot of promotion to those communities and to use 
administrative records.
    Senator Shaheen. Thank you. My time is up.
    Thank you, Mr. Chairman.
    Senator Moran. You are welcome.
    The senator from Maine, Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    And welcome, Secretary Ross.
    I want to begin by associating myself with the comments 
made by the Chairman and Ranking Member expressing opposition 
to the elimination of funding for the Economic Development 
Administration, the Manufacturing Extension Partnership, and 
the National Sea Grant program. Those programs have been 
invaluable in my State.
    I would now like to turn to two different issues.
    Earlier this year, the Department instituted import tariffs 
on certain types of paper imported by the U.S. printing and 
publishing industry from Canada. This paper, technically known 
as uncoated groundwood paper, but better known as newsprint, is 
used by newspapers, book publishers, and numerous other 
commercial printers in our country.
    These tariffs are being advanced under the principle of 
trade enforcement to protect the domestic paper industry. But, 
in fact, nearly all of the U.S. paper industry opposes these 
import taxes and the result may well be that small town and 
rural newspapers go out of business forever because they cannot 
afford the higher cost of newsprint.
    It is a real problem in my State because there are no 
longer any mills producing newsprint in the State of Maine. 
Canada is the closest, as well as the most affordable source, 
or was, until these tariffs were proposed.
    Now, I realize that there is one small mill that brought 
this petition and it may well be able to add jobs, but it will 
do so at an enormous cost to an industry that is already facing 
serious challenges.
    The Antidumping and Countervailing Duty trade remedies are 
really not equipped to address a situation like this. It is not 
that the Department is not following the law. I recognize that. 
It is that there is a flaw in the law. What we have here is the 
result that the import duties will actually harm the industry 
they were intended to protect. This case is very unusual and 
has special circumstances.
    What I am seeking from you today is a commitment to work 
with us on a potential legislative solution that avoids the 
unintended negative consequences for secondary industries, as 
we are seeing in this case.

                       IMPORTED TARIFFS ON PAPER

    Secretary Ross. Well, we certainly are always prepared to 
work with anyone proposing legislation relevant to our 
activities. But I would like to give a little bit of 
perspective.
    Number one, when a party files a legitimate petition, and 
there is a finding of harm and there is a finding of subsidy, 
we have no alternative but to go forward and come to our 
conclusion. So it is not a thing where we can make a subjective 
judgment that, in this particular case, there would be an 
unusual problem. We are just not permitted to do that.
    But to give you a little perspective, we took two papers at 
sample to see what is the actual impact that we could calculate 
on those papers. So one was the ``Wall Street Journal,'' which 
is a big, thick newspaper. Their consumption of newsprint is 
around 10.4 cents per copy, so per daily issuance of the paper. 
The tariff increase looks as though it would end up being 
around 2 cents per day per paper. Not per page, but per total 
paper.
    We did another one, a local paper in Longview, Washington, 
which is ``The Daily News,'' and the reason we picked that is 
it is a small, more rural paper and it happens to be right in 
the territory where the petitioner filed.
    That paper tends to use about 5 cents of newsprint per 
copy. So it looks to us as though the increase would be 1 cent 
per copy. So it is a number. There is an impact, but I think it 
is useful to have the perspective what does it really mean in 
terms of each issuance of the paper.
    Senator Collins. Mr. Secretary, I very much appreciate 
those examples. The statistics in my State are extraordinarily 
different for what it would mean for the newspapers in my State 
and the commercial printing operations. So I will be forwarding 
you some data on that for you to take a look at.
    I know my time has expired. I just want to say very 
briefly, and I will submit this for the record, that our Maine 
lobstermen have long led the way in implementing mitigation 
measures to protect whale entanglements. They changed their 
gear over and over again in a very impressive way to the point 
that NOAA has not observed a single right whale entanglement in 
ground lines since these changes were made. And the majority of 
injuries to right----
    Secretary Ross. I am sorry. I cannot hear you with that 
noise.
    Senator Collins. I am sorry. The majority of the injuries 
after all these gear changes were made have been due to strikes 
by ships.
    But the problem, and this is what I will submit for the 
record, is Canada does not have comparable safeguards. And our 
lobstermen are increasingly concerned that their fishery may be 
subjected to additional and unrealistic gear restrictions 
following the deaths of 17 right whales, which is a tragedy. 
But 12 of them occurred in Canada.
    So I will submit a question to the record for you on this 
issue on what we do to make sure that our Canadian counterparts 
play by the same rules and that the American lobster industry, 
which pioneered all of these protections, are not penalized for 
Canada's failure to act.
    Senator Collins. Thank you, Mr. Chairman.
    Senator Moran. Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you again.

   NATIONAL WEATHER SERVICE: SERVICES PROVIDED TO THE PRIVATE SECTOR

    Among the reasons that I voted for you originally were your 
commitments to NOAA and the weather enterprise, and your 
commitment to a fair, and complete, and accurate census. So let 
us start with NOAA.
    Severe weather events, again, endangered lives and property 
in 2017. NOAA recorded 16 weather and climate disaster events 
that cost $1 billion each. The total cost exceeded $300 
billion, exceeding a new record. NOAA's weather forecasting 
data saves lives and property, but they also help businesses.
    We have had a good conversation about the interaction 
between NOAA and the weather enterprise, and private business, 
aviation, shipping, agriculture, fisheries, tourism, and what 
have you.
    I would like you to spend maybe a minute on the services 
that you provide to the private sector through NOAA and the 
National Weather Service.
    Secretary Ross. Well, I am very proud that NOAA's accuracy 
of forecasts and the amount of lead time that it gave people in 
terms of these extreme events is roughly 25 percent better in 
2017 than in the average of the prior 5 years. We hope and 
think that as we keep getting better technology, more 
satellites with more delicate sensing devices, we hope we can 
continue to improve that.
    We have not yet figured out a way to control weather, but 
the best we can do is to try to forecast it more in advance to 
give people warning time and more accuracy, in terms of the 
forecasting. We are making a lot of progress in that regard and 
I feel quite confident that that will continue. It is a very, 
very major objective of ours and of Admiral Gallaudet.

                                 CENSUS

    Senator Schatz. I sent you a letter last year about the 
lack of a Census Director. You sent me a response saying this 
was a top priority, but it has been a year since John Thompson 
resigned.
    Where are we with getting a new Census Director?
    Secretary Ross. We have proposed to the White House a 
candidate and they are processing the candidate as we sit here.
    But meanwhile, I have very good confidence in the two 
senior career people that are in the acting positions at this 
moment. I obviously did not know them before taking this job, 
but I have been very impressed with the thoroughness with which 
they approach the task.
    This is a daunting task, as you know.
    Senator Schatz. Right. I want to follow up on Senator 
Shaheen's line of questioning around the citizenship question, 
and this is a little awkward because you and I have had 
multiple conversations about the census, and I believe in your 
commitment to a full, fair, accurate census.
    But I think we have to be honest about how this citizenship 
question came about. It came from a politico in the Department 
of Justice, and the fig leaf that they used is that this is 
going to help with enforcement around voting rights. 
Simultaneous to that, you have groups that advocate against 
immigration and against immigrant groups, and you have campaign 
organizations propping up the citizenship question as a 
mechanism in a political context, in an ideological context.
    And so, this request for a question to be added to the 
census comes from DOJ, comes from a political appointee. It 
seems to be out of left field, and then is not included in the 
field test because of, I guess, the logistics of printing it in 
time.
    I guess I would like to hear how you respond to, if we were 
just sitting down having a cup of coffee, what I would say is, 
``Come on. This is what it looks like.''
    And so, I understand you are doing everything to mitigate 
the impact of this, but I think the provenance of this is not 
on the level that DOJ is trying to enforce the Voting Rights 
Act and on the level through the normal regular order 
interacted in an interagency professional way, but rather this 
is a political matter.
    And so, how can you reassure me that that is not what 
happened or at least reassure me that you are not going to 
allow it to be implemented in that way?
    Secretary Ross. Well, we obviously have no interaction with 
the campaign committees that have, for a brief moment, tried to 
use this in their literature. I believe they have stopped doing 
that and I think that is a good thing because that just 
politicized the whole thing.
    We spent a lot of time talking with Justice about the 
request. We truly believe that they think that they need it and 
they are a qualified party to make that request under the 
procedures.
    We explored all sorts of alternative routes as to how to 
fulfill that request without putting it on the census, and came 
to the conclusion that the most effective way to deal with that 
individual request was, in fact, to add it to the forms that we 
are using.
    As to the testing of the question, I think I mentioned 
before, some 61 million people have already been exposed to 
that question over the years through the American Community 
Survey.
    Senator Schatz. Sure, and my time is up, but I will just 
add that 61 million people being exposed to it over time 
through various censuses is not the same as putting it in the 
field test. That may be a data point, but that is not the same 
as what would happen if you put it in the survey. That is not 
what is being tested.
    We are testing a survey right now that is not the survey 
that will be used, and I apologize for going over time.
    Senator Shaheen [presiding]. Senator Murkowski, you are up.
    Senator Murkowski. Thank you, Senator. Thank you, Chairman.

                        AQUACULTURE LEGISLATION

    Mr. Secretary, welcome. Good to be with you. As I promised 
to you when we first met prior to your confirmation, I said, 
``You are going to hear me talk about seafood.''
    Secretary Ross. I am sorry.
    Senator Murkowski. Seafood.
    Secretary Ross. Yes.
    Senator Murkowski. Not seeing food and eating it, but the 
stuff that is in the water. So I am going to be true to my word 
and speak to the issue of seafood trade.
    We are, here in the Senate, taking on an effort to move 
towards national aquaculture legislation. We are tracking this 
closely. The effort does not include, currently, a provision to 
honor States' rights, which would allow States that have laws 
on the books that restrict or ban specific types of aquaculture 
or to allow them to opt out of that type of aquaculture under 
the national plan.
    In the State of Alaska, we have a prohibition on finfish 
farming. So I have been following this and tracking this, and I 
am not going to be in a position to support any kind of a 
national aquaculture effort that does not take States' rights 
into account.
    So I would hope that you would be supportive of allowing 
those States with laws that have bans in place on areas of 
aquaculture to be able to opt out of a Federal plan.
    Secretary Ross. Surely. We are reasonably familiar with the 
proposed legislation and are supportive of it.
    As you probably know, one of my big peeves is that 80-odd 
percent of the seafood consumed in this country comes from 
abroad, which seems a bit oxymoronic given the big coastlines 
and everything that we have. So one of the things we are 
working very hard on is trying to change that.
    There are many parts of the aquaculture. Some are seaweed-
type things, which I think you have no objection to. And others 
are ones that could interfere with the normal catch in Alaska. 
So I understand why individual States might want to take a 
little different direction.
    But we have a $14 billion a year trade deficit in seafood 
and I am quite eager to convert that into a trade surplus 
rather than a trade deficit. And that could provide gainful 
employment to lots of people.

                     THREATS TO SEAFOOD PRODUCTION

    Senator Murkowski. Well, I know we are absolutely, 
absolutely committed to working to reduce that seafood trade 
deficit as we work to promote domestic and sustainable 
production.
    We have some significant opportunities overseas. Alaska has 
clearly played its role with that. Some markets have been 
closed off to our seafood exports in recent years due to 
policies like the seafood trade ban that was implemented by 
Russia in 2014.
    So the question to you this morning is where are we with 
ensuring that NOAA is working with our regional fishery 
management councils to really help push out and advance this 
seafood export and promotion opportunities?
    And then, if you would speak to the Russia ban in terms of 
the steps that the administration is taking to work towards 
lifting the Russia seafood ban. It has an average annual impact 
of about $40 million in Alaska. I hear from my fishermen a lot 
about this.
    And then, as it relates to the seafood promotion programs, 
we have the Saltonstall-Kennedy Grant Fund. I am concerned that 
the proposal is to zero this out. When you think about those 
efforts to advance and promote our domestic seafood production, 
it is Saltonstall-Kennedy that plays such an important role 
there.
    Secretary Ross. Sure. Well, there are a number of threats 
to our seafood production.
    For one thing, the aquaculture that produces a lot of the 
foreign seafood is conducted under conditions that would not be 
tolerated in the United States. So one of our objectives is to 
try to get better enforcement against them because those are 
not being properly done for the most part.
    Second is, I think, also a problem with counterfeiting in 
that some of the material, I think some of the king crab, 
alleged king crabs coming in from Russia really are not king 
crabs at all. So there are problems in that regard.
    There is a third problem which is that Canada in its free 
trade agreement with the EU got an exemption from the tariff 
that the EU imposes on lobster whereas we are subject to 
several percentage points tariff. So that is a problem 
particularly because that free trade agreement between Canada 
and the EU specifies not only that it should be in Canadian 
waters, but that it should be in a Canadian vessel.
    So it is clearly a discriminatory activity against the 
United States. So seafood is this year going to be, I think, a 
pretty big battleground.
    What we are doing about it is a number of things. There is 
grant money that is going out to the States to try to develop 
pilot programs of various types.
    I spoke at the aquaculture conference here in Washington 
some several weeks ago. I have met several times with the 
aquaculture industry. So they know we are trying to be helpful 
in trying to push things along so that we can compete more 
effectively both from a quality point of view in terms of how 
the aquaculture is conducted and in terms of the dollar volume 
versus that which is going offshore.
    So we are pushing very hard on it. It is one of my big 
priorities.
    Senator Murkowski. Well, thank you, Mr. Secretary. I 
appreciate that. I know that many of us think that the terms of 
the Trans-Pacific Partnership could benefit our seafood 
industry. I appreciate your focus to it.
    I will have questions to submit for the record specifically 
related to the Pacific salmon treaty. It is being negotiated. 
We have some concerns about the actions that the Department is 
looking to address non-fishing aspects of the agreement.
    I would ask for your attention to that, as well as the 
hydrographic surveys, the charting of our oceans, and the 
reality that the survey backlog in the Arctic right now is 
about 100 years-plus. I think we can do better on that.
    So you can anticipate those questions.
    We look forward to working with you on these very important 
areas and otherwise, and I appreciate you being here.
    Thank you for allowing me to go over, Madam Chair.
    Senator Shaheen. Thank you, Senator Murkowski.
    Senator Reed.
    Senator Reed. Thank you very much.
    Welcome, Mr. Secretary.

                         NEWPORT NAVAL FACILITY

    We are awfully proud to be the homeport of the NOAA Ship 
the Henry B. Bigelow in Newport. We also have a significant 
NOAA presence in Narragansett Bay. NOAA itself has been 
planning, over the last several years, to consolidate their 
fleet with better infrastructure and better facilities and 
saving money, they hope.
    This Committee has been incredibly helpful because they 
provided, over the last several years, about $4.5 million for 
planning so that NOAA can undertake their plan to consolidate. 
Newport offers a superb location, not only the Navy base, but 
also the University of Rhode Island School of Oceanography, the 
U.S. Maritime Resource Center, which trains all the deck 
officers, the uniformed deck officers for NOAA is located in 
Middletown, Rhode Island.
    We are trying to build off of a model which we used with 
the Coast Guard. The Coast Guard was able to work with the 
Navy. In fact, even got Navy funding, some funding to 
consolidate three buoy tenders into Newport, Rhode Island.
    All of this, however, has to be based on an executable plan 
from NOAA. And as I am sure you are aware, Mr. Secretary, the 
2018 Omnibus required NOAA to produce its plan within 60 days 
and that would be May 23, 2018.
    Can you give me the status of the plan that we are talking 
about? Within weeks the plan will need to be delivered.
    Secretary Ross. Well, we are aware about the $2 million 
provided in the fiscal year 2018 Omnibus for the Newport 
project and the 60-day requirement.
    The Navy and U.S. Coast Guard are working very actively 
with NOAA to try to put together the full consolidation plan 
and they are continuing to review the project and work with the 
Navy to finalize all of the assessments.
    Meanwhile, while the Newport construction takes place, 
there is an existing interagency agreement between NOAA and the 
Navy to homeport NOAA's Ship, the Henry B. Bigelow.
    Senator Reed. Yes.
    Secretary Ross. With which I think you are quite familiar.
    Senator Reed. Yes, sir.
    Secretary Ross. The Henry B. Bigelow and any other visiting 
ships at the naval station in Newport through fiscal year 2022.
    So the program is underway. We are working on it, but 
meanwhile, we have an interim solution that we think will be 
very helpful.
    Senator Reed. Well, thank you, Mr. Secretary. Again, we 
very much would like to see the plan promulgated pursuant to 
the Omnibus appropriations bill and then work with you, and the 
Department of the Navy, and the Coast Guard on getting it to 
fruition.
    I have already had conversations with Secretary Spencer, 
the Secretary of the Navy. He is enthusiastic. He is always 
enthusiastic. He is enthusiastic about this joint effort, not a 
singular effort, but a joint effort.
    So thank you, Mr. Secretary.

                      CENSUS TESTING AND SECURITY

    Let me turn now, since as we have noted, Providence County 
is the one location for the census test. It is taking place 
right now, and we have been involved with it.
    One of the observations I would make, even though, as you 
rightly point out, the citizenship question is not in the 
census test. Because of all the publicity, the perception of 
many people in the State is that it is in the questions. So it 
might have, unwittingly, an effect on the response.
    But one thing, from listening to your response to Senator 
Shaheen, can you assure us that none of this data will be, can 
legally be used by law enforcement agencies including in 
deportation hearings?
    Secretary Ross. None of the data is permitted by Title 13 
to be used for any other purpose even more benign purposes than 
deportation, number one.
    Number two, every census employee who has access to the 
data takes a lifetime oath not to divulge it.
    Third, we have put in all kinds of firewalls and separation 
of data as best we can to try to protect against any kind of 
cyber security attack that might occur.
    We are taking it very, very seriously and are going to work 
very hard not only to assure the public that it is the case, 
but to make sure that it is correct, and that the data will not 
be inappropriately used. We feel very, very strongly about 
that.
    I am happy to say that since Title 13 was passed, to the 
best of my knowledge, there has never been a single violation 
of it with respect to any census data. And that is now quite a 
few years, quite a few couple of decades, in fact.
    So we are very cautiously optimistic that we can continue 
that.
    And as you know, the penalties are severe. Someone who 
violates it can be fined up to $250,000 and/or up to 5 years in 
prison. I think most people would find that a pretty big 
deterrent.
    Senator Reed. Just one very, very quick comment. Having 
seen the rollout, and this is the only one in the country, 
there are efforts to involve organizations like public 
libraries.
    Secretary Ross. Yes.
    Senator Reed. Because there is the Internet self-response. 
My sense from the field, if you will, is that there could be a 
lot more effort to publicize and bring in public libraries and 
other centers so that you can have a higher response rate 
because many people do not have access to a computer unless 
they go to a library.
    So if you could look at that, Mr. Secretary, I would 
appreciate it.
    Secretary Ross. We are and I am happy to say that the 
initial response rates in Providence are very, very close to 
our ultimate target. We are hoping eventually to get a self-
response rate of about 47.2 percent. We are already at 45 
percent. So it is pretty clear that the efforts are working 
pretty well.
    And as you know, we experimented, and it looks successful 
with putting kiosks in, I think it is, 30 of the post offices 
around.
    Senator Reed. Yes.
    Secretary Ross. And that has proven to be very good, 
because people go pretty frequently to the post office in an 
urban setting.
    We now, yesterday, started the non-response follow up. We 
have 900 fieldworkers in the field working to get those folks 
who had not already responded either by Internet, or by mail, 
or through the kiosks, or whatever, or by phone to dig them out 
and get responses.
    So we also are engaging a very large number of community 
organizations, as you have mentioned.
    Senator Reed. Yes.
    Secretary Ross. And thus far, that cooperation seems quite 
good.
    Senator Reed. Thank you, Mr. Secretary, for your very 
thoughtful answers. Thank you.
    Senator Shaheen. Thank you, Senator Reed.
    Senator Lankford.
    Senator Lankford. Thank you.

                                TARIFFS

    Secretary, good to see you again. Let me ask you a couple 
of questions on tariffs. I know this is going to surprise you 
because this is a topic that probably does not come up very 
often at all right now.
    Secretary Ross. I am sorry.
    Senator Lankford. The tariff question is one more question 
to come at you as well.
    There have been around--the best figures that I have, you 
probably have better figures than I have--about 9,000 different 
requests for exclusions for American products. These are 
American products that there is a unique type still coming 
internationally that they either use in the product or are a 
part of a larger product that they manufacture. Those requests 
have gone in.
    It is my understanding, of the 9,000 that are out there, we 
are about 60 days in with a 90-day deadline to get them 
complete.
    How many of those are done at this point of those requests 
for exclusions from American companies requesting some of these 
exclusions?
    Secretary Ross. Well, the backlog is around 2,200 as I 
understand it, virtually all of which are ones----
    Senator Lankford. Is that for companies or products?
    Secretary Ross. Pardon?
    Senator Lankford. Is that by company, or 2,200 companies, 
or 2,200 products?
    Secretary Ross. Product inquires, product inquires. We 
measure it by product inquiry rather than by company. And, in 
fact, some companies have put in an enormous amount. One 
individual company put in a request for 1,167 product 
exclusions, which kind of boggles the mind, but we will see how 
warranted they are.
    So we are very fully engaged with processing it. A number 
of companies and trade associations have come in and logged in 
as well. So now that the comment periods are starting to run, 
you will be starting to see approvals and denials come out.
    Senator Lankford. Do you think that will be within that 90-
day window? That you are going to make that 90-day window that 
was described?
    Secretary Ross. Well, I think we can, assuming that the 
full Senate goes along with the budget requests that you 
fellows approved, the three-point-three, so we get 15 more 
employees to work on it. Assuming we get that approved very 
quickly, both by the Senate and the House, I am quite confident 
we can deal with it. But if we do not, that is going to be a 
stretch.
    Senator Lankford. Are you talking about reprogramming 
authority here?
    Secretary Ross. Yes, yes.
    Senator Lankford. Okay.
    Secretary Ross. The reprogramming.
    Senator Lankford. Okay. So not additional vote, but just 
reprogram.
    Secretary Ross. No, no. It is reprogramming.
    Senator Lankford. Let me ask about the retroactive nature 
of those applications because the applications themselves are 
retroactive back to when Commerce actually posted the 
application on it.
    Secretary Ross. Yes.
    Senator Lankford. That is the time period rather than 
typically be either when it is submitted or when the tariffs 
started entirely, rather than just waiting on when the team 
posted it.
    So is there not a better way to be able to do it to make it 
a clear spot?
    Secretary Ross. Well, the reason we did it in terms of when 
it was posted is to make sure that people would completely fill 
out the form and fill it out properly.
    The concern was if we did it to the date of filing, they 
have no particular incentive to correct errors in the form. And 
because we want to get this whole thing over with as quickly as 
possible, it was important to us to incentivize people if there 
is an error, to get it corrected quickly so we can post it. 
That was the reason for it, sir.
    Senator Lankford. But if there is an exclusion that is 
determined for them, as needed, why not just do the date when 
the tariff begins? It is their responsibility to be able to get 
all the paperwork in to be able to actually enjoy the benefits 
of that exclusion. Why not just do it on the date when the 
tariff began, and if they get any exclusion, it starts and it 
is retroactive?
    Secretary Ross. Well, this is what we felt was the best 
balancing of the needs of the respondents and the needs of the 
Customs and Border Patrol because they need a finite date. 
There are a whole bunch of considerations that we had to take 
into account.
    Senator Lankford. Okay, well, we will tray to follow back 
up. Let me ask you a little bit about census.
    There is a group of us in a bipartisan group that, from 
Homeland Security, met with census leadership including Acting 
Director Jarmin just about three weeks ago or so, asked a 
series of questions on that. Those questions from myself, from 
Senator Harris, and from several others, we have not received a 
response back to those yet, and I would say, just look forward 
to getting some response on it.

                 CENSUS AND OTHER AGENCY COLLABORATION

    One of the things that I had asked about, and we have 
talked about before as well, is looking not towards 2020 
because it is too late now, but towards 2030 and starting the 
process of asking a simple question.
    How can we work with IRS and with Commerce--knowing that 
IRS obviously interacts with every American as well in April, 
and so does Commerce every 10 years to do that--to be able to 
find a way to be able to put those two together? We spend 
billions of dollars doing census, when IRS every single year 
interacts with every American on that. How we can actually pull 
the two together?
    Can we get a time for our staffs just to be able to sit 
down and visit, and to be able to talk through the logistics of 
that, and how it might be possible?
    Secretary Ross. Yes, we are making much more extensive use 
of administrative records this time than ever before including 
we are getting some of the social safety network data from 
individual States. And about half the States have already 
agreed to provide us varying forms of that data because while 
most people are, in fact, involved with the IRS, there is a 
segment that is more dependent on the social safety network.
    Senator Lankford. Right.
    Secretary Ross. So we are trying to maximize the use of 
them. My hope is that if that works out as well as we think it 
will, it will greatly reduce the need for physical enumeration, 
which is the very expensive part of the census.
    I think that there is so much in the way of administrative 
data available that we really should maximize the use of that 
for two reasons.
    One, to make sure we get it correct. But also to make sure 
it is complete because if we can get access to all the social 
safety network, plus Social Security, plus IRS, plus 
Immigration Service, plus State Department for visas, at some 
point we will have enough of a database that you really will 
know pretty much everybody who is here.
    When we supplement that with the location analysis, the 
Local Update of Census Addresses (LUCA) is our acronym, working 
with the States and localities to correct addresses, to make 
sure that we have the right addresses. And we already have 
coverage of way over 90 percent and way higher than we had at 
this point in terms of the 2010 census.
    So we are pushing very hard to maximize the use of 
administrative records.
    Senator Lankford. Terrific, thank you.
    Senator Shaheen. Senator Leahy. Sorry, Senator Van Hollen, 
he outranks you.
    Senator Leahy. Senator Van Hollen, I appreciate the 
courtesy.
    Secretary Ross, good to see you again and I am going to ask 
you a couple of questions.

                  CITIZENSHIP QUESTION ON CENSUS 2020

    You announced in March your decision to add a question to 
the Decennial Census on citizenship status. Ever so 
controversial, 18 States are now challenging it in court and, 
among other things, any late changes to the content of the 
census, especially at the Bureau, has not been adequately 
tested. We know the risks involved.
    The end-to-end test underway does not include a question on 
citizenship status. It is being only tested in focus groups. It 
does not provide statistically significant findings. But we 
also know that even a 1 percent decrease in response rate will 
cost the taxpayers tens of millions of dollars as census costs 
increase.
    Now, you have the authority to add questions at the last 
minute, but the millions of dollars it is going to cost the 
taxpayers and what it might do on the results, I do not think 
that is really a responsible or advisable way to go. So let me 
ask you this question.
    The Bureau has a history of cost overruns. Given that, 
combined with the likelihood that dropping a controversial 
question onto the census will decrease response rates, will 
drive up census costs.
    What justification is there in adding a question this late 
in the cycle when you do not have time to test its impact on 
response rates? I mean, I know the administration says it wants 
to cut Government spending, but does this not dramatically 
increase government spending?
    Secretary Ross. Well, there are several questions in that. 
Let me try to address them.
    The Census Bureau career management has posted on their 
website, as of a few days ago, the basis on which they felt 
that it was not going to be any material negative impact on the 
census. That is the career people.
    Senator Leahy. How did they reach that conclusion and what 
kind of a test did they have?
    Secretary Ross. Well, their feeling was that since they 
have seen the response rates to this question, which in its 
identical form to the one that we are including in 2020, that 
identical question has been asked for some several years on the 
American Community Survey.
    There is not a material declination in response rates on 
that survey to that question as worded relative to the decline 
in response rates in other questions.
    Senator Leahy. Do you think the response rate will change 
in any way because of including this question?
    Secretary Ross. We think it may go down some.
    Senator Leahy. What is ``some''?
    Secretary Ross. Well, their estimate is 1 percent.
    Senator Leahy. And that would be how many?
    Secretary Ross. That is their estimate.
    Senator Leahy. Well, that would be well over 1 million.
    Secretary Ross. Pardon me?
    Senator Leahy. That would be over 1 million.
    Secretary Ross. Well, we have provided in our budget 
request, they were assuming, the career people were assuming 
that there would be a 60.5 percent overall response rate pre-
the-physical enumeration.
    In order to allow for any kind of contingencies we, for 
budgeting purposes, took it down to 55 percent. The existing 
budget----
    Senator Leahy. Do you have data on that?
    Secretary Ross. Pardon me?
    Senator Leahy. Do you have data on that conclusion?
    Secretary Ross. Well, it is not a conclusion. It was a 
safety valve that we put to protect against a cost overrun. So 
unless the career people are off by a multiple of five in their 
estimate of what will be the impact, we should be very well 
covered by the existing budget.
    Senator Leahy. And they have based their results on some 
data, I assume.
    Secretary Ross. Well, they base their results, the two 
senior career people each are more than 20-year veterans.
    Senator Leahy. But do they have any data to base their 
result?
    Secretary Ross. They did it based on their normal 
estimation process.
    Senator Leahy. Will you share that data with us?
    Secretary Ross. I will be glad to ask them for whatever 
they have in writing.
    Senator Leahy. Well, you are the boss. You can ask them and 
you can share it, if you want. And you have also marketed the 
citizenship question as necessary to enforce the Voting Rights 
Act. The Justice Department has not brought any voting rights 
cases since the President took office. They do not seem to see 
a problem out there.
    All the voting rights advocates I have spoken with oppose 
including the question. They say it is going to have the 
opposite effect and will bring about severe underrepresentation 
of those who they are trying to protect. And why this sudden 
interest in that when the Department is supposed to enforce 
violations and does not see any problems.
    Secretary Ross. Well, the Justice Department is the one who 
made the request of us.
    Senator Leahy. When did they make that request?
    Secretary Ross. Pardon me?
    Senator Leahy. When did they make that request?
    Secretary Ross. I think it was in January or February of 
this year.
    Senator Leahy. Do you have a copy of the request?
    Secretary Ross. Oh, surely.
    Senator Leahy. Will you send it to us, please?
    Secretary Ross. Well, as you know, this whole thing is in 
litigation. The full administrative record of it will be made 
available when we respond to the litigation that has been 
brought.
    Senator Leahy. When will that be?
    Secretary Ross. I am just looking that up now.
    Senator Leahy. Yes.
    Secretary Ross. I believe it is sometime in June 8.
    Senator Leahy. So we will have it on June 8. Will it be, 
will it have a copy for Congress?
    Secretary Ross. Well, it will be a public filing.
    Senator Leahy. Of course. Thank you.
    Thank you, Madam Chair.
    Senator Shaheen. Thank you.
    Senator Boozman.
    Senator Boozman. Thank you very much.
    Thank you for being here, Secretary Ross. We appreciate 
working with you on a number of issues and your staff does such 
a great job.

                  ECONOMIC DEVELOPMENT ADMINISTRATION

    One of the things that has been important in Arkansas has 
been the Economic Development Administration. They have done a 
great job acting as a catalyst. And as a result, have helped us 
preserve the jobs that we have, attract new jobs, and have been 
beneficial in helping to move Arkansas forward.
    One of our concerns is that that particular program has 
fallen into disfavor in the sense that the proposal is to zero 
it out.
    Can you talk to us a little bit about that?
    Secretary Ross. Yes. I agree with you that it has been a 
useful program. I do not think there is much doubt about that. 
But in a period of budget stringency, we have had to make some 
very hard decisions and this one of the more difficult 
decisions to make.
    So it is the kind of thing that you would rather not do, 
but when you have a budget limitation and a budget stringency, 
you do have to make difficult decisions.
    Senator Boozman. Well, thank you, and hopefully, we can 
work with you on that and perhaps give you, myself and others, 
how it has been helpful in our States so that we can perhaps 
move that in a different direction.
    Secretary Ross. Well, thank you.

              REGULATORY BARRIERS TO BROADBAND DEPLOYMENT

    Senator Boozman. The development and deployment of a 
nationwide, high speed, 5G network is of great economic 
significance, as you know. And I really applaud and support 
your race to 5G, which is so, so very important.
    However, it is sad that in many of our rural communities, 
we are racing towards securing dialup Internet speeds, much 
less 5G. Urban and rural areas alike deserve high speed 
Internet. It is the crux of competing in our modern economy. 
And again, I know that you understand that.
    The National Telecommunications Information Administration, 
under the Department of Commerce, serves as the co-chair of the 
Broadband Interagency Working Group. One of the Group's 
functions is to identify and reduce regulatory barriers to 
broadband deployment.
    To that end, can you please talk to us a little bit, 
perhaps, about the progress that we are making on that front? 
And explain any additional areas where the Department is 
working towards nationwide high-speed broadband deployment?
    Secretary Ross. Well, as to the broadband map itself, as 
you know, we had requested $50 million in fiscal year 2018 for 
the assessment of the current status nationwide.
    That request was based on the findings of the President's 
Task Force on Agriculture and Rural Prosperity, and was 
intended to promote more efficient Federal broadband 
investments by identifying existing infrastructure, gaps in it, 
and opportunities for more efficient deployment.
    We believe that efforts to utilize broadband availability 
data sources be on current measures are especially critical in 
rural areas because those are the places where current data at 
the census block level may not accurately reflect broadband 
availability within the block itself.
    Therefore, the problem is that the Consolidated 
Appropriations Act provided only $7.5 million to NTIA through 
2019 for this effort. So we are currently evaluating its 
options to ensure that the money that is being appropriated is 
efficiently used.
    The main thing we will lose, as a result of less funding, 
is validation. In 2009, NTIA received over $290 million funding 
to create the National Broadband Map, and that was part of the 
stimulus program. That map was last updated in March of 2015. 
In May of 2015, the FCC took over that responsibility when 
Congress stopped appropriating funds to NTIA.
    So that is where we stand at the moment, sir.
    Senator Boozman. Okay, we will be glad to work with you on 
that, and I am glad that you brought that up. I am sitting by 
Senator Capito from West Virginia and she has been a real 
leader on this, and we appreciate her leadership.
    Secretary Ross. We are quite eager to get broadband going 
everywhere.
    Senator Boozman. Good.
    Secretary Ross. And toward that end, I might add, FirstNet 
is proving to be very, very successful; all 56 States and 
territories have signed up. We are launching the service. So 
far, it seems on schedule and on budget. And some of that 
infrastructure can also be used to facilitate broadband on a 
much broader basis.
    So we are doing what we can do within the fiscal 
constraints to facilitate it.
    Senator Boozman. Well, again, hopefully we can help you 
with that, and we appreciate the fact that you realize the 
importance.
    One of the things that really brings it home, you travel in 
rural Arkansas, or rural West Virginia, wherever, and you will 
see the young people sitting out on the bed of a pickup doing 
their homework in the evening or on the weekends simply because 
there is no connectivity there.
    Then you translate that to our communities and trying to 
grow their communities. And if it is not there, it just simply 
does not work.
    So thank you very much and we do appreciate your efforts in 
that regard.
    Secretary Ross. So we are keenly aware of the need and we 
are doing what we can with the budget available.
    Senator Boozman. Thank you, sir.
    Senator Shaheen. Thank you.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Senator Shaheen.
    Welcome, Mr. Secretary.
    I want to start by associating myself with the comments by 
Senators Shaheen, and Leahy, and Schatz with respect to the 
census.
    I want to pick up on something Senator Boozman said with 
respect to the EDA because I raised this with you last year, 
same hearing, mentioned the good work done by the EDA in 
promoting economic development.
    At that time, the President's daughter, Ivanka Trump, had 
actually visited an entrepreneurship center in Baltimore City 
that had been established with a partnership of the National 
Urban League and was set up with a $300,000 grant from the EDA, 
and has resulted in generating more business and spinoff. In 
fact, Ivanka Trump hailed it and pointed to it as an example of 
the good work that the EDA could do.
    I raised that last year because you zeroed it out. The 
administration zeroed out in its budget. I had hoped, given the 
positive aspects of the program, that you would have put it in 
here. So I am looking forward to working with my colleagues to 
restore it.
    But I have to say, it is part of a pattern. Your budget 
also cuts $24 million from the Minority Business Development 
budget and you intend, in this budget, to close the centers 
including, I will say, four in Maryland that would be shutdown.
    In other parts of the administration's budget, you zero out 
funding for CDBG, Community Development Block Grants. You zero 
out funding for the Community Development Financial 
Institutions (CDFI), which, as you know, are tools that people 
use to promote economic development.
    I have to say, it rings a little hollow to say these 
decisions are made because of budget and fiscal stringency when 
we just added close to $2 trillion to our national debt as a 
result of the tax cut, and that is CBO's number. And as of 
today, I am told the number of stock buybacks as a result of 
that has hit $408 billion.
    So a lot of wealthy stockholders are doing well, while the 
budget is cutting things like EDA and these important 
investments.

                             SOLAR TARIFFS

    Speaking of jobs, let me ask you about the solar tariffs 
specifically.
    Secretary Ross. Ask about what, sir?
    Senator Van Hollen. The solar, the tariffs on solar panels 
because, as you know, the solar industry in the United States 
has been growing quite rapidly.
    It has been the source of many new jobs across the country, 
including in my State of Maryland. In 2017, Maryland had 720 
megawatts of solar installed and 5,400 Marylanders were 
employed in the solar industry.
    According to the Solar Energy Industries Association, as a 
result of the tariffs just since they were imposed, Maryland 
has lost 784 solar industry jobs.
    And so, my question is, have you seen an analysis that 
demonstrates that the number of American jobs gained by these 
solar tariffs are going to exceed the number of American jobs 
that we will lose?
    Secretary Ross. I think that is a very complex question. As 
you know, there have been some foreign providers of solar 
material that have now announced that they will be opening 
facilities here in the States, and that had been one of the 
President's objectives in putting the tariffs on.
    I also saw an estimate from one of the solar groups that, 
while the growth rate will slow probably this year, they are 
still forecasting something like an 11 percent growth year over 
year. What makes it complicated is there were some tax benefits 
that expired last year. So you had a whole series of activities 
that were driven by trying to get in under the deadline.
    Senator Van Hollen. Yes, I understand there can be some 
positive job growth, but the question is what is the net? The 
net so far in Maryland is we are over 700 jobs down and the 
projection, again, from industry associations that nationally, 
we are going to see a net loss of 23,000 jobs this year. So I 
just question that as a mechanism to increase jobs given the 
job loss.

                            EXIM BANK CHAIR

    My last question relates to the Export-Import Bank of the 
United States (EXIM) Bank, and I know it is not directly under 
your jurisdiction, but I believe you have been a supporter of 
the Bank. And at a time when we are trying to increase exports, 
I would hope that we would have a sort of full contingent 
onboard.
    I join many of my colleagues in asking the President to 
appoint a new chairman that can be confirmed by the Senate. The 
first nomination has been opposed on a bipartisan basis, I 
should say, in the United States Senate. We do not have a full 
time director there. They are not able to approve deals above 
$10 million in the current configuration.
    So my question to you is, can you help us urge the 
President to appoint a new nominee to chair the EXIM Bank so we 
can get on with the business of the bank?
    Secretary Ross. Well, it is out of my range to get into 
individual personnel decisions, but I do feel, and have said, 
that one of the ways that China is competing against us, 
particularly in the less developed countries, is with the 
financing from the AIIB, their export bank and other things.
    And so, I am keenly aware that the absence of a functioning 
EXIM Bank that can make decisions more than $10 million on a 
loan is an important thing.
    USAID is helping some with that. The Overseas Private 
Investment Corporation (OPIC) is helping some with that as 
well. So we are trying to do what we can with the funding that 
is available.
    Senator Van Hollen. I thank you, Mr. Secretary. I hope we 
can work on a bipartisan basis to expedite this process 
because, as you indicated, it is like fighting with one hand 
tied behind your back when you do not have a functioning EXIM 
Bank.
    Senator Moran [presiding]. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman, and welcome, 
Secretary Ross. It is great to see you.
    I am not going to repeat what Senator Van Hollen and 
Senator Boozman said on the EDA, except to reinforce to you, 
and you and I have talked about this, the good things that EDA 
does for smaller projects, certainly in a State like ours. I 
think that I would encourage us working together to try to keep 
that, I think, very valuable program.
    Also on the Internet, you and I have also talked about 
this. I know you worked on this in Florida in terms of 
deployment to the unserved and underserved areas.
    Part of what I worked on in the last Omnibus bill was to 
expand EDA's ability to reach in for underserved and unserved 
areas, and be a part of this. We really need all hands on deck. 
We do not want to leave the rest of the country out. So that is 
my comment on that.

                    NOAA HIGH PERFORMANCE COMPUTING

    I did want to bring up the important work that is being 
done at the NOAA facility in Fairmont. It is the Continuity of 
Operations Plan (COOP) site for NOAA and also the consolidated 
backup facility for the critical Geostationary Operational 
Environmental Satellite (GOES) satellite series.
    They are doing groundbreaking work also in supercomputing, 
but this budget proposes cuts to high performance computing. We 
have invested considerable resources on new satellite programs 
to collect massive amounts of data. I am not sure why we would 
cut the very tools we need to take that information and derive 
more meaningful information from that data.
    So I have conveyed to the leadership at NOAA, and I convey 
to you, that the people in Fairmont in West Virginia stand 
ready to expand their capabilities to meet the needs of the 
Department and NOAA to fulfill its stated mission.
    So I do not know if you have a comment on the 
supercomputing question.
    Secretary Ross. Well, NOAA and I both share your interest 
in the supercomputing capability within the Fairmont facility. 
There is a slight reduction to the contract support for this 
facility in the fiscal year 2019 budget, due to the need to 
make some of the tough choices that have affected us elsewhere.
    But we remain committed to providing and sustaining support 
for this facility and for the other work in Fairmont.
    Earlier this week, NOAA leadership held a successful COOP 
exercise there and committed to sustaining support for the 
facility, and we will continue to partner with local 
universities on professional development programs for members 
of the local community.
    Senator Capito. Great. That is good and we would encourage 
that.

                CFIUS: CHINA INVESTMENT IN WEST VIRGINIA

    The last question I had, I noticed in your statement that 
you had asked for increased funding for the BIS to do with 
expanded export controls to protect our technology and to help 
the Committee on Foreign Investment in the United States 
(CFIUS) process.
    As you and I have talked about as well, when on the trip to 
China, I think it was early in November, the Chinese and the 
State of West Virginia entered into a preliminary agreement of 
investment, of Chinese investment into our State.
    Secretary Ross. Yes.
    Senator Capito. I am interested in how the interplay of 
increased funding for CFIUS might help us move these projects 
along in West Virginia with the assurances that after 
investigating all of this that we are on firm footing here to 
pursue these.
    Secretary Ross. Well, when I was over there last week, that 
was one of the topics we discussed. As you know, I am a very 
big supporter of that project.
    Senator Capito. Right.
    Secretary Ross. And I did not get the impression that they 
are backsliding at all on it. Have you had any implication that 
they are backsliding?
    Senator Capito. No, no. I have not had any indication. I 
mean, we have not seen an investment yet, but I guess my 
question really goes more towards the CFIUS process that will 
be occurring. I assume it will occur on something of this 
magnitude?
    Secretary Ross. Yes. Well, CFIUS, the real target in CFIUS 
is militarily sensitive activity. I would be very, very 
surprised if the activities that would be from the West 
Virginia venture would be deemed as falling within that.
    Senator Capito. Yes, I doubt that also.
    Secretary Ross. We want to export those products. The 
Chinese want to import them.
    I have not heard any indication from the President or from 
the Chinese that there is any opposition to that project.
    Senator Capito. Thank you very much.
    Senator Moran. The Senator from West Virginia, Senator 
Manchin.
    Senator Manchin. Thank you.
    And to follow up on my colleague, we are very much 
concerned about this. First of all, EDA and ARC, Appalachia 
Regional Commission kind of go hand in hand. A lot of them work 
together. With EDA being, however you want to say it, being cut 
completely, it is going to affect the ARC.
    We are afraid because, I think it has been recommended 
before, that ARC will go down. We are the only State in the 
Nation that has all 55, my entire State, between Senator Capito 
and I, our entire State has all 55 counties in it, sir. So we 
are very much concerned, the Fairmont supercomputer, all of the 
different things that we are doing, WVU, is all tied into this.
    I hope that you will look at it, especially in rural 
States, it really affects in a disproportionate way. I do not 
know how we are going to be able to continue to give the 
services we were depending so much on EDA loans coming through, 
ARC to do the jobs around the State.
    I am going to switch over because everybody has been asking 
about that and everybody is concerned about the funding being 
cut.

                       TARIFF AND TRADE POLICIES

    I want to talk to you about tariffs and trade policies. My 
thing on the tariffs, first of all, I agree with you. I agree 
with the tariffs. I know exactly what is happening. I can show 
our State of West Virginia has taken a tremendous hit over the 
years and these tariffs have just played, I mean, the unfair 
advantage of countries being able to come into our markets. You 
have seen that your whole life. With China, they are concerned 
about a trade war with the other countries.
    Have you been able to pinpoint where these tariffs are 
going to be implemented and where you have been able to 
negotiate either a lower tariff or no tariff?
    Secretary Ross. Well, in terms of retaliation did you mean 
or?
    Senator Manchin. I said have you, have we, as the United 
States? I know, at first, it was going to be 25 percent for 
steel and 10 percent for aluminum, I believe, and it was a 
blanket worldwide. Then we came back and took off Canada. We 
have taken off South Korea.
    Are you looking at, I guess, where we have surpluses and 
where we have deficits in our trade?
    Secretary Ross. Sure. Well, Korea has not been let off the 
hook. Korea, we negotiated several things with them in the 
context, of course. They are accepting the 10 percent tariff on 
aluminum and they will not be filing a WTO protest against it.
    In terms of steel, what we worked out with them instead of 
the 25 percent tariff was a quota system that would yield the 
functional equivalent. Namely, we took the average of years 
2015 through 2017, their shipments to us, discounted it by 30 
percent, which is really more than 30 percent on 2017, and that 
is the quota that they have agreed to live with and again, 
without protesting.
    In the case of Argentina and Brazil, there also are quotas, 
not as severe as the one with Korea because Argentina and 
Brazil, we are not doing the kind of transship to avoid tariffs 
that Korea was doing, but they are agreeing to quotas.
    So the main ones that are left are the Canada and Mexico 
question; in the aggregate, our trade with them is pretty well 
balanced in steel.
    In aluminum, we literally do not have enough aluminum 
capacity in this country to fill our needs without the support 
of Canada. And Canada has not been dumping. Canada is a very 
low cost producer because they have a lot of natural gas and a 
lot of hydropower.
    But those discussions are intertwined in terms of Canada 
and Mexico with the whole NAFTA.
    Finally, you have the EU. The President delegated to me the 
task of negotiating with EU. Ambassador Lighthizer is handling 
the country exclusions other than the EU. EU is my 
responsibility.
    You probably have seen in the press lately EU floating that 
they are giving some thought to the idea of quotas. Well, I 
talk with Commissioner Malmstrom quite frequently, several 
times each week, and I will be talking with her again the 
beginning of next week.
    I think there is a reasonable chance we will work something 
out, but you never have a deal until you have a deal on 
everything. So it is a work in progress at the moment.
    Senator Manchin. Well, may I have some considerations maybe 
go a little bit longer because I think it is important and I do 
not see any of my colleagues waiting right now. Mr. Chairman, 
if you would be so kind? Can I ask him?
    Trade policies, I have always been very concerned. I truly 
am one who thought that the United States made horrible trade 
deals and I have said that because I have seen some of the 
deals that we have made, multilateral deals and some of the 
countries we put into multilateral deals, some needed some 
helps and certain caveats, if you will, some took advantage of 
them.
    So I appreciate, I think, you are targeting more on 
bilateral versus multilateral. I appreciate that and support it 
wholeheartedly. I think it is the way. I want to deal directly 
with Mexico. I want to deal directly with Canada; two 
completely different markets.
    The thing I am saying is that I do not know why we do not 
just put reciprocating on trade policies or the trade deals we 
do, and I will give you a perfect example.
    If we are not able, as the United States companies or 
corporations, to own any financial wherewithal or institutions 
in China, then China should not be able to come in to buy into 
our markets such as the Chicago Stock Exchange.
    If we are not able to own natural resources, coal or gas 
deposits in China, China should not be able to buy and own that 
in our country. If we are not able to control the grid system 
or buy the grid system or the distribution, why should we allow 
countries that will not allow us the same reciprocation? That 
is the most commonsense approach to any trade deal.
    Secretary Ross. Well, as I think you are aware, Senator 
Manchin, the President is very keen on the notion of 
reciprocity.
    Senator Manchin. I like where he is going on this, I just 
hope you double down.
    Secretary Ross. Well, we are trying our best. I promise 
you, it was a major feature of our discussions with the Chinese 
last week and will continue to be a major feature of it.

                               SANCTIONS

    Senator Manchin. The Iran deal, the sanctions on Iran, are 
you able to hammer down on these sanctions to bring them back 
into play or are we going to be crippled because the P5 are 
allies are not going to go along or right now have not gone 
along? And are you negotiating trying to get them to help us 
make these sanctions more effective?
    Secretary Ross. Well, we would certainly prefer to have the 
support of our allies in any activity of this sort, 
particularly sanctions.
    But because of the prominence of the dollar in global 
commerce, even without the help of our allies, these sanctions 
can be pretty effective because people are very concerned to 
operate through the clearing system of the banks for fear that 
they will be punished for doing something inappropriate.
    In terms of actual trade with Iran, Europe is really the 
one that has much more at risk there than we do, particularly 
the French. It has always been much more of a European market, 
in my experience, than it has the U.S. So I do not think the 
blowback on U.S. trade is likely to be that severe in any 
event.
    But the real purpose of the sanctions, of course, is not so 
much trade based, as it is nuclear treaty.
    Senator Manchin. I agree.
    Secretary Ross. And the President, that is one of the few 
tools that he has to try to modify their behavior in terms of 
nuclear and missile.
    Senator Manchin. Have they shown any inclination to sit 
down and negotiate at all an Iran deal as far as the sanctions?
    Secretary Ross. It is early days. As you know, the 
sanctions were just imposed.
    Senator Manchin. Mr. Chairman, you have been so kind.
    Senator Moran. Senator Manchin, thank you very much.
    We have votes at noon, so Mr. Secretary, you are soon to be 
off the hook. I think Senator Manchin has started the second 
round of questioning and I only have one additional question 
myself, and then I will give you a chance to tell us anything 
you would like for us to know.

                            SHARED SERVICES

    I want to ask a question about some processes at the 
Department. Before you took over the Department of Commerce, 
this subcommittee worked for the prior administration to 
approve the use of shared services. The shared service model 
was sold to this subcommittee as a more efficient way for the 
Department, and its bureaus, to carry out administrative tasks, 
such as hiring, cost accounting services, and IT management.
    I think we are still waiting to see the results of these 
shared services on the overall Department's administrative 
functions and cost. This is particularly the case for hiring 
actions, which at NOAA's weather service can take over 18 
months to find a hire to hire within certain of its bureaus.
    I just was looking for your views, Secretary Ross, on the 
shared services model and how do you think it should be applied 
at the Department?
    Secretary Ross. Sure. Well, the shared services model has 
proven to be effective in one area, which is the procurement 
area. We have made very good savings by bundling together 
routine procurement decisions that are common to all of the 
entities within the Department, that those savings are quite 
tangible, quite visible.
    What has been more complicated is the issue of hiring 
people. As you know, we made an arrangement with Accenture, in 
effect, to not only do enterprise sharing, but outsourcing of 
many of the functions. And unfortunately, that has not worked 
out as well as had been expected.
    So we have terminated the arrangement with Accenture, and 
we have entered into an arrangement with another firm with the 
strange acronym of YRCI, which stands for Your Recruiting 
Company, Inc. We are hopeful that that will bear better fruit 
than the former process.
    There were some problems of implementation on the NOAA 
side. There were some problems of implementation on the 
Advanced Forecasting Corporation (AFC) side. We think we have 
learned a lot from them and we are optimistic that we can 
greatly reduce the amount of time it takes them to fill a 
position.
    Now, having said that, the amount of positions that are 
vacant, not all of those are positions that NOAA wishes to 
fill. The union tends to use a very old table of organization 
that was pretty much of the capital investment in efficiency 
that has occurred subsequently. So the number of true vacancies 
is much smaller than you have seen in some of the press 
clippings.
    But there has been a problem at NOAA with hiring. No 
question. Part of that is because a lot of the amount of the 
people they need to hire are very specialized skills, but there 
also have been implementation problems. We hope the new 
arrangement with YRCI will help resolve that.
    Our target is to get down to more normal levels by the end 
of 2019 fiscal year.
    Senator Moran. Mr. Secretary, let me ask in a direct way. 
Do you support the continued shared service arrangement at the 
Department?
    Secretary Ross. I think shared services is the right way to 
go for many functions and for many of the departments.
    Whether hiring is one, especially where you have very 
specialized needs like the U.S. Patent and Trademark Office. We 
are having some very extensive discussions with them. Their 
needs are relatively unique. So are some of NOAA's needs. So 
that is a different thing from where your needs are largely 
just clerical positions.
    So we are trying to figure out how best to apply the 
concept of enterprise services to the Department, and it may 
well be that one size does not fit all. That there needs to be 
fine tuning.
    We are also looking at functions other than recruitment as 
possible candidates for enterprise sharing. If you look at the 
tables of organization at the various entities within our 
Department and others, there is, on the face of it, quite a 
little bit of duplication. And so, we are looking at other 
avenues for enterprise sharing as well.
    Senator Moran. Mr. Secretary, thank you. Thank you for your 
testimony.
    Let me first say this.
    Senator Shaheen, the Ranking Member, is at the Labor 
subcommittee hearing this morning where Secretary Azar is 
testifying. That is where I was in my absence. We need to work 
on our scheduling in the United States Senate.
    But I always have the practice of asking my witnesses 
before my subcommittees if they have anything they want to say 
that they have not been asked or was not included in your 
statement. Is there something that we have missed that you want 
to make clear to us?
    I also have noticed you have a chart in the room that you 
have not referenced, and I would hate that no good chart should 
go wasted.
    Secretary Ross. Well, the charts, I had assumed that there 
would be many more questions, perhaps, on trade policy and that 
is essentially what these charts are meant to show.
    So if you would like, I could spend a few minutes running 
you through them. That would warm the hearts of the people who 
spent a lot of last night preparing them.
    Senator Moran. My suggestion, Mr. Secretary, is there will 
be a vote occurring in about 4 minutes. My suggestion is that 
you make certain that we have a copy of that chart. We will 
make sure that each Member of the subcommittee receives it.
    Secretary Ross. Okay, we will be happy to do that. I 
promise you, they are very useful charts. You might find them 
interesting.
    Senator Moran. I, too, expected there to be more questions 
in regard to trade, which is why I asked fewer questions than I 
had intended.
    Mr. Secretary, you are fine with what you had to say? 
Nothing to add or to detract from?
    Secretary Ross. No, I think you have done a pretty good job 
X-raying the Department. So I am comfortable with where the 
record stands.
    Senator Moran. Very good. Again, thank you for your public 
service and for your presence with us today.

                     ADDITIONAL COMMITTEE QUESTIONS

    With no further questions this morning, Senators may submit 
additional questions for the subcommittee's official hearing 
record.
    We request the Department of Commerce's response within 30 
days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Hon. Wilbur Ross
             Questions Submitted by Senator Lisa Murkowski
                             seafood trade
    Question 1a. I appreciate your comments on reducing our seafood 
trade deficit and promoting domestic, sustainable production. As we 
look at seafood trade, it's vital that promoting our seafood exports is 
part of that strategy. There are emerging markets overseas that demand 
U.S. seafood products, and we need to capitalize on and improve those 
opportunities. For example, the terms of the Trans-Pacific Partnership 
would benefit our seafood industry.
    What steps is NOAA taking to ensure that its staff and regional 
fishery management councils follow through on your goals of maximizing 
domestic production opportunities?
    Answer. NOAA Fisheries and the regional fishery management councils 
are in the process of completing a comprehensive review of existing 
regulations as part of the administration's efforts to remove 
redundant, outdated, or unnecessary regulations. In fiscal year 2018, 
NOAA Fisheries provided an additional $1 million to the regional 
fishery management councils to support deregulatory actions. In 
addition, we continually review and revise domestic fisheries 
regulations to relieve restrictions and expand fishing opportunities. 
After careful review of the biological information and public comment, 
NOAA Fisheries has opened new fishing areas, increased flexibility in 
the use of additional gears, and reduced risk buffers to increase 
allowable harvest in many of its domestic fisheries, which are 
sustainably managed for optimum yield.
    For example, in fiscal year 2018, NOAA Fisheries was able to reopen 
fishing grounds that are expected to provide additional tens of 
millions of dollars worth of scallops into the market each year. As 
another example, NOAA Fisheries has made substantial progress in 
completing numerous actions to improve opportunity in the Pacific 
groundfish fishery. In particular, NOAA Fisheries created more fishing 
opportunities in Oregon by publishing a final rule authorizing a new 
recreational fishery for rockfish at midwater depths greater than 40 
fathoms. Rockfish are Oregon's largest recreational ocean fishery, and 
add more than $14 million to the State's economy each year. The new 
fishery aims to increase recreational fishing opportunity, providing 
new options for anglers and benefit Oregon's coastal communities. When 
deep-water rockfish closures went into place in 2004 to protect and 
help rebuild overfished rockfish species, several ports were left 
without any viable groundfish fishing opportunities; the new fishery is 
expected to provide new recreational fishing opportunity to these 
ports.
    Additionally, NMFS recently proposed regulations to expand the 
lending authority under the Fisheries Finance program to additional 
fisheries. Specifically, the proposed rulemaking would allow the 
Fisheries Finance Program to finance the purchase and transfer of 
harvesting rights in limited access fisheries that are under Federal 
management. Finally, expansion of domestic aquaculture continues to be 
a focal point of our efforts. We continue to work with our partners to 
address identified barriers and support needed scientific research.
    We are also identifying the most significant trade barriers to U.S. 
seafood exports and coordinating among NOAA, the International Trade 
Administration, and U.S. Trade Representative to prioritize them in 
negotiations with trading partners.

    Question 1b. How are you working with industry and other trade-
focused Federal agencies to advance seafood export promotion goals? At 
the same time, how can we make sure that seafood does not get caught up 
in discussions about trade barriers to address unrelated issues, like 
intellectual property?
    Answer. Several bureaus within the Department of Commerce continue 
their collective efforts to ensure a strong export environment for U.S. 
seafood. This work is further augmented by engagement by the United 
States Trade Representative at both the negotiating table for free 
trade agreements and the World Trade Organization to ensure that U.S. 
industry is treated fairly. Recent efforts include engagement of the 
General Administration of Customs China regarding the approval of new 
products for import into China from the United States, including 
several Alaska rockfish species and fish oil produced from Alaska 
salmon processing waste. We are also working to ensure the renewal of 
China fishmeal import permits, many of which are held by Alaska 
processors, and to increase the annual tariff quotas set by the 
European Union for several products exported from the United States.
    With regard to the impact on seafood of trade barrier discussions, 
the administration is for free trade, but it must also be fair trade. 
Addressing unfair trade practices, protecting our national security and 
ensuring that global trade is free, fair and reciprocal will have a 
significant positive long term impact on the U.S. economy.
                          hydrographic surveys

    Question 2a. While shipping continues to increase as sea ice 
diminishes, a shockingly low percentage of the U.S. Arctic has been 
charted to modern standards, reported as low as 2 percent in 2017. As 
you know, survey work in the Arctic is subject to a shorter operational 
season than other U.S. coastal regions. I am concerned we are not 
moving quickly enough to mitigate the risks associated with increased 
activity in the remote and rapidly changing region. Furthermore, I am 
worried that NOAA's desire to conduct hydrographic surveys using the 
agency's vessels is preventing the work from being completed as 
quickly, and at a reduced expense, as it could with contracted assets. 
I believe, as this Committee has stated in the past to your Agency, 
that Arctic survey work could be completed more efficiently through the 
use of locally available resources and expertise.
    The last administration estimated the survey backlog in the Arctic 
to be over 100 years. That is absolutely unacceptable. When I met with 
RADML Gallaudet last month, he said that this administration would be 
working toward providing an updated estimate on a faster timeline. What 
is this administration's estimate of how long it will take to complete 
the appalling backlog for Arctic surveys?
    Answer. NOAA has conducted a preliminary assessment of the highest 
priority survey needs within the Arctic and has updated its national 
hydrographic survey priorities to include these emerging Arctic 
requirements.
    The survey backlog you refer to is calculated based on 
``navigationally significant waters'' that modern survey data does not 
cover. NOAA's actual prioritization of planned surveys incorporates 
analysis of current or projected use by vessel traffic and feedback 
from users. Following from this prioritization, NOAA plans to build 11 
new charts throughout the Arctic over the next 10-15 years. In fiscal 
year 2017 almost half of NOAA's 17 hydrographic survey projects were in 
Alaska and the Arctic (5 were in Alaska and 2 were in the U.S. Arctic). 
Over the past 3 years, NOAA and its contract partners have acquired 
nearly 1,500 square nautical miles of hydrographic survey data in the 
Arctic.
    In fiscal year 2018, NOAA plans to use both in-house and contract 
assets for its hydrographic survey requirements in Alaska, including 
Southeast, Kodiak Island, the Alaska Peninsula and Point Hope and 
vicinity. NOAA is also exploring ways to increase our future 
hydrographic survey capabilities. NOAA has been working with private 
sector partners and academia to develop and deploy Autonomous Surface 
Vessels (ASV) in the Arctic for chart-quality surveys. As of the time 
of this response, we are currently updating our Bering Sea charts with 
the ASV-gathered data from a collaboration with the Pacific Marine 
Environmental Laboratory in 2016, and expanded this effort in 2017 to 
five ASVs. We look forward to updating more charts with that data and 
further investigating the use of ASVs as an additional cost-effective 
survey capability.

    Question 2b. Have NOAA and the Department of Commerce heeded the 
direction of Congress to facilitate expediting Arctic surveys through 
prioritizing outside contracts?
    Answer. Yes, NOAA uses private contractors to complement its 
hydrographic services mission in the Arctic and elsewhere when the 
private sector has the proven technical competence and provides the 
best value to the taxpayer. Both NOAA and contractor assets are used to 
conduct hydrographic surveys in the Arctic based on yearly requirements 
and resource availability. Some contractors may be well suited to 
working in the Arctic if they have proven expertise and have 
demonstrated success in conducting operations under harsh Arctic 
conditions.
    In fiscal year 2017, NOAA used both in-house and contract surveys 
for several areas in Alaska, two of which are in the Arctic NOAA plans 
to use both in-house and contract assets for its hydrographic survey 
requirements in Alaska in fiscal year 2018 as well.

                         pacific salmon treaty
    Question 3a. As we near the deadline for negotiations of the 
Pacific Salmon Treaty, I am hearing ongoing concerns from my 
constituents and those very familiar with the treaty and its 
negotiations that the NMFS is placing an exaggerated emphasis on 
returning a de minimus number of Chinook to Puget Sound, using ESA as 
reasoning, over the socioeconomic value of Alaska's salmon fisheries. 
In the process, it is my understanding that the Agency is ignoring the 
plethora of non-fishing factors, such as agricultural run-off and other 
water pollutants that pose a far greater threat to the survival of 
Puget Sound Chinook.
    What is the Department's position on the balancing of ESA concerns 
with other agency objectives, like facilitating and sustaining healthy 
fisheries?
    Answer. Both the Department and NOAA are committed to NOAA's 
statutory responsibilities under the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA) and the Endangered Species Act 
(ESA) Regarding the Pacific Salmon Treaty, these two responsibilities 
were reflected in the negotiations which were successfully concluded by 
U.S. commissioners representing Alaska, the States of Washington and 
Oregon, Indian tribes in the Northwest and the Federal Government. The 
Agreement reduces catch to conserve salmon coastwide--including 
populations listed under the ESA, but also includes an agreement among 
non-Federal commissioners to seek funding to help address the economic 
impact to communities in Southeast Alaska. The U.S. is hopeful that the 
steps taken in this new agreement, similar to those taken under the 
Treaty in earlier years, for Snake River fall Chinook salmon will 
result in equally positive outcomes for other listed Chinook stocks. 
After Snake River fall Chinook salmon was listed under the ESA in the 
early 1990s, many Pacific coast fisheries were constrained, including 
those in Alaska, as part of a holistic recovery program. Snake River 
fall Chinook salmon have not yet recovered to the point of delisting, 
but NMFS's recovery program has succeeded in supporting dramatic 
improvements to their status in the last 20 years to the point where 
they no longer constrain ocean fisheries.

    Question 3b. Also, what actions is the Department taking to address 
non-fishing impacts to Puget Sound Chinook or to address the impacts to 
Puget Sound Chinook from Canadian and Washington fisheries?
    Answer. NMFS uses both regulatory and non-regulatory approaches to 
address impacts to Pacific salmon species that are not the result of 
directed fisheries. In particular, NMFS leverages multiple authorities 
(including the MSA; the Oil Pollution Act; and the Comprehensive 
Environmental Response, Compensation, and Liability Act) to direct 
funding and technical assistance to high-priority habitat restoration 
actions that support and accelerate Chinook salmon recovery.
    In Puget Sound, NMFS works closely with Tribal governments, State 
and local agencies, other Federal agencies, and non-profit 
organizations to align efforts and leverage funding for habitat 
restoration to achieve maximum impact. NMFS' authorities under Section 
7 of the ESA require the agency to review Federal actions that may 
affect listed salmon and their habitat. Through these consultations, 
NMFS works directly with project applicants in the agriculture, timber, 
hydropower, transportation, and infrastructure sectors to help develop 
mitigation measures to minimize project impacts to ESA-listed species. 
Where appropriate, NMFS may require actions to ameliorate potential 
adverse effects.
    In addition, because fisheries, particularly in Washington State 
and Canada that are under the Pacific Salmon Treaty, significantly 
affect ESA-listed Puget Sound Chinook, the new agreement includes 
conservation measures directed at increasing Puget Sound Chinook 
abundance and resiliency.
                         arctic research office
    Question 4a. For the last 2 years, I have requested that the Arctic 
Research Program be established as its own funding line in the NOAA 
budget. In my view, we should be looking for every way to increase our 
research into a region that is changing as drastically as the Arctic.
    Given that NOAA has one of, if not the biggest set of 
responsibilities in the Arctic, why doesn't the Agency want to elevate 
a Program that has a clearly growing urgency?
    Answer. NOAA agrees that it is important to emphasize Arctic 
research in light of the rapid changes occurring in the region. It 
believes it can continue to support cross-cutting Arctic research 
without generating another budget line within the President's budget, 
which presents additional complexities in regard to budget execution.

    Question 4b. How are we going to meet our needs in the Arctic 
without better information from the Arctic Research Program?
    Answer. The President's fiscal year 2019 budget prioritizes 
national security and economic growth. It also identifies the savings 
and efficiencies needed to keep the Nation on a responsible fiscal 
path. To meet these goals, some difficult decisions needed to be made, 
including the elimination of the Office of Oceanic and Atmospheric 
Research (OAR) funding for climate research in the Arctic. However, 
this is not a termination of NOAA's larger Arctic program. NOAA's other 
line offices will continue to conduct their Arctic activities, which 
cut across every NOAA mission area from weather and sea ice forecasts 
to navigation services and fisheries management. As such, NOAA will 
continue to support safe Arctic marine transportation and related 
maritime operations, such as emergency response. With local, State, 
Federal, Tribal, private, and international partnerships, NOAA will 
continue to develop and apply technology and data in innovative ways to 
better provide Arctic residents weather and climate services, sea ice 
forecasting, nautical charting and other navigation services, natural 
resource management, and oil spill preparedness and responses. For 
example, the Pacific Marine Environmental Laboratory has two Unmanned 
Surface Vehicles on an Arctic mission that are gathering valuable 
information on marine life, ocean conditions and seafloor mapping.
                     saltonstall-kennedy grant fund
    Question 5. It would seem to me that a big piece of the original 
intent of the Saltonstall-Kennedy Grant fund, despite being largely 
unfulfilled intent, is development and marketing of domestic seafood 
products. Supporting this program and using it for its intended 
purpose, and promoting domestic seafood production, marketing, and 
innovation, seems like a logical path toward bridging the seafood trade 
deficit.
    Why then, has this administration proposed to zero out funding to 
SK and continually used the fund year-after-year to meet internal needs 
that do not meet the underlying goals of the fund?
    Answer. The President's fiscal year 2019 budget prioritizes 
national security and economic growth. It also identifies the savings 
and efficiencies needed to keep the Nation on a responsible fiscal 
path. To meet these goals, some difficult decisions needed to be made. 
The fiscal year 2019 request transfers all the funding available (after 
accounting for sequestration) from the Department of Agriculture in the 
Promote and Develop account to the Operations, Research, and Facilities 
(ORF) account, which leaves no funding for the Saltonstall-Kennedy (S-
K) Grant Program. The funding transferred to the ORF account supports 
critical data collection, data management, and fisheries stock 
assessment production within the Fisheries Data Collections, Surveys, 
and Assessments PPA, which includes Expand Annual Stock Assessments, 
Fish Information Networks, Survey and Monitoring Projects, and 
Cooperative Research activities. Without this transfer NOAA would 
require additional appropriation funding. This work is part of NMFS' 
core functions to provide accurate and timely assessments of fish and 
shellfish stocks that support commercial and recreational fisheries. 
NOAA knows that demand for this kind of research is increasing, and 
we've made strides with our funding opportunities. These investments 
support our efforts to build resilient communities, ecosystems, 
economies, and businesses.

                   national weather service staffing
    Question 6a. The NWS Alaska Region recently had 12 weather service 
offices across rural Alaska. Beginning in 2009, the NWS began reducing 
hours and services at these WSOs and by 2016, Alaska offices had a 30 
percent staffing shortage with over 20 positions eliminated throughout 
rural Alaska. The NWS now plans to close all remaining Alaska WSOs in 
the near future. These staff reductions mean that each of the three 
Weather Forecasts Offices (WFOs) must forecast for an area 
approximately the size of 10 forecast offices in the lower 48, while 
having little to no increase in staffing. Instead, there has been an 
operational staffing shortage at Alaska WFOs of 20-30 percent for more 
than a year, due to positions intentionally being left unfilled.
    What steps is NOAA taking to address the hundreds of operational 
vacancies that remain unfilled at the National Weather Service, 
especially in rural Alaska?
    Answer. NOAA has an enormous investment in the State of Alaska, and 
our dedication to serving the State of Alaska is evident in the 
staffing, facility, and programmatic investments NOAA has made. As 
such, the NWS has no current plans to close offices in rural Alaska. 
The reduced staffing at NWS offices across the Nation are primarily the 
result of inefficient hiring processes. Over the past few months, NOAA 
believes the hiring process has become more efficient and staffing 
levels are increasing. As of November 1, 2018, there were 5 of 11 
Weather Service Offices (WSOs) across rural Alaska with staffing 
deficiencies (i.e., offices with empty billets that the Alaska Region 
does not have sufficient personnel available to be temporarily filled 
by qualified employees). To fill these vacancies, NOAA has relocation 
and retention incentives it employs to recruit staff to Alaska and 
other areas where positions can be more difficult to fill. NOAA will 
continue to use these incentives to build a stronger workforce in 
Alaska. Assuming no resignations occur prior to year's end, staffing 
deficiencies at each of the eight WSOs will be resolved.

    Question 6b. How does NOAA, while ramping down staffing in rural 
Alaska, plan to maintain and improve its weather forecasting and its 
communication and involvement in the communities it serves around the 
State?
    Answer. As stated above, the NWS has no current plans to close 
offices in rural Alaska. However, the major duties and responsibilities 
at rural Alaska Weather Service Offices have changed dramatically over 
the past 25 years due to advances in technology and science. One of the 
last remaining functions of rural WSOs the launching of weather 
balloons. NOAA is pursuing a demonstration project to test automation 
of these weather balloon launches. If (i.e., autolaunchers). If this 
demonstration project is successful and the use of autolaunchers is 
implemented, these autolaunchers would allow the region to 
strategically reposition personnel to fill staffing gaps frequently 
experienced in rural Alaska. Positions currently launching or 
supporting the launch of weather balloons will have new 
responsibilities to fill the gaps in mission demands in Alaska 
including:

  --Weather, water, ocean and sea ice, and climate support needs in the 
        Arctic.
  --Adding capacity and filling existing service gaps to improve 
        Impact-based Decision Support Services to core partners across 
        the State.
  --Meeting the Federal Aviation Administration requirements for 
        increased Terminal Aerodrome Forecasts to serve the aviation 
        community in rural Alaska.

    Autolaunchers will allow the NWS in Alaska to improve our science 
and service delivery to the whole State.

                          fish disaster funds
    Question 7a. This year, fishing allocations for the Pacific cod 
fishery in the Gulf of Alaska (GOA) were cut by 80 percent due to steep 
declines in the stock. Communities like Kodiak, home to a significant 
portion of the GOA cod fleet, felt acutely the impacts of this 
reduction, with increases in unemployment and general economic stress 
on local businesses and families. Because of the Pacific cod's life 
cycle, we can expect this low biomass to persist for at least three 
consecutive fishing seasons. Alaska's Governor and Lieutenant Governor 
recently requested a disaster designation from Secretary Ross in order 
to begin the process of providing our fishing communities with some 
much-needed relief from what is essentially a slow-moving fishery 
disaster.
    What steps is the Department currently taking to address Alaska's 
Pacific cod fishery failure, which Alaska is beginning to feel the 
strong repercussions from and is expected to increase in 2019 and 
beyond?
    Answer. The State of Alaska has requested that the Department of 
Commerce determine a commercial fishery failure due to a fishery 
resource disaster for the 2018 Pacific cod fishery in the Gulf of 
Alaska. To do this, NOAA Fisheries analyzes commercial fishery revenue 
loss data for 2018 as compared with the previous 5-year average 
commercial revenue loss, consistent with the NOAA Fisheries Disaster 
Policy (Policy). This requires information about the amount of fish 
landed as well as the price. Since prices can fluctuate, NOAA Fisheries 
typically waits until the fishing year is over to make commercial 
fishery failure determinations. NOAA also uses the Policy to determine 
if there was a fishery disaster due to an allowable cause (e.g. unusual 
storms, changing ocean temperatures, harmful algal blooms).

    Question 7b. How does the Agency view this disaster, because unlike 
many disasters, it has been requested by the State before the majority 
of effects have taken place?
    Answer. The Secretary of Commerce has received requests for fishery 
disaster determinations in the past before the end of the fishing year. 
For some of these requests, the fishery reopened later in the fishing 
year and landed catch commanded substantially higher prices at the 
dock. For this reason, NOAA Fisheries typically waits until the end of 
the fishing season and uses commercial fishing revenue loss data to 
make a determination of a commercial fishery failure due to a fishery 
resource disaster. NOAA Fisheries views the request from Alaska for the 
2018 Pacific cod fishery consistent with other disaster requests made 
before the end of the requested fishing year.
                             afsc staffing
    Question 8a. NOAA dedicates a significant amount of its physical 
assets and operational capacity to Alaska, through fisheries science 
and management, hydrographic charting, weather forecasting, ocean 
observations and monitoring, and coastal assessment. We have a world-
class fisheries research laboratory located in Juneau that is currently 
staffed at about 55 percent, while its larger parent-laboratory, the 
Alaska Fisheries Science Center, is located in Seattle. Other research 
assets like the NOAA vessel Fairweather are dedicated to serving Alaska 
but reside outside the State. Alaska and the Nation are best served 
when the staff engaged in the research and management of our ocean 
resources are located in their study region.
    Why hasn't NOAA taken specific action to station AFSC staff in 
Alaska or staff Juneau's research facility to full capacity?
    Answer. The AFSC staffing at Juneau has seen a net loss of two 
Federal positions from 2013 through 2017. This represents a 3 percent 
decline in total positions at fiscal year 2017 levels. During that same 
time, the AFSC staffing at Seattle has seen a net loss of 28 Federal 
positions. This represents a 12 percent decline in total positions at 
fiscal year 2017 levels. NOAA will continue to prioritize staffing 
positions in Alaska and, as a result, we expect the relative proportion 
of staff in Juneau and Alaska as a whole to increase.

    Question 8b. With the departure of the region's Science Director 
who has been based in Alaska, it looks as if the Agency is opening the 
position up to be based either in Alaska or Seattle. This is 
unacceptable to me and my constituents. What is the Agency's position 
on stationing its Regional Science Directors within the region they 
serve?
    Answer. Although the Science Director position was advertised with 
the duty station in either Juneau or Seattle to maximize recruitment 
efforts, NMFS agrees that it is preferable for Regional Science 
Directors to be stationed within the region they serve.
                           stock assessments
    Question 9a. Fisheries surveys and stock assessments provide 
foundational estimates of available biomass that allow us to 
sustainably harvest our marine resources. In Alaska, other vital NOAA 
missions are at risk of being cut due to underfunded surveys and 
assessments. Additionally, and possibly in part due to underfunded 
survey priorities in the North Pacific, my State is facing another 
proposed fishery disaster for Pacific cod that demands a clear 
understanding of how many fish are available and where those fish are 
located. Many fishermen and scientists believe that the cod stock 
simply moved due to warming waters in the Gulf of Alaska, and because 
of underfunded surveys, this was unable to be confirmed. As a result, 
the quota for the 2018 cod season was reduced by 80 percent. I remain 
concerned with the process in which the Agency funds stock assessments, 
as these assessments are a critical part of our rigorous fisheries 
management regime under the Magnuson-Stevens Act.
    How does NOAA plan to prioritize its survey and stock assessment 
obligations while ensuring that other aspects of its mission retain 
necessary support?
    Answer. Both the Department of Commerce and NOAA are strongly 
committed to our critical stock surveys and assessments obligations. In 
each region, NOAA Fisheries science centers work with regional fishery 
management councils and other management partners to prioritize science 
activities (including stock assessments and surveys) in an annual 
process. To support these regional processes, NOAA Fisheries released a 
national assessment prioritization protocol in 2015. This protocol uses 
information on each stock, including their importance to commercial and 
recreational fisheries and the ecosystem, as well as relevant 
biological attributes to prioritize stock assessment schedules. Within 
each region, the prioritization framework is being used to determine 
the stocks that are top priorities for assessment each year. For 
surveys, NOAA Fisheries is allocated a certain number of days on NOAA 
vessels, and then each science center ranks its priorities and needs 
across a spectrum of survey categories, and this information is used in 
a national process to prioritize and allocate days-at-sea on NOAA ships 
for regional surveys.
    NOAA Fisheries also recently released a strategic guidance document 
entitled Implementing a Next Generation Stock Assessment Enterprise 
that targets specific areas of NOAA Fisheries' stock assessment process 
for improvement. The plan revises the stock assessment prioritization 
process to not only facilitate stock assessment scheduling, but also to 
determine stock-specific data gaps.

    Question 9b. What can be done to modernize the way in which surveys 
are conducted to adapt with climate change and other changing factors 
in Alaska that are causing fish stocks to rapidly move year-to-year?
    Answer. NOAA Fisheries recognizes the challenges that climate 
change and shifting stocks are presenting to fisheries management and 
data collection. Recent strategic planning documents, including the 
National Climate Science Strategy [1], Ecosystem-Based Fisheries 
Management Road Map [2], and Implementing a Next Generation Stock 
Assessment Enterprise [3] highlight this issue and provide 
recommendations and strategies for adapting to climate effects.
    Furthermore, the Alaska Fisheries Science Center is taking a number 
of steps to adapt research efforts to help resource managers respond to 
potential shifts in fish distributions due to climate change and other 
environmental effects. A few examples include (1) examining survey 
designs for optimal frequency, spatial coverage, sampling density, and 
type/number of survey platform; (2) engaging in research and 
development on advanced sampling technologies; and (3) new modeling 
techniques that better account for species distributions in estimating 
population abundance. It is important to ground truth and fully 
operationalize new approaches and advanced technologies. To do this, it 
is essential that NOAA maintain long-term surveys in the Gulf of 
Alaska/Aleutian Islands and eastern Bering Sea, and more consistently 
survey the northern Bering Sea. The time series of data collected 
through these surveys will enable tracking of fish stock abundance 
trends and distribution shifts while continuing to provide resource 
managers with the scientific advice needed to set annual fishing quotas 
and ensure sustainability of fish and crab stocks. Once a new 
technology is deemed ready to ``operationalize,'' several (3-5) years 
of data from the new and old techniques are required to ``calibrate'' 
the two methods and ensure that the new technique adequately reflects 
that status and trends of all of the major commercial species being 
assessed. Thus, progress is slow, but steady to make surveys more 
efficient and less costly, without the loss of accuracy and precision.

                                usarray
    Question 10. Alaska is the most seismically active State in the 
Nation. We have a system of earthquake monitors, called the USArray 
Transportable Array, which is currently operated by the National 
Science Foundation (NSF). The monitors are slated to be decommissioned 
at the end of this year, but I know that the U.S. Geological Survey and 
NSF have begun discussions on transferring the stations from NSF to the 
USGS. I understand that the National Oceanic and Atmospheric 
Administration (NOAA) uses data from the USArray network--some of which 
is used by the National Tsunami Warning Center--but that NOAA has been 
hesitant to commit to retaining and/or maintaining the network.
    Please provide a detailed explanation of:

    Question 10a. What data NOAA uses from the USArray network in 
Alaska;
    Answer. NOAA/NWS uses atmospheric and pressure observations data 
from USArray for meteorological purposes and to support our tsunami 
program.

    Question 10b. How much data NOAA uses from the USArray network in 
Alaska;
    Answer. When available, NOAA uses all the meteorological and 
seismic data from the USArray network in Alaska.

    Question 10c. How NOAA uses data from the USArray network in 
Alaska;
    Answer. The USArray network has 268 stations, of which 150 have 
meteorological sensors. Data from these meteorological sensors are 
incorporated into Numerical Weather Prediction models and these data 
are used by meteorologists to assess weather conditions. The NOAA/NWS 
National Tsunami Warning Center uses data from the USArray seismic 
components to help analyze local earthquakes to determine if the 
earthquake could generate a tsunami.

    Question 10d. What reports, forecasts, and warnings are informed by 
data from the USArray network in Alaska; and
    Answer. NOAA uses the meteorological data from the USArray in its 
Numerical Weather Prediction models and as a way to maintain 
situational awareness of weather conditions in rural Alaska. Though the 
meteorological information from USArray is not a NWS requirement, the 
network provides data from areas where the NWS Alaska Region has gaps. 
USArray data are also used by the National Tsunami Warning Center to 
monitor local earthquakes when determining whether to issue tsunami 
warnings.

    Question 10e. The market value of the data that NOAA obtains 
through the USArray network in Alaska.
    Answer. At this time, we have no way to measure the market value of 
the USArray data NOAA uses.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
                        right whale protections
    Question 1. The Maine lobster industry is renowned for its 
responsible, science-based stewardship of our ocean resources. The 
conservation efforts of Maine lobstermen--including self-imposed 
regulations such as tossing back egg-bearing females--are driven by the 
desire to ensure the stock and the ocean environment remains healthy 
and sustainable for generations to come.
    The industry's stewardship extends beyond lobster to all marine 
life in the Gulf of Maine, as Maine lobstermen have long led the way in 
implementing mitigation measures to prevent whale entanglements. In 
1997, the industry instituted a weak rope link requirement that allows 
gear to break away and let the whale swim free. In 2009, the industry 
replaced vertical rope between lobster traps with sinking groundline, 
which resulted in more than 27,000 miles of floating line being removed 
from the water column. Since this change, NOAA Fisheries has not 
observed a right whale entanglement in groundlines. And in 2014, the 
industry removed nearly 3,000 miles of buoy lines from the ocean as a 
result of gear reconfiguration.
    Right whales have been afforded significant protection by U.S. 
fishing and shipping industries under the Endangered Species and Marine 
Mammal Protection Acts. Unfortunately, comparable protection has not 
existed in Canada. Despite these legal protections and sustained 
mitigation efforts by the industry, Maine lobstermen are increasingly 
concerned that their fishery may be subject to crippling restrictions 
following the deaths of 17 right whales in 2017, 12 of which occurred 
in Canadian waters.
    I am encouraged that Canada announced whale protection measures for 
its Gulf of St Lawrence snow crab fishery and a few measures for that 
area's lobster fishery. Unfortunately, Canada has not addressed its 
lobster or snow crab fisheries outside of that small area. As long as 
our Canadian counterparts do not implement equivalent right whale 
protections, the population will remain at risk and the American 
lobster industry will unduly bear the burden of Canada's inaction.
    Mr. Secretary, can you discuss the steps NOAA Fisheries is taking 
to ensure that Canadian fisheries implement equivalent right whale 
protections for fixed gear fisheries in all areas and that the 
industries who have pioneered these protections in America are not 
penalized for Canada's failure to act?
    Answer. NOAA is actively collaborating with Canada on the science 
and management gaps that are impeding the recovery of North Atlantic 
right whales in both Canadian and U.S. waters through ongoing bilateral 
negotiations.
    In March 2018, Canada adopted regulations on its commercial fishing 
and maritime shipping industries to minimize gear entanglements and 
ship strikes in advance of North Atlantic right whales migrating into 
Canadian waters. Given these actions and the ongoing bilateral 
negotiations, it is too early to tell if these measures, collectively, 
are adequate to prevent further right whale deaths. Furthermore, in 
response to the 2017 right whale deaths, NOAA is currently reviewing 
and may revise its own regulatory program. NOAA will continue to 
evaluate the effectiveness of Canada's regulatory program for the 
applicable Canadian commercial fisheries through March 2021 per the 
existing regulatory requirements and timeline for comparability finding 
determinations.
    NOAA has consulted with Canada's Department of Fisheries and Oceans 
to identify priority fisheries, and elements of a comparable regulatory 
program within the framework of Marine Mammal Protection Act (MMPA) 
import provisions. NOAA met in October to discuss Canada's List of 
Foreign Fisheries and Canada's compliance efforts under the MMPA import 
provisions. Continuing our bilateral engagement and implementation of 
our respective regulatory regimes will ensure that the United States 
and Canada are fully complying with the MMPA and eliminating the risk 
of North Atlantic right whale entanglements in fisheries while ensuring 
sustainable fisheries and trade.
                         seafood trade deficit
    Question 2. Mr. Secretary, I am encouraged by your comments in 
support of reversing America's seafood trade deficit and appreciate 
your commitment to this goal. In Maine, countless coastal communities 
and thousands of hardworking families rely on strong international 
seafood markets. Fisheries in Maine, especially our iconic lobster 
fishery, continue to face increasing global competition as other 
nations make progress on new trade agreements, leaving American 
fishermen at a disadvantage.
    For example, the recently implemented Comprehensive Economic and 
Trade Agreement (called CETA) between Canada and the EU has eliminated 
tariffs on live Canadian lobster and will eliminate tariffs on frozen 
and processed Canadian lobster over three and 5 years, respectively. 
With NAFTA negotiations in flux, and as other agreements move forward 
without our participation, fishermen in Maine and across the U.S. are 
increasingly worried that their inability to access international 
markets will set them further behind competitors and only exacerbate 
our seafood trade deficit.
    Mr. Secretary, can you explain the Department of Commerce's efforts 
to address our seafood trade deficit and achieve your goal of making 
America a net exporter of these products?
    Answer. The Department of Commerce has been clear about its goal of 
reducing the trade deficit in seafood products. That said, many of the 
dynamics that drive our seafood trade balance such as U.S. consumer 
preferences, the volume and composition of U.S. seafood production, and 
global seafood demand lie outside of the Department's control. In any 
case, the Department of Commerce intends to shift the balance of trade 
and increase the value and volume of U.S. seafood production by 
supporting increased investment in, and productivity of, the Nation's 
aquaculture industry, reducing regulatory burden, where appropriate, 
and promoting free, fair, and reciprocal trade within the global 
marketplace.
    The Department is completely committed to increasing the value and 
volume of U.S. seafood production and improving the competitiveness of 
U.S. seafood production, from staff-level efforts within its bureaus to 
achieve the objectives described above to my own engagement of key 
trading partners at a Secretarial level.
                              aquaculture
    Question 3. Mr. Secretary, the Department of Commerce's Strategic 
Plan for 2018-2022 identifies ``Increasing Aquaculture Production'' as 
a method for strengthening U.S. job creation, which is goal #2 in your 
Strategic Plan. It is heartening to see the Department embracing 
aquaculture, an industry that is steadily growing in Maine and across 
the country. I am concerned, however, that the President's budget 
proposes to eliminate the Sea Grant program, and with it the Marine 
Aquaculture Program which has been one of the few--and most effective--
sources of Federal aquaculture support.
    The U.S. has the second largest exclusive economic zone in the 
world and has the strongest fisheries management record, yet we rank 
14th for production of farmed seafood, behind producers in Asia, 
Europe, South America, Canada, and Africa. In fact, half of the fish 
eaten in the United States comes from farms--but not from American 
farms. American aquaculture (both marine and freshwater) meets only 5-7 
percent of U.S. demand for seafood. In your Senate nomination hearing, 
you said you ``would like to try to figure out how we can become much 
more self-sufficient in fishing,'' and I fully agree with that goal.
    I understand the Department is taking bold steps towards overcoming 
regulatory hurdles currently impeding U.S. aquaculture development. Can 
you provide any detail regarding the administration's activities on 
aquaculture?
    Answer. NOAA supports U.S. aquaculture to promote domestic seafood 
production and create jobs. Consistent with the Department of 
Commerce's 2018-2022 Strategic Plan, NOAA is working to reduce 
regulatory burdens and drive aquaculture research to ensure the 
continued growth of this industry.
    To reduce regulatory burdens, NOAA is working with other Federal 
agencies and coastal States to streamline Federal marine aquaculture 
permitting. In addition, NOAA invests in regulatory efficiency measures 
and public-private partnerships to jump-start production. Last year, 
NOAA led a six-agency Memorandum of Understanding to streamline 
regulatory processes for aquaculture operations in the Gulf of Mexico.
    To drive research, NOAA works in collaboration with industry to 
support research that advances commercial-scale marine aquaculture 
production. NOAA is the largest provider of Federal funds to support 
the marine and Great Lakes aquaculture industry and provided $19.6 
million in aquaculture grants in fiscal year 2017. fiscal year 2018 
research grants will support 22 projects that address major 
constraints, barriers, or hurdles limiting aquaculture production in 
the U.S. Aquaculture research funding addresses issues identified by 
industry and the public such as feeds development, hatchery 
technologies, and siting tools to reduce conflicts with other coastal 
users.
                              drug pricing
    Question 4a. Mr. Secretary, prescription drug spending is the 
second fastest growing segment of healthcare expenditures in the United 
States. Among seniors, approximately 90 percent take at least one 
prescription drug each month. Many factors contribute to the price of a 
medication, but, for generic drugs especially, the cost of 
manufacturing ingredients can make a big difference. It has been 
estimated that 80 percent of the active pharmaceutical ingredients used 
in drugs sold in the United States come from outside the country, with 
China and India being the largest providers.
    On April 3, the administration announced a proposed 25 percent 
tariff on Chinese-manufactured products, including ingredients used to 
make vaccines, insulin, epinephrine, and other important medicines and 
medical devices. At a time when Americans are clamoring for relief from 
the high cost of prescription drugs, how can we protect American 
innovation while also protecting our access to lower cost generics and 
biosimilars?
    Answer. USTR and the Section 301 Committee have carefully reviewed 
the public comments and the testimony at the three-day public hearing. 
In addition, in accordance with the President's direction, USTR and 
other trade experts in the administration have carefully reviewed the 
extent to which the tariff subheadings in the April 6, 2018 notice 
cover products involving industrially significant technology, including 
technologies and products related to the ``Made in China 2025'' 
program.
    Based on this review process, the Trade Representative has 
determined to narrow the proposed list in the April 6, 2018 notice to 
818 tariff subheadings, with an approximate annual trade value of $34 
billion. Pharmaceutical products and low-end medical devices were 
removed from this list.

                               follow up
    Question 4b. Last month, Bloomberg reported that Federal Trade 
Commission attorneys are looking for more cases to challenge companies' 
anti-competitive conduct. FTC shouldn't have to look very hard to find 
examples in the drug pricing arena, whether it be mergers, market 
consolidation, pay-for delay settlements, or patent thicket strategies.
    For example, in a recent speech, FDA Commissioner Gottlieb suggests 
that the biosimilars pipeline is not as robust as it ought to be. He 
points out that litigation contributes in part to the problem--an issue 
I have highlighted in the area of rheumatoid arthritis--but that ``the 
industry's rebating and contracting practices combine to raise another, 
perhaps even more insidious barrier to biosimilars taking root in the 
U.S., and gaining appropriate market share.'' What do you see as the 
greatest barriers to pursuing more aggressive activity in the area of 
pharmaceutical price competition?
    Answer. The Department of Commerce is focused on foreign price 
controls and foreign reference pricing as key concerns in the area of 
pharmaceutical pricing competition. Around the world, price controls 
and associated ``free-riding'' on U.S. pharmaceutical spending has 
become much worse over the last two decades. The administration's 
recently released 'Blueprint to Lower Drug Prices' highlights 
addressing ``foreign freeloading'', and the related issue of unfair 
foreign price controls, as one of four priority challenges. We are 
working with USTR to respond to the President's charge to make 
addressing foreign price controls a top priority. This includes 
ensuring that trading partners maintain robust levels of intellectual 
property protection and enforcement, as well as fair and transparent 
pricing and reimbursement systems.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
    Question 1a. The fiscal year 2018 omnibus includes $10.3 million to 
cover the full cost of monitoring this year as well as $2 million in 
new research funding so we can work to better understand the impact of 
changing climactic conditions on this fishery.
    Do I have the commitment of the Department that NOAA will cover the 
full At-Sea Monitoring costs for the Northeast Multispecies Groundfish 
fishery this year?
    Answer. With fiscal year 2018 funds, a new cooperative agreement 
will be established with the Atlantic States Marine Fisheries 
Commission (ASMFC), and NOAA can reimburse fishermen for all at-sea 
monitoring costs for fishing year 2018 (May 1, 2018, through April 30, 
2019).

    Question 1b. Will NOAA reimburse fishermen for the full amount of 
At-Sea Monitors dating back to the beginning of fiscal year 2018, in 
October 2017?
    Answer. For costs prior to May 1, 2018, using the remaining funds 
on the existing ASMFC cooperative agreement, NOAA will be able to 
reimburse industry for the majority (approximately 85 percent) of at-
sea monitoring expenses, leaving less than $60,000 in costs paid by 
industry for fishing year 2017.

    Question 1c. How do you expect NOAA to utilize the additional $2 
million for groundfish research to best improve our understanding of 
the challenges facing this fishery?
    Answer. NOAA's Northeast Fisheries Science Center (NEFSC), through 
the Northeast Regional Action Plan (NERAP) plans to use the $2.0 
million provided to better understand the impact of changing climatic 
conditions on the New England groundfish fishery. The following types 
of projects identified in the NERAP-focused on groundfish-will be 
funded: continue development of stock assessment models that include 
environmental terms; increase social and economic scientist involvement 
in climate change research through multidisciplinary work; improve 
management of living marine resources through an increased 
understanding of spatial and temporal distributions, migration, and 
phenology; work with NOAA Oceanic and Atmospheric Research and academic 
scientists to develop short-term (day to year) and medium-term (year to 
decade) living marine resource forecasting products; conduct research 
on the effects of multiple climate factors on living marine resources 
with a goal of improving assessments and scientific advice provided to 
managers; and maintain ecosystem survey effort in the Northeast U.S. 
shelf ecosystem. Projects will include both NOAA scientists and 
academic partners.

    Question 1d. What additional actions do you believe can be taken to 
ensure the long term viability of this fishery?
    Answer. NOAA and the New England Fishery Management Council 
(Council) are working to help ensure the long-term viability of this 
iconic fishery. For example, we are working to improve accountability 
and catch monitoring in the groundfish fishery. Accurate catch data 
underpins this quota-based fishery. Working closely with fishermen and 
stakeholders, NOAA and the Council continue to focus on creating 
additional fishing opportunities for healthy groundfish stocks, 
increasing business flexibility, and maximizing revenues through 
innovation and increased emphasis on seafood marketing. In addition, 
sustaining waterfront infrastructure is necessary for a viable fishery. 
Finally, NOAA also invests significant resources in the science that 
underpins management and is placing renewed emphasis on industry 
engagement to improve science and increase stakeholder buy-in and 
trust.

    Question 2a. In your testimony, you stated that 2020 Census is the 
Department's top priority.
    If you expect any decreased participation or accuracy is that 
enough to justify not including the citizenship question? After all the 
decennial census is Constitutionally-mandated for the purpose of 
congressional apportionment, and there are other ways of getting this 
information. For instance the American Community Survey or ACS--which 
replaced the long form Census--already includes a citizenship question.
    Answer. March 26, 2018 publicly-available decision memo fully lays 
out his rationale.

    Question 2b. Will the 2020 Census require more funding to complete 
because of the inclusion of this question?
    Answer. The Census Bureau has previously predicted a self-response 
rate of 60.5 percent, but the Lifecycle Cost Estimate also included 
contingency funding to accommodate for a self-response rate of 55 
percent to be prepared for self-response rates below the predicted 
levels, whatever the reason. I am confident that this contingency will 
be sufficient.

    Question 3a. The fiscal year 2018 CJS Appropriations bill included 
$2.8 billion for the Census Bureau, more than a $1 billion above the 
President's request, to ensure that agency has sufficient resources for 
communication and partnerships. This amount will also help to smooth 
the needed funding increase over the next two fiscal years as field 
operations really start ramping up.
    How have the Census Bureau's operational plans for fiscal year 2018 
changed in light of the additional appropriations?
    Answer. The innovative structure of the Consolidated Appropriations 
Act of 2018 provided the Census Bureau an opportunity to reduce risk 
and address preliminary findings from the 2018 End-to-End Census Test. 
In addition to the increases to the Partnership and Communications 
Programs described below, the Census Bureau was able to accelerate into 
fiscal year 2018 hiring of staff for security compliance and active 
cyber-defense activities originally planned for fiscal year 2019, 
accelerate activities to ensure that systems supporting the 2020 Census 
are ready, and advance activities to recruit staff for the 2020 Census. 
It also accelerated the establishment of a mature logistics management 
program that will ensure materials and equipment needed by 2020 Census 
field staff are efficiently and effectively distributed throughout the 
country during major field operation in fiscal year 2019 and fiscal 
year 2020 and accelerated work on risk mitigations and geographic 
support contracts leading up to the Address Canvassing operation. All 
of these changes will reduce risk in critical areas in the 2020 Census 
and provide a smoother transition between fiscal years.

    Question 3b. In the omnibus, Congress included specific directive 
to increase communications and partnership activities similar to what 
occurred in the 2010 Census. What was the level of funding for the 
communications campaign in fiscal year 2008?
    Answer. For the 2010 Census, the Census Bureau spent over $26 
million on communications and partnership activities in fiscal year 
2008, which in current year dollars is around $31 million. For the 2020 
Census, the Census Bureau spent about $46 million in fiscal year 2018.

    Question 3c. What specific additional communications and 
partnership activities and hiring has the Bureau undertaken, or will it 
undertake, in the current fiscal year?
    Answer. The Census Bureau has had approximately 40 partnership 
specialists in place since January 2017. The Census Bureau currently 
has 311 partnership specialists and partnership specialist managers and 
will further increase the number of partnership staff to over 1,500 in 
fiscal year 2019.
    These partnership specialists and partnership specialist managers 
are primarily focused on helping States, municipalities, and 
partnership organizations to develop ``Complete Count Committees.'' 
These committees, which will be formed at the State and local levels 
across the Nation, are comprised of a broad spectrum of government and 
community leaders from education, business, healthcare, and other 
community organizations. These trusted voices develop and implement a 
2020 Census awareness campaign, based on their knowledge of the 
community, to encourage people to respond.
    Additionally, funding provided by the fiscal year 2018 Consolidated 
Appropriations Act has enabled the Census Bureau to advance early 
planning activities for the Communications Contract. The total amount 
of spending for the advertising contract for fiscal year 2018 was 
already above the spending level in fiscal year 2008. However, the 
Census Bureau, in collaboration with the communications vendor, Young 
and Rubicam, moved planning activities from fiscal year 2019 into 
fiscal year 2018 so that the planning and overall strategy will be 
substantially completed before the purchase of advertising time in 
fiscal year 2019.

    Question 3d. How many partnership specialists are currently working 
as part of the 2020 Census partnership program? Are they assigned 
nationally, or regionally, or both?
    Answer. As of January 2019, the Census Bureau paid 311 employees in 
the partnership specialist and partnership specialist manager roles. 
The employees are assigned regionally.

    Question 3e. How many additional partnership staff (Specialists or 
Assistants) will you hire to meet the Committee's directive, how 
quickly will they be on board, and where will they be assigned?
    Answer. In fiscal year 2019, the Census Bureau plans to have on 
board over 1,500 employees in the partnership specialist and 
partnership specialist manager roles. The employees will be assigned 
regionally in all 50 States, the District of Columbia, and Puerto Rico.

    Question 3f. Last year you commissioned an Independent Cost 
Estimate to assess the total needed for the 2020 census. The 
Independent Cost Estimate included a 10 percent contingency to overcome 
serious issues that inevitably come up. However, the contingency was 
not included in the fiscal year 2019 budget request. Why is this the 
case?
    Answer. The fiscal year 2018 Omnibus included $50 million in 
contingency and the fiscal year 2019 Request fully supports the 
Independent Cost Estimate, which includes nearly $300 million in 
contingency funding. Given the preliminary successes of the fiscal year 
2018 End-to-End Census test, we anticipate the current contingency 
request will be sufficient to handle the emerging challenges in fiscal 
year 2019.

    Question 3g. Are you confident that fiscal year 2019 request 
provides the required funding for partnerships and communication 
efforts that are critical to getting the word out about the 2020 
census?
    Answer. Yes. The fiscal year 2019 Budget includes $335.6 million 
for the partnership and communications programs.

    Question 3h. Does the Census have additional need for fiscal year 
2019 above what was included in the President's request? For example 
the request does not include the $314 million contingency fund.
    Answer. No. The fiscal year 2019 budget request fully funds the 
Department's Independent Lifecycle Cost Estimate, which supports all of 
the operational and systems development necessary to ensure a 
comprehensive and accurate 2020 Census, including opening the remaining 
field offices and the first major 2020 Census field operation, the In-
Field Address Canvassing operation.

    Question 3i. The fiscal year 2019 House CJS bill that was reported 
out of the House Committee on Appropriations earlier this month 
includes $4.8 billion for the Census, $1 billion more than the 
President requested. How would this additional funding be spent?
    Answer. The report accompanying the House CJS bill specifies that 
the funding provided in the mark represents the remaining portion of 
the fiscal year 2019 request not provided in the fiscal year 2018 
appropriation and a quarter of the funding required for fiscal year 
2020, an approach that is similar to that taken in the fiscal year 2018 
Omnibus. The Census Bureau's approach to using the extra funds would be 
similar to that taken in fiscal year 2018, that is, most of the 
additional funding would likely be carried over to fiscal year 2020 to 
ease the transition between fiscal years. If there were targeted areas 
where advancing funding and activities into fiscal year 2019 would 
reduce risk, the House CJS bill provides a process for accessing that 
funding. That process includes congressional notification requirements.

    Question 3j. There were nearly 5 million children that went 
uncounted as part of the 2010 Decennial Census, many in communities of 
color, what is the agency doing to overcome this challenge in 2020?
    Answer. The Census Bureau has taken a number of steps to address 
this issue. These included updating the language on our mailing to 
households to emphasize that ``all adults, children and babies living 
or staying at this address'' should be included (the 2010 form just 
said ``everyone''); updating the wording of the undercount probe on the 
questionnaire to specifically mention ``grandchildren'' and 
``unrelated'' children; and updating the help text on the Internet 
self-response instrument to provide additional guidance about counting 
children. The automated instruments will allow respondents to add 
people in real time in response to the prompts, and we are 
incorporating messaging about including young children in the training 
for our field staff conducting the Nonresponse Follow-up operation.
    The importance of counting young children must be woven into all of 
the communications messaging and partnership support materials, which 
is a principal focus of the communications contracting team. The 
Partnership Program also will be building relationships with national 
organizations that support children, and local organizations like 
hospitals across the country. Continuing to explore opportunities to 
ensure a full and accurate count of children will be an important 
priority in the months ahead.

    Question 4a. In making the case for the steel and aluminum tariffs 
imposed by the administration, you have pointed to the relatively low 
cost for consumers who might pay slightly more for a can of soda or a 
beer. But for small businesses who use significant amounts of raw 
materials and operate on thin margins, this can be make-or-break. And, 
unlike large corporations who have Washington lobbyists, small 
businesses don't have the ability to navigate the complex exemption 
process. On top of that, retaliatory tariffs on American products have 
already started to hurt small businesses in my State and across the 
country. Earlier this month, I heard from a small business in New 
Hampshire, Moonlight Meadery, who had a deal effectively killed by 
retaliatory tariffs on American wine. This is a deal that would have 
doubled their output. They've also been told by their aluminum 
suppliers that their canning prices will go up because of the tariffs. 
This small business has been forced to lay off six employees as a 
cumulative result of this administration's tariff policies.
    What do you recommend that I tell small businesses in New Hampshire 
like Moonlight Meadery affected by the 232 tariffs?
    Answer. The potential loss of any jobs concerns me. To the extent 
any retaliatory measures are ultimately imposed that are inconsistent 
with international trade obligations, the United States is prepared to 
address them under U.S. and international law. On July 16, the United 
States launched separate disputes at the World Trade Organization (WTO) 
against China, the European Union, Canada, Mexico, and Turkey 
challenging the tariffs each WTO member imposed in response to our 
Section 232 actions.
    The President's Section 232 decisions are the result of a robust 
and thorough interagency review coordinated by the White House. It will 
take time for U.S. aluminum and steel producers to fully restart idled 
capacity and regain long-term economic health. The Department, working 
with other agencies, will continue to monitor the impact of the tariffs 
and the health and competitiveness of U.S. industry, and the Department 
will conduct a comprehensive analysis of the impact of the Section 232 
tariffs after they have been in effect long enough to make the results 
of that analysis useful. We are also confident that small and medium-
sized businesses can navigate the product exclusion request process and 
provide further details on how that is being done below. As of December 
17, 2018, the Department has granted 13,809 exclusion requests and 
denied 5,231.

    Question 4b. Recently, I sent a letter to the SBA's Office of 
Advocacy to examine the impact of the tariffs on America's small 
businesses. This is the same office that examines the cost of new 
regulations on small businesses before they are put in place. Don't you 
think this kind of analysis is necessary to specifically determine the 
impact to small businesses before the administration imposes tariffs?
    Question 4c. Do you have any plan in place to provide small 
businesses with assistance with navigating the exemption process? Do 
you have a specific guide for small businesses?
    Question 4d. The fiscal year 2019 budget request includes an 
increase for processing U.S. companies' requests for exemptions to the 
Section 232 tariffs. Is this funding sufficient to process the 6,000 
expected exemption requests?
    Answer. With regard to assistance for small businesses navigating 
the process, the Department published procedures for the product 
exclusion requests in the Federal Register on March 19, 2018 and 
subsequently made them available on the Department's web site. In 
addition, BIS established dedicated phone numbers and email addresses 
for U.S. industry to seek assistance or ask questions about the 
process. These phone numbers and email addresses were included in the 
press release announcing the exclusion process and the coinciding 
Federal Register notice. BIS has also posted guidance with a step-by-
step visual guide to assist industry, including small- and medium-sized 
businesses, through the process and with tips on how to properly 
complete the exclusion request forms based on issues identified during 
BIS's initial review of submissions (the most common issues being 
incomplete forms or bundling numerous requests in a single submission).
    The International Trade Administration's Enforcement and Compliance 
Unit (E&C) provides technical product support to BIS in the exclusion 
process and has assembled a team of 110 analysts (evaluators), many of 
whom are knowledgeable of the steel and aluminum industries. As part of 
this team, E&C hired contractors under its direction and supervision to 
provide research and analysis for E&C's consultative role to BIS. Full- 
and part-time staff from other parts of Commerce have also been 
detailed to ITA to support the processing of the exclusion workload. 
All of these analysts, most of whom have already gone through an 
extensive training program, are responsible for reviewing within a very 
short timeframe the over 108,470 exclusion requests and objections from 
domestic steel and aluminum producers and industrial users submitted as 
of December 17, 2018.

    Question 4e. Has the Department of Commerce shifted any Federal 
employees to process exemptions, diverting resources from other work? 
If so, from where are you proposing to divert resources? If not will 
you inform the Committee if this changes?
    Answer. In addition to contract employees, ITA's E&C is working 
with a team of experts that includes E&C staff, as well as staff/
product experts within Commerce on both a full- and part-time basis, 
and expertise from other agencies such as the National Institute for 
Standards and Technology (NIST) and the International Trade Commission 
(ITC). E&C has a long history of adapting to extremely demanding 
enforcement needs and deploying programs that successfully accomplish 
high level and challenging initiatives. Commerce is prepared to address 
this priority initiative without disruption to other programs, 
including E&C's primary enforcement mission.
    ITA's Global Markets (GM) has provided 45 staff/product experts on 
a temporary duty assignment basis to support E&C and BIS on both a 
full- and part-time basis. As advisors to U.S. companies on 
opportunities in the international marketplace and all trade-related 
issues, GM experts are uniquely positioned to provide expertise and 
assistance and to acquire a unique professional development opportunity 
to strengthen their advisory capabilities.

    Question 5a. I was disappointed to see that the budget proposal 
again includes a cut to the International Trade Administration's Global 
Markets division--which includes the U.S. and Foreign Commercial 
Service that provides critical for support for U.S. exporters and 
manufacturers who don't have other resources. The Commercial Service 
helps small- and medium-sized businesses get access to international 
markets and works to bring down trade barriers. Given the 
administration's stated priority of reducing trade deficits, I would 
think that this would be a top priority.
    How do you justify these proposed cuts?
    Answer. Significant cuts are necessary in ITA to meet the fiscal 
year 2019 President's budget. The budget request prioritizes and 
protects investments in core Government functions across Commerce that 
benefit small businesses, including enforcing laws that promote fair 
and secure trade, and realigning our export promotion and market access 
work.
    The ITA will strengthen its trade enforcement and compliance 
functions to ensure American businesses get fair opportunities in the 
global marketplace while enhancing the efficiency of the bureau's 
export promotion and trade analysis activities. To complement these 
efforts, the ITA is developing and implementing plans to transform its 
operations to strengthen outcomes, improve efficiency, and meet trade 
and investment priorities. The ITA's transformational actions will be 
rooted in maximizing the delivery of the organization's value to 
clients, providing timely and actionable information and service to 
U.S. business (especially small- and medium-sized enterprises), 
eliminating or reducing lower-priority functions and activities, 
strengthening higher priority activities, and modernizing information 
management.

    Question 5b. When is the Department going start filling vacation 
positions within Global Markets? I believe there are more than 100 
vacation positions right now.
    Answer. Global Markets will move forward with additional priority 
hiring to fill administration priorities and will continue to backfill 
vacancies occurring this fiscal year, pending funding availability. 
Global Markets continues to work with ITA to adjust position numbers to 
reflect enacted appropriations.

    Question 5c. How many rank order register candidates has the 
International Trade Administration cleared for entry into the Foreign 
Service and why has the agency not followed through on its conditional 
offer of employment to candidates, given the loss of 16 officers this 
year alone?
    Answer. ITA has cleared and onboarded 19 rank order register 
candidates. All remaining candidates have been given final offers. 
Contingent upon successfully clearing security, medical, and drug 
screening, remaining candidates will onboard Summer 2019.

    Question 6a. I'm very concerned that this budget request would 
eliminate more than $400 million of NOAA grants to States, regional 
partners and academic partners. Many of these programs fund critical 
coastal science and community resilience partnerships, including Sea 
Grant, the Coastal Zone Management Program, the National Estuarine 
Research Reserve System and even the NOAA Office of Education. I 
believe that having the knowledge and tools to protect our coastlines 
is a critical element of our national security.
    We know that the climate is changing, and we know that we will 
continue seeing the impacts of this change. The NOAA climate research 
program helps communities understand and prepare for the effects of 
climate change. This includes developing cutting-edge models and 
providing data and tools. However, this budget cuts climate research by 
nearly 38 percent. How will NOAA continue to help communities prepare 
and lead the world on climate research with such a drastic cut?
    Answer. The President's fiscal year 2019 budget prioritizes 
national security and economic growth. It also identifies the savings 
and efficiencies needed to keep the Nation on a responsible fiscal 
path. To meet these goals, some difficult decisions needed to be made, 
including reducing competitive research grants to cooperative 
institutes, universities, NOAA research labs and other partners. 
However, NOAA will preserve priority activities including research at 
the Earth System Research Laboratory within OAR; the National 
Integrated Drought Information System (NIDIS); long-term observations 
and climate records; research and development associated with Seasonal-
to-Subseasonal (S2S) prediction; and legislatively mandated work on the 
National Climate Assessment. This will allow NOAA to continue to 
enhance predictions of atmospheric patterns, increase understanding of 
ocean impacts on climate, improve climate modeling, and expand the 
Nation's capacity to prepare for extreme events.

    Question 6b. At last year's budget hearing you told us that you are 
concerned about the trade deficit when it comes to seafood and that you 
are encouraged by the prospect of domestic aquaculture. And yet, the 
fiscal year 2019 budget cuts funding for aquaculture both as part of 
the Sea Grant program and through the National Marine Fisheries 
Service. Why is this?
    Answer. The President's fiscal year 2019 budget prioritizes 
national security and economic growth. It also identifies the savings 
and efficiencies needed to keep the Nation on a responsible fiscal 
path. To meet these goals, some difficult decisions needed to be made, 
including terminations and reductions to external grant programs. The 
fiscal year 2019 funding request for the National Marine Fisheries 
Service (NMFS) includes $9.3 million for Aquaculture, which will be 
used to continue work to advance the domestic marine aquaculture 
industry, create jobs, provide sustainable seafood, and reduce the U.S. 
seafood trade deficit.

    Question 7a. I am disappointed that for the second straight year, 
this administration has proposed eliminating the Economic Development 
Administration that plays a critical role investing in infrastructure 
projects around the country, especially in rural communities. This 
includes last-mile broadband investments that are imperative to help 
rural communities attract new industries and grow local economies.
    I know the administration's budget makes tough choices, but you 
understand the importance of rural economic development--so how do you 
justify eliminating EDA?
    Answer. In ``Building a Stronger America,'' the President proposed 
a framework to transform how infrastructure is delivered. The package 
is designed to help address America's crumbling infrastructure, 
including in rural communities. The plan will help attract needed 
capital investments, deploy broadband and install transformative 
infrastructure that will facilitate economic development. This 
infrastructure plan, along with the administration's focus on building 
a stronger overall economy is the best path forward for these rural 
communities. This administration is trying very hard to balance the 
needs of the economy and difficult choices have to be made. The 
decision on EDA was one of those difficult choices.
    Under the ``Delivering Government Solutions in the 21st Century 
Organization Reform Plan and Reorganization Recommendations,'' the 
duties and functions of EDA will continue in the Bureau of Economic 
Growth under the Department of Commerce (DOC). This plan rethinks how 
the Federal Government can drive economic growth in concert with 
private sector investments in communities across the country. By 
coordinating and consolidating Federal economic assistance resources at 
the DOC, taxpayer dollars will receive a higher return on investment on 
projects that are transparent and accountable.

    Question 7b.The disaster relief supplemental that Congress passed 
in February to provide support for communities affected by the tragic 
hurricanes, fires, and other disasters last year, includes $600 million 
in grants from the Economic Development Administration. Will your 
proposal to eliminate EDA delay getting disaster funds out?
    Answer. Eliminating EDA will not delay getting disaster funds out 
to the communities affected by disasters last year. Under the National 
Disaster Recovery Framework (NDRF), the Department of Commerce is 
assigned as the lead coordinating agency for the Economic Recovery 
Support Function (ERSF). EDA's responsibility under this function is a 
result of the Department's decision to delegate it to EDA. The 
Department will continue to execute its leadership role under the ERSF 
and administer any supplemental funding at the Departmental level.
    Of the $600 million appropriated under the Disaster Supplemental, 
up to 2 percent of funds ($12.0 million) may be transferred to 
``Salaries and Expenses'' for administration and oversight and $1 
million is available for the OIG. The remaining $587.0M is available 
for grants. Upon EDA's elimination, the Department would assume 
responsibility for administration and oversight of the disaster 
recovery awards and would draw upon the up to 2 percent appropriated 
for administration and oversight. To date, EDA has transferred $4.0M of 
the up to $12.0M; the balance of those funds remain available for 
future Department administration and oversight activities.
    After an expeditious process for developing the Notice of Funding 
Opportunity (NOFO) for the Disaster Supplemental Appropriation that 
Congress passed in February 2018, EDA began making Disaster 
Supplemental awards in June 2018. As of February 1, 2019, EDA had 
awarded $119.1 million of these funds. EDA is continually reviewing 
grant applications as they are received and will make additional awards 
based on the merit of the applications received.

    Question 7c. How long until affected communities start seeing these 
funds?
    Answer. In June, EDA made its first grant award from the $600 
million disaster relief supplemental that Congress passed in February 
2018. EDA is continually reviewing grant applications as they are 
received and will make additional awards based on the merit of the 
applications received.

    Question 8a. After September 11th, we saw a decrease in tourism 
relative to other countries. So Congress came together in a bipartisan 
way to address this issue through the creation of BrandUSA, a public-
private partnership that promotes tourism to the U.S. This is a program 
funded by the private sector and by foreign visitors who pay certain 
fees when travelling to the United States. The investment in BrandUSA 
pays off--for every $1 BrandUSA spends, tourists and travelers spend 
$28.
    I know the administration is focused on reducing the trade deficit. 
Do you believe tourism is an effective way to do that?
    Answer. Commerce's National Travel and Tourism Office (NTTO) will 
be working with the incoming Travel and Tourism Advisory Board to set a 
new goal for international inbound travel to the United States that 
would be supported by the National Strategy for Travel and Tourism.
    For more than two decades, international inbound travelers to the 
United States have spent more money visiting here than U.S. outbound 
travelers have spent abroad. In 2017, the United States enjoyed a trade 
surplus for travel and tourism.

    Question 8b. As the Secretary of Commerce is this something that 
you're raising with the President?
    Answer. I raise a variety of trade policy issues with the 
President, including how to address the trade deficit.

    Question 8c. The authorization for BrandUSA to receive fees expires 
in 2020. Do you and this administration believe that this authorization 
should be extended?
    Answer. The administration believes in the importance of travel and 
tourism to the economy. However, the administration also believes there 
are other priorities for the use of funds.

    Question 9a. The fiscal year 2018 omnibus provided at least a 5 
percent increase for scientific research within NIST and NOAA. However, 
the President's fiscal year 2019 budget request would reverse that 
progress and more. It proposes slashing the research and development 
investment at NIST by 21 percent and at NOAA by 41 percent.
    One argument that I often hear from the administration for cutting 
government investment in science, is that the private sector will make 
up the difference. To me, this argument does not hold water. Given your 
vast experience in the private sector do you believe this is the case--
do private businesses invest in high-risk, basic long-term research?
    Answer. Maintaining a robust science and technology base requires 
contributions from both the Government and the private sector. The 
Trump administration is committed to advancing technological 
development and conducting research and development (R&D) to ensure 
national security, grow the economy, create well-paying jobs, and 
improve the lives of Americans across this great Nation. To those ends, 
Department of Commerce Bureaus like NIST and NOAA continue to engage in 
important research efforts. NIST specifically is central to a number of 
critical national priority and emerging technology R&D areas including 
quantum science, artificial intelligence, cybersecurity, and advanced 
manufacturing. Additionally, NIST, in partnership with the White House 
Office of Science and Technology Policy, is developing a comprehensive 
plan to improve the transfer of technologies from Federal laboratories 
to the private sector. By improving this technology transfer, the 
Department and NIST will spur economic growth, create new well-paying 
jobs, and increase our global competitiveness.

    Question 9b. Are you concerned about what will happen to U.S. 
competiveness if we pull back as our global competitors continue to 
invest?
    Answer. Consistent and stable investment in science and technology 
is a critical element to the health of high-technology economies like 
the U.S. With international competition increasing in critical emerging 
technologies areas (quantum science, artificial intelligence, advanced 
materials, advanced electronics, etc.) the ability of the U.S. to 
dominate and take advantage of the economic and national security 
benefits of technological leadership can no longer be taken for 
granted. Data collected by the Organization for Economic Co-operation 
and Development (OECD) and the National Science Foundation highlight 
the increasing competitive environment. The U.S. has long been 
recognized as a global science and technology (S&T) leader, spending 
more on R&D than any other country and accounting for around 40 percent 
of total OECD countries' R&D expenditures, but our international 
position is being challenged perhaps now more than ever. Other nations, 
especially China ($408.8 billion in 2015), are quickly closing the gap 
in total expenditures on R&D, and have long been in front in R&D 
Intensity Amount of R&D as percentage of Gross GDP. In 2017, China's 
President Xi Jinping announced plans to make China the world's biggest 
superpower by 2050, fueled in part by large investment in R&D. China's 
spending on R&D grew by an average of 18 percent per year between 2010 
and 2015, a number that is 4X faster than U.S. spending growth and will 
likely surpass U.S. R&D spending within the next 5 years (National 
Science Board 2018). (Sources: https://nsf.gov/nsb/sei/ and https://
www.nsf.gov/statistics/2018/nsb20181/report/sections/research-and-
development-u-s-trends-and-international-comparisons/cross-national-
comparisons-of-r-d-performance).

    Question 10a. Advancements in hydrography and ocean and coastal 
mapping benefit the Northeast region, as well as the entire Nation, 
with respect to national security, energy independence, and innovation.
    Can you characterize the importance of ensuring that our country 
remains a leader in this field and the long-term opportunities it 
supports with respect to gas/oil exploration and understanding of the 
extended continental shelf, as well as oceanographic, biological, and 
geological phenomena?
    Answer. Our Nation's ability to reap the economic benefits of our 
vast undersea resources is dependent on accurate information to define 
the ocean space under U.S. jurisdiction, and beyond. Approximately 30 
percent of the U.S. Exclusive Economic Zone (EEZ) has been mapped to 
modern navigational standards. The EEZ serves as the marine highway for 
imports and exports, linking the United States to the global economy. 
In fact, our Nation's ports are the lifelines of our economy. In 2017, 
foreign trades through U.S. ports were valued at $1.6 trillion: $527 
billion exports and $1.1 trillion imports were moved by vessels, making 
safe navigation in our ports and waterways essential.
    Accurate, high resolution bathymetric data is essential for 
identification of critical minerals, optimal wind energy siting, a full 
understanding of the sources and effects of ocean sound, and proper 
characterization and assessment of marine sanctuaries. Even businesses 
such as aquaculture farms are being sited offshore due to the promise 
of more cost-efficient production.
    NOAA recognizes and addresses this critical need through the 
Integrated Ocean and Coastal Mapping (IOCM) program and other large 
regional mapping campaigns, such as Seabed 2030, the interagency 
EXPRESS project with the Bureau of Ocean Energy Management and the U.S. 
Geological Survey, and the West Coast Deep Sea Coral initiative. 
Through these and other interagency initiatives, NOAA and interagency 
partners avoid redundant surveys and target our efforts on the most 
vital areas. To make the most of this effort, it is vital that the 
Nation remains a leader in hydrographic surveying, and that NOAA 
maintains and builds on its hydrographic expertise with people, modern 
ships and other platforms and advanced technology.

    Question 10b. Modern hydrographic data requires an increasingly 
broad set of highly technical skills, including geodesy, cartography, 
engineering, and computer science while the applications of seafloor 
surveying are expanding well beyond chart-making to a range of 
biological, engineering, and Earth science applications. As the breadth 
of ocean-mapping applications continues to expand, what are the 
workforce needs and how does the academic research community, through 
partnerships like the Joint Hydrographic Center in New Hampshire, 
address these challenges?
    Answer. The Center for Coastal and Ocean Mapping/Joint Hydrographic 
Center (CCOM/JHC) was founded in 1999 with two main objectives: (1) to 
develop tools to advance ocean mapping and hydrography; and (2) to 
train the next generation of hydrographers and ocean mappers. To 
fulfill these objectives in a rapidly evolving field, research at JHC 
is proposed by the university principal investigator based on mission 
focus areas identified in the Federal Funding Opportunity Notice. This 
approach enables world-class researchers at the University of New 
Hampshire to pursue cutting edge research concepts and approaches, and 
has resulted in major advances in hydrographic and ocean mapping 
science.
    These advances are effectively transitioned to operations at NOAA 
and elsewhere thanks to the long-standing relationship between the JHC 
and NOAA's Office of the Coast Survey. NOAA also has academic 
partnerships with the University of Southern Mississippi and George 
Mason University to further advance its goals for building capacity in 
people and technology.

    Question 11. Last month, the Vice President announced that the 
Department of Commerce will take a more active role promoting and 
monitoring commercial space ventures. I look forward to seeing a more 
comprehensive plan of what this entails. But in general, I wish the 
Department would focus more on promoting economic development here on 
Earth. How to you justify a greater role in promoting business in space 
while abandoning development and promotion of businesses on Earth?
    Answer. The Department of Commerce promotes job creation and 
economic growth by ensuring fair and reciprocal trade, providing the 
data necessary to support commerce and constitutional democracy, and 
fostering innovation by setting standards and conducting foundational 
research and development. Through our bureaus and 46,608 employees (as 
of January 31, 2018) located in all 50 States, every U.S. territory, 
and more than 86 countries, we provide U.S.-based companies and 
entrepreneurs invaluable tools through programs such as the Decennial 
Census, the National Weather Service, NOAA Fisheries, and the Foreign 
Commercial Service. Among many other functions, the Department oversees 
ocean and coastal navigation, helps negotiate bilateral trade 
agreements, and enforces laws that ensure a level playing field for 
American businesses and workers. Any new efforts to advance commercial 
space activities will lead to significant developments in global 
economic activity as technology including GPS, remote sensing, earth 
observations, weather predictions, and satellite telecommunications 
grow increasingly vital to modern business operations.

    Question 12a. In February, it was reported that after a Department 
review, four political appointees who were operating with temporary 
security clearances within the DOC left their posts.
    I know that you cannot speak to the specifics of the cases, but how 
long were these individuals serving in their roles?
    Answer. According to the Department's records, the four employees 
were employed during the following periods:

  --Employee #1 was employed by the Department of Commerce from 2/7/17-
        4/1/17 (Office of the Secretary), and from 4/2/17 to 3/17/18 
        [International Trade Administration (ITA)].
  --Employee #2 was employed by the Department of Commerce from 5/22/17 
        to
        3/17/18 [Minority Business Development Agency (MBDA)].
  --Employee #3 was employed by the Department of Commerce from 5/22/17 
        to
        3/17/18 (ITA).
  --Employee #4 was employed by the Department of Commerce from 4/18/17 
        to
        3/17/18 [Economic Development Administration (EDA)].

    Question 12b. Did they have access to classified information in 
their roles?
    Answer. Although it was unlikely that some or all of these four 
employees would have accessed classified material because of the nature 
of their work, their interim security clearances would have allowed 
them access only to materials classified up to the Secret level.

    Question 12c. Are there other political appointees still operating 
with temporary clearances?
    Answer. There are no political appointees operating with interim or 
temporary clearances at the Department of Commerce.

    Question 12d. If so how does the Department plan to rectify this?
    Answer. Not applicable.

    Question 13. In February 2014 the Department of Commerce set up the 
Organization of Scientific Area Committees (OSAC) for Forensic Science 
at NIST that incorporated most of the Scientific Working Groups that 
were formerly at the Department of Justice. We had concerns about this 
move in Congress, but our understanding is that the project is going 
well, and needed standards are being created in a collaborative process 
with stakeholder engagement. However, we have heard that the Department 
of Commerce is reluctant to continue this effort at NIST. What are your 
plans and why is NIST seeking to outsource this effort when forensic 
science seems to need NIST's leadership and expertise in creating 
consensus scientific standards?
    Answer. With the funding provided in fiscal year 2018 
appropriations NIST will continue its support of the OSAC. NIST has 
been and remains committed to participating in the OSAC process to 
provide scientific expertise, metrology, and testing expertise to 
underpin the development of consensus standards for forensic science. 
However, from the beginning NIST has seen its role in supporting the 
OSAC as temporary, and considers that the OSAC will be most effective 
when it is transitioned to and operated by an independent, private-
sector entity, such as a conformity assessment or accreditation body. 
NIST participates in and provides its technical expertise to technical 
standards development in many other research areas through open, 
consensus-based standards development processes run through 
organizations such as the American Academy of Forensic Sciences Academy 
Standards Board (ASB), ASTM International, and National Fire Protection 
Agency. NIST continues to work with the forensic science community on 
developing transitions plans, which would be implemented over a number 
of years to ensure a successful.

    Question 14a. I have heard from a constituent who has filed for a 
number of patents with the U.S. Patent and Trade Office over the years. 
He also happens to have a permanent medical condition. This condition 
allows my constituent to include with each patent he files a ``petition 
to make special,'' which the PTO has granted him for each application 
because his medical condition is qualifying. The forms and paperwork 
required to grant this petition must be filled out each time my 
constituent files for a patent, despite the fact that this 
constituent's condition--which the PTO has acknowledged is qualifying--
is permanent. A review of the enabling rules on these petitions 
suggests the PTO has no way of recognizing a permanent, qualifying 
medical condition. Such a mechanism would spare clients and the PTO 
from having to complete or review a petition with each filing when the 
PTO has already recognized a client's qualifying, permanent medical 
condition.
    Has the Patent and Trade Office ever considered creating a process 
to recognize clients with permanent, qualifying medical conditions and 
to grant these clients some kind of lifetime status?
    Answer. The U.S. Patent and Trademark Office (USPTO) has not 
formally proposed a change in regulations to authorize a continuing, or 
lifetime, grant of petitions to make patent applications special (in 
order to accelerate examination); however, I understand that your 
office has made such a suggestion. I have asked USPTO's management to 
consider whether such a change is needed and if this would lessen any 
burden on such applicants or improve the efficiency and effectiveness 
of the patent application examination process.

    Question 14b. Absent a legitimate reason to require a client to 
submit a petition to make special with every filing, will the Patent 
and Trade Office make plans to create a process to acknowledge 
inventors with qualifying, permanent medical conditions?
    Answer. I have asked that the USPTO consider such a proposal, or 
consider other changes to lessen any burden on such applicants.

    Question 15a. The Nation is facing an increased threat to coastal 
and navigable river-based communities, industries, and human and 
natural resources from technological and natural disasters. An 
essential component of resilience to these threats is disaster 
preparedness, response, and restoration to oil and chemical spills and 
marine debris impacts.
    What role does research and training play in resilience and 
disaster preparedness?
    Answer. Disaster events can be disruptive to natural resources, 
infrastructure, and the economic activities that depend on them. 
Actions taken in the immediate wake of a storm or pollution event can 
have a profound effect on mitigating the level of injury that occurs to 
a resource. Research into the effects of different pollutants, response 
actions, and remediation measures enable responders to make more 
informed decisions that minimize injury to resources and improve their 
prospects for recovery.
    Training serves a similar purpose. NOAA serves numerous critical 
roles in the aftermath of a disaster. Training improves individual and 
group job performance and strengthens working relationships. The more 
practiced these various personnel and organizations are at 
coordinating, communicating, and accessing important support and 
resources, the smoother an actual response will unfold.
    NOAA also hosts and supports trainings, to prepare responders from 
State, local, and other Federal agencies for future disasters. While 
NOAA Scientific Support Coordinators advise the Federal On-Scene 
Coordinator for any given event, in most cases multiple offices within 
NOAA as well as multiple agencies with different levels of jurisdiction 
are responsible for response support and operational decisionmaking. 
Therefore, practicing and transferring scientific expertise and 
experience to the broadest possible audience promotes more efficient 
planning and response.
    In the fiscal year 2019 President's Budget, NOAA is requesting a 
program increase for the Disaster Preparedness Program (DPP). The DPP's 
top priority is developing a multi-year exercise and training program 
that improves NOAA's ability to respond to disasters in a manner that 
is appropriate to the specific challenges of each geographic region. 
DPP will also dedicate resources to continuous improvement, using 
lessons learned from previous response events, to make future responses 
more effective.

    Question 15b. NOAA's Office of Response and Restoration provides 
comprehensive solutions to environmental hazards caused by oil, 
chemicals, and marine debris. One critical component of this mission is 
working with communities to address critical and regional challenges 
resulting from natural and technological disasters in order to minimize 
impacts and reduce risks to people, the economy, and the environment by 
providing scientific and technical support. What are the current 
programs that support these efforts?
    Answer. After the initial response to an environmental hazard, NOAA 
and other natural resource trustees are responsible for determining the 
extent of damages to natural resources and for seeking compensation on 
behalf of the public for the loss of ecosystem services. The National 
Ocean Service's Office of Response and Restoration works with NOAA's 
General Counsel for Natural Resources and the NMFS Office of Habitat 
Conservation to carry out the NOAA Damage Assessment, Remediation and 
Restoration Program (DARRP).
    Engagement with affected communities is a critical component of 
NOAA's efforts to assess damage and formulate restoration plans that 
restore resources to their previous state or otherwise compensate the 
public for the damage and lost use. NOAA solicits public review and 
comment at all stages of this process. Funds from responsible parties 
are reserved for ecosystem restoration and restoration of passive and 
active recreational use of the damaged resources, and does not include 
third party or private claims for property damage and lost business. In 
addition to securing resources for restoration, NOAA also ensures that 
protection and restoration are integrated into waste site cleanups to 
reduce further injuries and to promote recovery.

    Question 15c. How do the Coastal Response Research Center and NOAA 
research programs support this mission?
    Answer. The Coastal Response Research Center (CRRC), a partnership 
between NOAA and the University of New Hampshire, was established with 
the goal of reducing the consequences of spills and other hazards that 
threaten coastal environments and communities. It serves as a hub for 
cooperation among local, national, and international oil spill 
responder communities and private industry. CRRC conducts and oversees 
research on spill response and restoration, transforms research results 
into practice, encourages strategic partnerships, and educates the next 
generation of oil spill responders. CRRC's engagement with the academic 
community, response communities, and industry enables them to bring 
together many different perspectives the science of dispersants, oil in 
the Arctic environment, marine debris, and data management for disaster 
response and restoration.
    CRRC funds projects and hosts workshops on the human dimensions and 
transportation of spilled materials. One of the Center's notable 
efforts was leading the collaboration that led to the development of 
NOAA's Environmental Response Management Application (ERMA). ERMA is a 
web mapping application that is now used by the U.S. Coast Guard as the 
Common Operating Picture (COP) during responses activities including 
oil spills and natural disasters. Scientists who are working on natural 
resource damage assessments (including Deepwater Horizon) and the 
public also use ERMA to access a wealth of spatial data: operational 
clean-up information, environmental sensitivity and species details, 
and aerial imagery and remote sensing data.

    Question 16a. There has been a resurgence of interest in U.S. 
manufacturing, especially advanced technology products. The United 
States has long been considered a global hub of innovation and an 
economic leader based on the resulting prosperity. However, our trade 
balance in advanced technology products declined from a surplus in 2000 
to a trade deficit of $81 billion by 20102. Locally, New Hampshire is 
in the top quartile of States with respect to high-technology firms3, 
and manufacturing is the largest sector of the N.H. economy, accounting 
for 19 percent of the State's GDP. In New Hampshire, there are more 
than 2,000 small-to-medium enterprises (SMEs) with less than 60 
employees, many of which are focused in the aerospace and defense 
industries. Providing assistance to these SMEs is critical to their 
success and the economic, job creation, and national security benefits 
attained. At the Federal level, one of the programs focused on 
assisting SMEs is the Hollings Manufacturing Extension Partnership 
(MEP) administered through NIST. Yet, the President's budget request 
would eliminate this important program.
    Small and medium-sized manufacturers constitute nearly 99 percent 
of all U.S.-based manufacturing firms. In what ways is it important for 
these small and medium-sized firms to have access to partnerships with 
universities and community colleges?
    Answer. Universities promote a wide range of innovation services 
from process improvements to state-of-the-art production, but most 
often, research cannot simply be ``transferred'' to manufacturers, 
rather, technological advancements most often must be ``transitioned'' 
to manufacturers. The ability of the manufacturer to adapt new 
technology involves many factors, from the manufacturer's capacity and 
availability of resources to innovate, to a ready workforce. Small- and 
medium-sized manufacturers (SMMs) are particularly challenged to meet 
the ever-increasing technological demands of original equipment 
manufacturers (OEMs) as part of the supply chain.
    Small and medium-sized manufacturers need an intermediary that can 
help link them to university research and development (R&D) and 
facilitate technology transition, which will enable the manufacturer to 
achieve greater productivity and growth.
    Additionally, SMMs require a knowledgeable interpreter to help 
navigate career and technical education institutions (CTEs), community 
colleges, and universities facilitating access for their employees to 
career pathways and training opportunities, as well as connecting SMMs 
to potential employees through mentorships/internships/apprenticeships.

    Question 16b. In December 2016, the Department of Defense announced 
the establishment of a new Manufacturing USA institute focused on 
advanced tissue biofabrication. The Advanced Regenerative Manufacturing 
Institute (ARMI) is based in Manchester, NH and is leveraging $80 
million in Federal funding with over $214 million in additional public 
and private investment to advance research in tissue engineering. 
Please describe the ways in which NIST's Manufacturing Extension 
Partnership program can better partner and coordinate activities with 
NNMI's like the ARMI to meet their stated objective of transferring 
results and knowledge to our Nation's small and medium-sized 
manufacturers?
    Answer. Beginning in 2017, NIST MEP has invested approximately $17 
million for MEP centers to develop and operate partnerships with the 
Manufacturing USA Institutes. Through this NIST MEP investment, MEP 
centers are embedding staff at each of the 14 Manufacturing USA 
Institutes operating around the country, including the Advanced 
Regenerative Manufacturing Institute (ARMI) in New Hampshire. The 
projects have placed MEP center staff in residence at the Manufacturing 
USA institutes to develop ways to cultivate enduring collaborations 
among small U.S. manufacturers, the Institutes, and MEP centers for the 
benefit of all these entities. Specifically, the ``Embedding MEP into 
Manufacturing USA Institutes'' pilot projects are:

  --Developing innovative approaches for transferring technology from 
        the Institutes to small U.S. manufacturers;
  --Creating approaches for engaging small manufacturers in the work of 
        the Institutes through hands-on assistance and services;
  --Developing and testing business models by which MEP centers and 
        Institutes may effectively serve the needs of small U.S. 
        manufacturers in the technology areas of the Institutes, and 
        facilitate knowledge and best practice sharing between the 
        Institutes and MEP centers; and
  --Cultivating an enhanced nationwide network of partnerships among 
        the Institutes and MEP centers.

    Specifically, for ARMI, a team of approximately a dozen MEP centers 
around the country, led by Massachusetts MEP and New Hampshire MEP, is 
partnering with the Institute to embed MEP staff at ARMI and develop 
awareness by small manufacturers of ARMI manufacturing technologies and 
business opportunities. Business opportunities for small manufacturers 
here include identifying and developing small manufacturers as members 
of the supply chains that will support the scale production of the 
biotechnologies that are the focus of ARMI.

    Question 17. Skilled, dedicated stewardship is critical to the 
Census Bureau's ability to deliver a successful Census that preserves 
cost savings. Are any candidates in consideration for nomination to the 
position of Census Director? Is the administration actively looking? 
Has it solicited the Department's recommendations?
    Answer. I am very pleased that the U.S. Senate confirmed by voice 
vote with no opposition Dr. Steven Dillingham to be Director of the 
U.S. Census Bureau. He brings a wealth of experience, including 
formerly leading two other statistical agencies in his accomplished 
career of Federal service. Dr. Ron Jarmin, who was formerly performing 
the non-exclusive duties and functions of the director, remains at the 
bureau as the Deputy Director and Chief Operating Officer.

    Question 18. How does the Census Bureau intend to incorporate 
administrative records into decennial Census data? Given the enduring 
uncertainty in this area, can you assure us that the fiscal year 2019 
budget request will be sufficient to cover, in addition to other 
potential needs, cost increases that may result from a determination 
that the Bureau cannot validate or move forward with widespread use of 
administrative records in the 2020 Census?
    Answer. For the 2020 Census, ``administrative records'' and 
``third-party data'' are terms used to describe micro data records 
contained in files collected and maintained by Federal, State, and 
local government agencies (``administrative records'') for 
administering public programs and commercial entities (``third-party 
data'') providing commercial services.
    For many decades, the Census Bureau has successfully and securely 
used administrative records and third-party data for statistical 
purposes. The Census Bureau obtains administrative records and third-
party data under Section 6 of Title 13 of the U.S. Code, and Section 9 
protects the confidentiality of these data, which by law the Census 
Bureau protects with the same rigor as data collected directly from 
respondents, employing a wide-range of policy, procedural, information 
technology, and methodological safeguards. The Census Bureau uses 
administrative records to impute information for invalid, inconsistent, 
or missing responses. The Census Bureau uses third-party data sources, 
such as CoreLogic, to identify vacant or non-existing households, and 
to identify the best time to contact households in the Non-Response 
Follow-up (NRFU) operation and will continue to do so in 2020.
    For the purposes of enumeration, based on the current operational 
plan, each nonresponding household will receive multiple communications 
consisting of six mailings, including a paper questionnaire on the 
fourth mailing, and at least one in-person visit from a Census Bureau 
enumerator. If the enumerator is unable to contact a resident, the 
enumerator will leave a notice on the door encouraging the household to 
self-respond.
    The Census Bureau estimates that up to 6.5 million households that 
do not respond to the NRFU enumerator will be enumerated using Federal 
administrative records, as noted in Federal Register Notice 2018-12365 
at page 26646 (published on June 8, 2018). These cases, which represent 
less than 5 percent of the approximately 145 million addresses in the 
Census master address file, are part of the approximately 60 million 
addresses that constitute the expected NRFU workload for the 2020 
Census. Administrative record enumeration will only occur in a well-
defined set of circumstances when multiple contacts, including a visit, 
have not resulted in a completed questionnaire and where the Census 
Bureau is confident that the Federal administrative record data are 
reliable.
    The Census Bureau has not yet made the final determination on 
whether the use of State administrative data, such as program data from 
the Supplemental Nutrition Assistance Program or Temporary Assistance 
to Needy Families, will be feasible. This determination is expected 
later this year. The fiscal year 2019 request contains funding to 
handle a number of risks, including the risk that administrative 
records will not be available for use as originally envisioned.

    Question 19. In response to a question about broadband access 
during the hearing, you brought up First Net and seems to suggest that 
the installation of broadband for emergency purposes in a community 
could be used to leverage broadband access for private businesses and 
residences. Is this the case? Because we're hearing something very 
different in New Hampshire.
    Answer. The FirstNet public safety nationwide broadband network is 
designed to provide the best service possible to meet the needs of our 
Nation's first responders and other public safety personnel. The Middle 
Class Tax Relief and Job Creation Act of 2012 permits AT&T, through its 
contract awarded by FirstNet, to provide commercial and residential 
wireless broadband access on FirstNet's network when that capacity is 
not being fully utilized by its primary public safety customers. 
FirstNet fully expects AT&T to provide such service across the Nation, 
including in rural New Hampshire. As an added benefit, while deploying 
the FirstNet system, AT&T is upgrading their commercial network at the 
same time, preparing for 5G deployment and lighting up additional 
commercial spectrum across the county to meet the demands of their 
commercial customers. Additionally, FirstNet will require significant 
additional infrastructure to support both network coverage and 
capacity. The towers and other infrastructure being deployed for the 
FirstNet system could lower the cost of deployment for other carriers 
in rural parts of the country. We anticipate that this will allow for 
private businesses and residences to take advantage of these upgrades 
in New Hampshire and throughout the Nation. The FirstNet regional team 
recently met with New Hampshire officials and with other States' 
Statewide Interoperability Executive Committees (SIEC) to ensure that 
consistent communication continues between FirstNet and all States 
throughout the deployment phase of the project. NTIA will continue to 
work closely with FirstNet to ensure that public safety receives the 
very best system possible.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question 1a. On December 12, 2017, Arthur Gary, General Counsel of 
the Justice Department's Justice Management Division, sent a letter to 
the Census Bureau requesting the addition of a question on citizenship 
to the upcoming census. The Justice Department's letter stated in 
relevant part that adding a citizenship question to the census was 
``critical to the Department's enforcement of Section 2 of the Voting 
Rights Act and its important protections against racial discrimination 
in voting.'' (Dec. 12, 2017 Letter from Arthur E. Gary, General 
Counsel, Justice Management Division, to Dr. Ron Jarmin, Performing the 
Non-Exclusive Functions and Duties of Director, U.S. Census Bureau.)
    Several months later, on March 26, 2018, you issued a memorandum 
directing the Census Bureau to add a question on citizenship status to 
the 2020 Census. Your memorandum stated that the inclusion of ``a 
citizenship question on the 2020 decennial census is necessary to 
provide complete and accurate data in response to the DOJ request.'' 
(Mar. 26, 2018 Memo from Sec. Wilbur Ross to Karen Dunn Kelley, Under 
Sec. for Economic Affairs, re: Reinstatement of a Citizenship Question 
on the 2020 Decennial Census Questionnaire.)
    Prior to receiving the Justice Department's December 12, 2017 
letter and request to add a citizenship status question to the 2020 
Census, did you discuss the possibility of adding a citizenship status 
question with any individual in the Commerce Department (including the 
Census Bureau), Department of Justice, Department of Homeland Security 
(or any components thereof), White House, or White House Counsel's 
Office? If so, with whom and when? Please provide names, titles, and 
agency or departmental affiliations, as well as the dates of any such 
discussions.
    Answer. The documents containing information about Secretary Ross's 
decisionmaking process in connection with his decision to reinstate the 
citizenship question on the 2020 decennial census can be found here: 
http://osec.doc.gov/opog/FOIA/FOIA_elibrary.html.

    Question 1b. What communications did you or anyone else in Commerce 
Department or Census Bureau leadership have with the White House, White 
House Counsel's Office, Department of Justice, or Department of 
Homeland Security (or any components thereof) regarding the addition of 
a question on citizenship to the 2020 Census, both before and after the 
Justice Department sent its December 12, 2017 letter?
    Answer. The documents containing information about Secretary Ross's 
decisionmaking process in connection with his decision to reinstate the 
citizenship question on the 2020 decennial census can be found here: 
http://osec.doc.gov/opog/FOIA/FOIA_elibrary.html.

    Question 1c. What communications did you or anyone else in Commerce 
Department or Census Bureau leadership have with the White House, White 
House Counsel's Office, Department of Justice, or Department of 
Homeland Security (or any components thereof) regarding the addition of 
a question on citizenship to the 2020 Census, both before and after you 
issued your March 26, 2018 memorandum?
    Answer. The documents containing information about Secretary Ross's 
decisionmaking process in connection with his decision to reinstate the 
citizenship question on the 2020 decennial census can be found here: 
http://osec.doc.gov/opog/FOIA/FOIA_elibrary.html.

    Question 1d. Did you or any other official, staff member, or 
employee of the Commerce Department (including the Census Bureau) ever 
direct the Justice Department to request the inclusion of a citizenship 
question on the 2020 Census?
    Answer. The documents containing information about Secretary Ross's 
decisionmaking process in connection with his decision to reinstate the 
citizenship question on the 2020 decennial census can be found here: 
http://osec.doc.gov/opog/FOIA/FOIA_elibrary.html.

    Question 1e. At any point during the 2016 Presidential transition 
or since President Trump's inauguration have you discussed with the 
President the inclusion of a citizenship question on the 2020 Census?
    Answer. The documents containing information about Secretary Ross's 
decisionmaking process in connection with his decision to reinstate the 
citizenship question on the 2020 decennial census can be found here: 
http://osec.doc.gov/opog/FOIA/FOIA_elibrary.html.

    Question 1f. Before issuing your memorandum directing the Census 
Bureau to add a citizenship question to the 2020 Census, did you 
consult with career staff at the Census Bureau or within the Commerce 
Department about the impact, effects, potential problems, or 
advisability of adding the citizenship question? If so, what did career 
staff advise with respect to the addition of the question? In directing 
the Census Bureau to add the citizenship question, did you disregard 
the advice of career staff?
    Answer. The documents containing information about Secretary Ross's 
decisionmaking process in connection with his decision to reinstate the 
citizenship question on the 2020 decennial census can be found here: 
http://osec.doc.gov/opog/FOIA/FOIA_elibrary.html.

    Question 2a. Your March 26, 2018 memorandum stated that the 
``Department of Commerce is not able to determine definitively how 
inclusion of a citizenship question on the decennial census will impact 
responsiveness. However, even if there is some impact on responses, the 
value of more complete and accurate data derived from surveying the 
entire population outweighs such concerns.'' (Mar. 26, 2018 Memo from 
Sec. Wilbur Ross to Karen Dunn Kelley, Under Sec. for Economic Affairs, 
re: Reinstatement of a Citizenship Question on the 2020 Decennial 
Census Questionnaire.)
    Your own memorandum concluded that the Commerce Department could 
not determine how the citizenship question would impact census response 
rates. On what basis, then, did you conclude that ``the value of more 
complete and accurate data derived from surveying the entire population 
outweighs'' concerns about the impact of a citizenship question on 
responsiveness?
    Answer. The documents containing information about Secretary Ross's 
decisionmaking process in connection with his decision to reinstate the 
citizenship question on the 2020 decennial census can be found here: 
http://www.osec.doc.gov/opog/
FOIA/Documents/AR%20-%20FINAL%20FILED%20-%20ALL%20DOCS%20%5b
CERTIFICATION-INDEX-DOCUMENTS%5d%206.8.18.pdf.

    Question 3a. Your March 26, 2018 memorandum addressed a number of 
considerations that factored into your decision to add a question on 
citizenship status to the 2020 Census. With respect to data, your 
memorandum cited an analysis in which the Census Bureau addressed 
response rates to the American Community Survey (ACS)--which does ask 
about citizenship status--to determine the impact that adding a 
citizenship question would have on census responsiveness. Your 
memorandum also cited input from the survey agency Nielsen. Based on 
these analyses, your memo concluded that ``while there is widespread 
belief among many parties that adding a citizenship question could 
reduce response rates, the Census Bureau's analysis did not provide 
definitive, empirical support for that belief.'' (Mar. 26, 2018 Memo 
from Sec. Wilbur Ross to Karen Dunn Kelley, Under Sec. for Economic 
Affairs, re: Reinstatement of a Citizenship Question on the 2020 
Decennial Census Questionnaire.)
    Notably, however, your memorandum did not address certain studies 
and analyses that concluded the addition of a citizenship question 
would be hugely detrimental to the accuracy of the 2020 Census. 
According to the New York Times, the Census Bureau's own scientific 
advisory panel--the Census Scientific Advisory Committee--released a 
statement decrying the ```flawed logic''' behind the decision to add a 
citizenship question. That same statement, per the Times, claimed your 
analysis was grounded in ```data collected in a different data 
collection context, in a different political climate, before anti-
immigrant attitudes were as salient and consequential''' as they are 
now. (Michael Wines, Census Bureau's Own Expert Panel Rebukes Decision 
to Add Citizenship Question, N.Y. Times (Mar. 30, 2018)) And in a 
November 2017 presentation at the National Advisory Committee on 
Racial, Ethnic, and Other Populations Fall Meeting, a Census Bureau 
researcher flagged concerns--based on pretesting would-be census 
respondents and observations of Census Bureau field staff--about ``an 
unprecedented ground swell in confidentiality and data sharing . . . 
particularly among immigrants or those who live with immigrants.'' 
(Presentation, Respondent Confidentiality Concerns and Possible Effects 
on Response Rates and Data Quality for the 2020 Census (Nov. 2, 2017))
    Before issuing your memorandum directing the Census Bureau to add a 
citizenship question to the 2020 Census, did you seek input from the 
Census Scientific Advisory Committee about the impact, effects, 
potential problems, or advisability of adding the citizenship question? 
If so, what did the Committee advise? If not, why not?
    Answer. The Census Scientific Advisory Committee did not recommend 
the inclusion of a citizenship question on the 2020 Census.

    Question 3b. At the time you issued your memorandum, were you 
familiar with the concerns raised by Census Bureau field staff that 
respondents--in particular immigrants and those living in mixed-status 
households--were hesitant to share information due to fears of 
confidentiality and data sharing? If so, did you take these concerns 
into consideration before issuing your memorandum?
    Answer. The Secretary's March 26, 2018 decisional memorandum 
acknowledges the argument, made by certain stakeholders, that ``fears 
that Census responses could be used for law enforcement purposes'' 
might lead to ``decreased response rates,'' but observes that ``no one 
provided evidence that reinstating a citizenship question on the 
decennial census would materially decrease response rates among those 
who generally distrusted government and government information 
collection efforts, disliked the current administration, or feared law 
enforcement.'' Moreover, the law is clear that census responses may not 
be used for law enforcement purposes or shared with any other agency, 
and that doing so is punishable by fine and imprisonment. The 
Secretary's full analysis is available in his publicly-available 
decisional memorandum.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
    Question 1. I sent you two letters for which I have not received a 
response. The first was sent on March 8, regarding the status of the 
End-to-End Census Test in Providence County. The second letter was sent 
on April 25, regarding the inclusion of a citizenship question as part 
of the 2020 Decennial Census. I would ask that you respond to those 
letters as quickly as possible.
    Answer. These letters have been sent. I apologize that those 
responses were so slow in coming, we will continue to do our best to 
respond in a more prompt manner.

    Question 2. As part of the 2018 End-to-End Census Test, the City of 
Providence formed a Complete Count Committee, which included the 
Providence Community Library, to encourage Providence County residents 
to respond to the questionnaire. Considering that public libraries 
provide free Internet access and usage assistance to the public, and in 
rural communities, often serve as their community's only provider of 
free Internet and computing services. How does the Census Bureau plan 
to collaborate with public libraries to ensure the 2020 Census is 
successful?
    What resources will be devoted to this effort?
    Answer. Public libraries are some of the most valued and trusted 
census partners and they play a critical role in helping people respond 
to the census every decade. For the 2020 Census, the Census Bureau has 
already established a partnership with the American Library Association 
(ALA), which is exploring the possibility of putting an Internet Self-
Response kiosk in every library in America so that people can respond 
online. The Census Bureau will continue to work with the ALA and other 
organizations that support libraries to ensure that this collaboration 
is stronger than ever before.

    Question 3a. Public libraries provide Internet access and usage 
assistance to the public. What is the Census Bureau's plan to inform 
public libraries about the Internet Self-Response option for the 2020 
Census?
    Will the Census Bureau provide instructional and informational 
material for libraries to utilize?
    Answer. As mentioned above, the Census Bureau already is working 
with ALA, which is well aware of the ability of people to respond via 
the Internet. Even if the possibility of installing kiosks in libraries 
proves unsuccessful, Internet response will be possible to anyone 
online in every library.

    Question 3b. Will the Census Bureau provide training and materials 
for librarians to help guide respondents utilizing the Internet Self-
Response option?
    Answer. Absolutely. The Census Bureau provides support materials to 
all partners, including libraries.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
                    south africa steel and aluminum
    Question 1. I heard from U.S. firms operating in South Africa that 
they are concerned about how the proposed steel and aluminum tariffs 
might impact South Africa. We have 600 U.S. firms operating on the 
continent.
    Has the administration considered offering South Africa an 
exemption from the tariffs?
    Answer. We have met with South African officials to discuss the 
Section 232 actions. The President's Section 232 decisions are the 
result of a robust and thorough interagency review coordinated by the 
White House. Decisions about country exemptions are made by the 
President, based on his assessment of the factors described in 
Proclamations 9710 and 9711.
    As of December 13, 2018, there have been 219 exclusions from the 
aluminum tariffs and 33 exclusions from the steel tariffs for products 
from South Africa.
              manufacturing extension partnerships (meps)
    Question 2. I am very disappointed that the administration once 
again proposed to eliminate Federal funding for the MEP program in its 
fiscal year 2019 budget request. It is a program that is highly 
effective at helping small manufacturers across the country, especially 
in Delaware. With bipartisan leadership from this committee, we 
provided an increase in funding for MEPs in the fiscal year 2018 
Omnibus.
    Given the clear bipartisan support for this highly successful 
program that benefits manufacturing, why does the administration 
continue to push to eliminate funding for it?
    Answer. The President's budget prioritizes national security and 
economic growth. This administration is confident that, as Congress 
originally intended the MEP program to be self-sustaining, even without 
an appropriation, the MEP Program will continue providing valuable 
products and services to manufacturers across the country.
                           manufacturing usa
    Question 3a. As you know, the Manufacturing USA Institutes are 
public-private partnerships created to grow advanced manufacturing in 
the United States. I appreciate the Department of Commerce's continued 
support in the fiscal year 2019 budget request for the Manufacturing 
USA institute that's lead by the University Delaware--the department's 
first institute, which will support innovations in biopharmaceutical 
manufacturing. However, I was disappointed that NIST was forced to 
cancel plans to issue an award for another institute due to a $10 
million cut to the Manufacturing USA.
    Do you plan to advocate for opening another Manufacturing USA 
Institute under NIST this year or in future years?
    Answer. The fiscal year 2019 budget request includes $15.1 million, 
which funds the Department of Commerce/NIST National Institute for 
Innovation in Manufacturing Biopharmaceuticals (NIIMBL). It also 
provides funding for NIST to manage the network of manufacturing 
institutes funded by other Federal agencies and its partners. The 
budget request does not include funding for additional DOC/NIST led 
Manufacturing USA institutes.

    Question 3b. How do you plan to support the Manufacturing USA 
program in the future?
    Answer. NIST will continue to fund NIIMBL and provide network 
support for the Manufacturing USA program.
                           sea grant program
    Question 4a. In your testimony, you said that the fiscal year 2019 
budget request is centrally focused on helping American businesses and 
industries compete globally while improving the economic conditions and 
everyday lives of the American people and their communities. Yet, this 
budget completely eliminates NOAA's Sea Grant College program, a 
program that benefits coastal and Great Lakes economies through an 
extension program very similar to agricultural extension at land grant 
universities. Sea Grant has bipartisan support because of its focus on 
the practical use of coastal resources, such as aquaculture and 
tourism.
    Given the wide popularity of the National Sea Grant program, its 
854 percent return on investment, and its emphasis on creating and 
sustaining coastal businesses and jobs, why does the administration 
continue to push to eliminate funding for it?
    Answer. The President's fiscal year 2019 budget prioritizes 
national security and economic growth. It also identifies the savings 
and efficiencies needed to keep the Nation on a responsible fiscal 
path. To meet these goals, some difficult decisions needed to be made, 
including terminations to certain external grant programs.

                     intellectual property in trade
    Question 5a. I recently organized a briefing focused on the 
counterfeiting in the sports industry. The scale of IP theft in that 
industry alone is staggering, and writ large for the U.S. economy as a 
whole. The estimated loss is between $225 and$ 600 billion dollars.
    As the administration seeks to renegotiate trade deals, what are 
you doing specifically to ensure that IP is better respected by our 
trading partners?
    Answer. As you note, respect for intellectual property rights has 
been a central requirement of our trade agreements. Potential trading 
partners should be prepared to elevate the protections they provide to 
U.S. intellectual property, including patents, trademarks, copyright, 
trade secrets, and undisclosed data, and our free trade agreements 
include detailed provisions on how these intellectual property rights 
must be protected and enforced.
    In addition, our Federal agencies conduct ongoing interagency 
processes, led by USTR, to assess whether countries are adequately and 
effectively protecting U.S. intellectual property rights, and to 
annually report their conclusions to Congress and to the public. These 
annual reporting processes include, for example, the Special 301 
Report, and the ``Notorious Markets'' list highlighting online and 
physical markets reported to be engaging in and facilitating copyright 
piracy and trademark counterfeiting.
    DOC participates robustly in these interagency processes, and 
issues surfaced in this reporting are routinely raised in country 
discussions, including by representatives of the U.S. Patent and 
Trademark Office, International Trade Administration, and the DOC 
Intellectual Property Attaches.
                                 ______
                                 
            Questions Submitted by Senator Joe Manchin, III
                  economic development administration
    Question 1. How will your department assist coal communities who 
rely on EDA support if you do away with this critical agency?
    Answer. In ``Building a Stronger America,'' the President proposed 
a framework to transform how infrastructure is delivered. The package 
is designed to help address America's crumbling infrastructure, 
including in rural communities. The plan will help attract needed 
capital investments, deploy broadband and install transformative 
infrastructure that will facilitate economic development. This 
infrastructure plan, along with the administration's focus on building 
a stronger overall economy is the best path forward for these rural 
communities. This administration is trying very hard to balance the 
needs of the economy and difficult choices have to be made. The 
decision on EDA was one of those difficult choices.
    Under the ``Delivering Government Solutions in the 21st Century 
Organization Reform Plan and Reorganization Recommendations,'' the 
duties and functions of EDA will continue in the Bureau of Economic 
Growth under the Department of Commerce (DOC). This plan rethinks how 
the Federal Government can drive economic growth in concert with 
private sector investments in communities across the country. By 
coordinating and consolidating Federal economic assistance resources at 
the DOC, taxpayer dollars will receive a higher return on investment on 
projects that are transparent and accountable.
            national oceanic and atmospheric administration
    Question 2. What were the operational reasons for cutting funding 
for the High Performance Computing System (HPCS) in Fairmont, West 
Virginia that is so critical to NOAA's overall mission? How will NOAA's 
overall capability in this regard be impacted by this decision?
    Answer. The President's fiscal year 2019 budget prioritizes 
national security and economic growth. It also identifies the savings 
and efficiencies needed to keep the Nation on a responsible fiscal 
path. To meet these goals, some difficult decisions needed to be made, 
including the eliminations of the supercomputing system and associated 
contract support in Boulder, Colorado and reductions to the 
supercomputing capability and associated contract support in Fairmont, 
West Virginia. The availability and reliability of NOAA's operational 
supercomputing will not be impacted, although the reduction impacts 
NOAA's Research and Development High Performance Computing System (R&D 
HPCS). Major transition projects including hurricane forecast 
improvement, the Next Generation Global Prediction System, and storm 
surge modeling will need to compete for space of NOAA's remaining R&D 
HPCS supercomputing assets, potentially resulting in delays to 
implementation of and upgrades to the operational models and 
improvements to forecasts and warnings. In the meantime, the R&D HPCS 
program will be using hurricane supplemental funding to increase 
capacity in Fairmont, West Virginia.
                             census bureau
    Question 3a. What metrics is the Bureau using to decide which areas 
are eligible for paper questionnaires and will this list of areas be 
made available to the public?
    Answer. The Census Bureau has multiple strategies for ensuring that 
households without Internet connectivity are included in the Census. In 
rural areas, and on many Tribal lands, Census enumerators will either 
conduct interviews with every household or walk every street and leave 
paper questionnaires on the doorsteps of each household while 
simultaneously updating the address list. The Census Bureau will use 
American Community Survey and Federal Communications Commission data to 
identify households with low levels of Internet connectivity. Those 
households will receive a paper questionnaire on the Census Bureau's 
first mailing. All nonresponding households get a paper questionnaire 
on the fourth mailing. After all the mailings are complete, if a 
household still hasn't responded, that household will be included in 
the Non-Response Follow-Up operation. That operation will include phone 
contacts and sending an enumerator to gather the data in person.

    Question 3b. Given that broadband data mapping has been incorrect 
in the past, is the Bureau willing to create a petition for State and 
local governments to request paper questionnaires for their 
communities?
    Answer. See previous answer.

    Question 3c. The Bureau received a $1.344 billion increase in the 
fiscal year 2018 omnibus to ensure the Census remains on track. With 
the large increase, does the Bureau plan to use any of this money to 
invest in hiring more enumerators or bring back canceled end-to-end 
tests like the one in Bluefield, West Virginia?
    Answer. The Census Bureau conducted the early operations of the 
2018 End-to-End Census Test in three locations that included the very 
rural areas of the Bluefield, Beckley, Oakhill region of West Virginia, 
and in Pierce County, Washington. The Census Bureau gained valuable 
experience in implementing census operations in areas with no Internet 
connectivity, and we are currently adjusting our systems and operations 
based on what we learned. The Census Bureau successfully implemented 
its management systems in these areas, and field staff were able to 
receive their assignments and submit their payroll and operational data 
at the beginning or end of their shifts when they could connect to the 
Internet, but they did not require Internet access while they were 
actually doing their work. This is important to the Commonwealth of 
Puerto Rico, which includes areas with sporadic Internet connectivity 
particularly in the aftermath of Hurricane Maria.
    The primary goal of the test is to ensure the effective integration 
of all of our systems and operations, and the Providence, Rhode Island 
site is ideal for that. Moreover, the operations the Census Bureau is 
implementing in rural areas, and on American Indian Reservations, are 
identical to those implemented in prior censuses, so they are well 
established and proven to be effective.
    The Census Bureau recognizes the importance of counting people in 
rural areas and the unique challenges that represents. The Census 
Bureau does recognize that the Internet response option is not feasible 
or acceptable to the entire population; alternative modes will be 
provided for respondents to complete their 2020 Census questionnaire, 
such as the paper methods used in the past. Our self-response contact 
strategies include invitation letters, post-cards, and questionnaires 
mailed to households. Although the objective is for a majority of 
respondents to complete their census questionnaire online, in areas 
with low Internet connectivity and other characteristics that make it 
less likely that respondents will complete the census questionnaire 
online, the Census Bureau offers an Internet Choice contact strategy 
where a questionnaire is provided on the first contact, in addition to 
information about how to respond online or by phone.
    A second step the Census Bureau takes to ensure an accurate count 
in rural areas involves an operation the Census Bureau refers to as 
``Update/Leave.'' This Operation is designed to update the address 
frame in areas where the majority of housing units either do not have 
mail delivered to the physical location of the housing unit, or the 
mail delivery information for the housing unit cannot be verified. The 
purpose of the operation is to update the address and feature data for 
the area assigned, and to leave a 2020 Census Internet Choice 
Questionnaire Package at every housing unit (HU) identified to allow 
the household to self-respond. The choice questionnaire package will 
offer occupants two different ways to respond to the census: through 
the Internet or by mailing back a completed paper questionnaire. 
Households that do not respond will be included in the Nonresponse 
Follow-up operation with correct geographic information.
    The Partnership and Communications Program also will include 
organizations that are focused on rural communities and advertising and 
promotion that will reach these areas as well.
    The efforts to enumerate Tribal areas are equally strong. The 
Census Bureau announced on July 1, 2015, that it would seek input from 
tribal leaders for the 2020 Census. The Census Bureau conducted 18 
Tribal consultation meetings that started 2 years earlier than those 
conducted for the 2010 Census. At these meetings, the Census Bureau 
requested input on topics like geography, data collection operations, 
and Tribal enrollment. Connectivity issues were discussed in these 
meetings, and the Census Bureau continues to explore ways to ensure 
that it has measures in place to address them. As the Census Bureau 
moves closer to the 2020 Census, the Bureau is working with leaders 
from each Tribe to determine the best way to conduct census operations 
in their areas. In many cases, the Census Bureau will use the Update 
Leave Operation in these areas as well.
    The Census Bureau also is working closely with Tribal leaders, as 
the Bureau develops the Communications and Partnership program. The 
contracting team, led by Young Rubicom (Team Y&R) includes G+G 
Advertising. G+G Advertising has been a leader in American Indian and 
Alaska Natives (AIAN) advertising and outreach to AIAN audiences for 
more than 20 years. The firm also has extensive decennial experience, 
having participated in the 2000 and 2010 Census campaigns. Team Y&R, 
G+G Advertising, and Census Bureau staff, both at the headquarters and 
local level, have been working on two key elements: research and 
partnerships. Working in conjunction with the Census Bureau, Team Y&R 
recently completed the Census Barriers Attitudes and Motivators Survey 
(CBAMS). CBAMS is a quantitative and qualitative research effort, which 
includes a survey with a sample of 50,000 households and 42 focus 
groups in 14 cities across the United States. The American Indian and 
Alaska Native population was a significant focus of this study. In 
addition, the Census Bureau is implementing its Community Partnerships 
Engagement Program (CPEP). CPEP is an effort that focuses on building 
and engaging community or grassroots level partnerships throughout the 
United States.
       national telecommunications and information administration
    Question 4. In my State, nearly 30 percent of West Virginians are 
without Internet access. The DOC budget requests $34 million for NTIA 
for fiscal year 2019. How does NTIA plan to use some of this funding to 
assist rural parts of the country like West Virginia?
    Answer. President Trump has made it clear that improving rural 
broadband availability is a key administration priority. To do so, we 
need accurate, reliable data to properly inform private sector 
decisions, to reduce regulatory barriers, and to better coordinate 
Federal programs that fund broadband infrastructure. In fiscal year 
2018, Congress appropriated funds for NTIA to work with the FCC and the 
States to update the broadband map with more diverse and granular data 
sources. The goal is to produce a more accurate assessment of broadband 
capabilities and provide a tool for policy makers to better target the 
funds to broadband. NTIA, on behalf of the Department of Commerce, 
requested comment on actions that can be taken to improve the quality 
and accuracy of broadband availability data, particularly in rural 
areas, as part of the activities directed by Congress in the 
Consolidated Appropriations Act of 2018. Comments were due on July 16, 
2018. See https://www.ntia.doc.gov/files/ntia/publications/
wv_broadband_enhancement_council_
dn_2018-11483_july_16_2018.pdf.
    Additionally, NTIA supports rural communities around the country 
that are looking to expand connectivity through its BroadbandUSA 
program. BroadbandUSA works with stakeholders to identify resources and 
provide technical assistance, and has helped more than 250 communities 
to develop public-private partnerships to meet their connectivity needs 
and digital inclusion goals.
    BroadbandUSA also acts as a convener, holding regional workshops 
and webinars on a variety of broadband topics and publishes guides on 
specific broadband topics to assist entities seeking to expand 
broadband infrastructure and adoption. In coordination with Senator 
Capito's offices and your office, BroadbandUSA held a workshop in 
Charleston, West Virginia September of 2017. I understand that the team 
continues to work with a number of the representatives who attended 
that workshop.
    NTIA is also leading on another major priority for this 
administration--removing barriers to broadband deployment. NTIA is 
working to improve Federal coordination around this goal through the 
Broadband Interagency Working Group (BIWG), which we co-chair alongside 
the Department of Agriculture's Rural Utilities Service. Our efforts 
are focused on three workstreams that align with key recommendations of 
the president's Task Force on Agriculture and Rural Prosperity, which 
released a report earlier this year on improving life in rural America. 
The top recommendation of the Task Force was to expand broadband. The 
three workstreams including Federal permitting, Federal funding and 
leveraging Federal assets.
    BroadbandUSA also supports the State Broadband Leaders Network 
(SBLN) to facilitate information sharing among representatives from 
more than 20 States. Through its events and webinars, BroadbandUSA is 
bringing together important voices across the country who can help to 
bridge the digital divide.
 national institute of standards and technology (nist)'s manufacturing 
                      extension partnership (mep)

    Question 5a. Why has NIST's MEP program been slated for 
elimination?
    Answer. The budget must be about priorities. Even though MEP has 
certainly performed a good function, the Budget prioritizes increasing 
spending for defense and military to protect our national security, 
furthermore we believe any further funding for MEP centers should come 
from non-Federal sources. We are in a challenging budget period and 
difficult budget decisions had to be made.

    Question 5b. If this program does not receive funding for fiscal 
year 2019 how will your department assist these small manufacturers who 
rely on this important program?
    Answer. As intended when the program was established, we believe 
that the MEP centers, which work with the small manufacturers, will 
transition to non-Federal revenue sources in the private sector. The 
MEP centers have key partnerships with local institutions that will 
allow the centers to continue to be the go-to experts for small 
manufacturers to connect them with needed resources that will increase 
competitiveness.
                                 ______
                                 
            Questions Submitted by Senator Chris Van Hollen
    Question 1a. ZTE's settlement with the U.S. Government included a 
7-year suspended denial of export privileges, which could be activated 
if any aspect of the agreement was not met and/or if the company 
committed additional violations of the Export Administration 
Regulations (EAR). Subsequently, the Commerce Department released 
documents produced by ZTE showing the great measures ZTE used to 
circumvent American sanctions and provides step-by-step guidelines for 
setting up shell companies to circumvent U.S. export controls. Last 
month, the Commerce Department activated its denial order of export 
privileges. Then the President tweeted that he was going to put this 
enforcement action on the table as part of your trade negotiations with 
China.
    Do you have concerns about ZTE's access to the U.S. market?
    Answer. The Bureau of Industry and Security (BIS) took action 
against ZTE for violations of the Export Administration Regulations 
(EAR) involving Iran and North Korea, and subsequently for false 
statements made to BIS. Concerns about access to the U.S. market by any 
foreign company, including ZTE, would be directly addressed by other 
laws and regulations.

    Question 1b. Did you ever recommend to the President that he offer 
to reduce or lift penalties on ZTE as part of the ongoing trade 
negotiations with China?
    Answer. I cannot discuss Executive Branch deliberations on this 
matter.

    Question 1c. Did the President consult with you about reducing or 
lifting the Commerce Department enforcement actions before he tweeted 
``President Xi of China, and I, are working together to give massive 
Chinese phone company, ZTE, a way to get back into business, fast. Too 
many jobs in China lost. Commerce Department has been instructed to get 
it done!''
    Answer. I cannot discuss Executive Branch deliberations on this 
matter.

    Question 1d. Did the President ask you or Secretary Mnuchin to 
reduce or lift penalties on ZTE or any Chinese company as part of your 
trade negotiations?
    Answer. I cannot discuss Executive Branch deliberations on this 
matter.

    Question 1e. Do you think it is appropriate to modify enforcement 
actions that are imposed for national security purposes as part of 
trade negotiations?
    Answer. Regarding enforcement actions on ZTE, on June 7, 2018, the 
Department of Commerce (the ``Department'') reached agreement on the 
largest penalty BIS has ever levied. As part of the settlement, ZTE 
paid $1 billion and placed an additional $400 million in suspended 
penalty money in escrow before BIS removed ZTE from the Denied Persons 
List. ZTE will also be required to retain a Department-selected Special 
Compliance Coordinator (SCC) and supporting team of subject matter 
experts selected by and answerable to BIS for a period of 10 years. On 
August 24, 2018, I announced the selection of Roscoe C. Howard, Jr. to 
be the Special Compliance Coordinator (SCC). If ZTE commits violations 
during the 10-year probationary period, the Department will again be 
able to deny it access to U.S. goods, software, and technology and/or 
collect the additional $400 million in escrow. The purpose of this 
settlement is to modify ZTE's behavior while setting a new precedent 
for monitoring to assure compliance with U.S. export control laws. The 
SCC will have unprecedented access to enable it to drive and monitor 
compliance. Under this arrangement, the SCC will vastly improve the 
speed with which the Department can detect and deal with any 
violations. This action was an enforcement matter not a trade 
negotiation.

    Question 1f. What are the implications for other actors being 
investigated for violating U.S. laws?
    Answer. The implication for other actors being investigated for 
violating U.S. export control laws is that severe and unprecedented 
penalties will be imposed on parties for violating our export control 
laws. These actions against ZTE are the strictest and most punishing 
requirements ever imposed in an export case by BIS.
    The record $1.4 billion settlement announced on June 8, 2018 allows 
the U.S. government to better carry out our law enforcement mission 
than if the April 15 denial order was kept in place. The strict and 
unprecedented compliance requirements of the settlement enable the U.S. 
government to keep close oversight on ZTE. Under the settlement, the 
denial order was re-suspended and extended from 7 years to 10 years, 
and ZTE was required to retain a team selected by and answerable to BIS 
and led by a Department-selected Special Compliance Coordinator (SCC) 
for the same ten-year period. The SCC's team has unprecedented access 
to ZTE enabling us to keep closer eyes on the company than if it were 
to shut down and reconstitute itself as various splintered parts. ZTE 
is also required to replace the board of directors and senior 
leadership of both of its principal entities.
    The compliance requirements of the June 8 settlement are 
meaningful, measurable, and significant. For example, within 6 months, 
ZTE will publish on its website the Export Control Classification 
Numbers for all goods, software, and technology subject to the Export 
Administration Regulations (EAR) that ZTE or its subsidiaries or 
affiliates sell, supply, produce, manufacture, assemble, export, 
reexport, or transfer. This detailed information will give U.S. 
officials an unprecedented amount of insight into ZTE's export 
compliance. BIS also gained authorization to conduct checks in ZTE 
facilities inside China without prior approval from the Chinese 
government. The severity of the terms of the settlement sends a strong 
message to the export community writ large on the importance of 
compliance with U.S. export regulations.

    Question 2. In a recent interview with CNBC, you said that you 
would look into sending a compliance unit to ZTE in exchange for relief 
on its seven-year denial of export privileges, stating that ``if we do 
decide to go forward with an alternative, what it literally would 
involve would be implanting people of our choosing into the company to 
constitute a compliance unit.''
    How does Commerce plan on resourcing this endeavor to ensure 
compliance?
    Answer. As specified in the superseding final order, the expenses 
related to the Special Compliance Coordinator (SCC), including the SCC 
staff, will be paid by ZTE. The Department of Commerce's remedy 
includes BIS selecting the SCC with unprecedented access to monitor and 
report on ZTE's compliance with the Export Administration Regulations.

                          SUBCOMMITTEE RECESS

    Senator Moran. The subcommittee stands in recess until 
Wednesday, May 16 at 2:30 p.m., when we will take the testimony 
of FBI Director Christopher Wray.
    The subcommittee is now adjourned.
    [Whereupon, at 11:57 a.m., Thursday, May 10, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
